<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, McCain, Leahy, Rubio, Coons, 
Shaheen, Lankford, Van Hollen, Daines, Merkley, and Murphy.

                  CIVIL SOCIETY PERSPECTIVES ON RUSSIA

STATEMENTS OF:
        VLADIMIR KARA-MURZA, VICE CHAIRMAN OF OPEN RUSSIA
        LAURA JEWETT, REGIONAL DIRECTOR OF EURASIA PROGRAMS, NATIONAL 
            DEMOCRATIC INSTITUTE
        JAN ERIK SUROTCHAK, REGIONAL DIRECTOR FOR EUROPE FROM THE 
            INTERNATIONAL REPUBLICAN INSTITUTE

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The subcommittee will come to order. Our 
hearing today is on Civil Society Perspectives on Russia.
    A couple of weeks ago we had a hearing about what Russia is 
doing regarding frontline states: the Baltics; Ukraine; 
Georgia; Poland; how Russia engages neighboring democracies; 
and the effort of the Putin government to undermine democracy 
in his backyard.
    Today we are going to learn what it's like in Russia 
itself, the rollback of democracy by the Putin regime, and the 
biggest victims of all: the Russian people. We have an 
incredible hearing today. I am very honored to have witnesses 
who will tell us what's really going on inside of Russia.
    Our first witness is Vladimir Kara-Murza, Vice-Chairman of 
Open Russia. I'll talk about him just in a moment; Laura 
Jewett, Senior Associate and Regional Director for Eurasia from 
the National Democratic Institute; Jan Surotchak, Regional 
Director for Europe from the International Republican 
Institute.
    After opening statements by myself and Senator Leahy, we 
will have 7-minute rounds and I am asking the witnesses if they 
could limit their testimony to 7 minutes. The bottom line is I 
am going to introduce the man who needs no introduction now and 
some would say doesn't deserve one, but I do.
    Senator McCain is going to introduce Mr. Kara-Murza. I just 
want to say this about Senator McCain. Of all of the voices, 
and it has been very bipartisan when it comes to condemning the 
Putin regime, no one has been louder and more forceful and more 
eloquent than Senator McCain.
    Senator McCain, the floor is yours.

                    STATEMENT OF SENATOR JOHN MCCAIN

    Senator McCain. Thank you very much, Mr. Chairman, and 
members of the subcommittee.
    I will just make brief remarks in my introduction, but I 
would mention to the subcommittee the first time I met Vladimir 
was when he came to my office many years ago with another great 
Russian patriot, Boris Nemtsov. And that was just one of a 
series of visits as Boris Nemtsov, a former member of the 
administration of Boris Yeltsin was one of the most important 
leaders of the opposition in Russia.
    And the last meeting I had with Vladimir Kara-Murza and 
with Boris, I said to him, ``I don't think you should go back 
to Russia because I think your life is in danger.'' And he 
said, ``Yes, I know it is, but I have to go back to my 
country.'' And I believe it was 1 month later in the shadow of 
the Kremlin someone walked up and fired a gun and murdered him, 
clearly under surveillance, clearly in the shadow of the 
Kremlin.
    Losing Boris Nemtsov was a tragic loss for Russia and the 
cause of human rights throughout the world. And I believe that 
Vladimir Kara-Murza has, by living his life, has honored the 
memory of Boris Nemtsov. He's been brave, outspoken, relentless 
champion for the Russian people. And twice, not once, but 
twice, he has been poisoned in an attempt to murder him, twice. 
And this is a string, as the subcommittee knows, of people 
being thrown from fourth floor hotel rooms, of people being 
shot, people being poisoned.
    It's very clear that Vladimir Putin has decided that he 
will eliminate his opponents and anyone who stands up for 
democracy and freedom. And he does so with relative impunity. 
So despite the attempts on Vladimir's life, the revolutionary 
spirit of this brave Russian patriot is unbroken.
    And I would just like to summarize, Mr. Chairman, by saying 
this same spirit is true of Vladimir's countrymen who joined 
protests this past weekend in nearly 100 Russian cities against 
the tyranny and corruption of the Putin regime. I've been 
particularly heartened to learn that so many of the thousands 
who exercised their rights were young people and students. 
These patriots were fully aware of their risks. Indeed, 
hundreds of peaceful demonstrators were detained in a revealing 
sign of the insecurity of the Putin regime, but they persisted 
in speaking truth to power, chanting, ``Russia will be free.''
    Because of the determination of Vladimir Kara-Murza and the 
multitudes of patriotic Russians just like him, I remain 
hopeful that the cause of truth and justice for the Russian 
people will be victorious.
    I thank the subcommittee for their pursuit and examination 
of the situation regards to not just United States relations 
with Russia, but Russia's relations with the world. And I thank 
Ranking Member Senator Leahy also for his many years engagement 
in this issue. I thank the Chairman and the Ranking Member and 
Members of the subcommittee.
    Senator Graham. Thank you, Senator McCain. I'll be very 
brief, and then we will get on with the testimony and Senator 
Leahy will make an opening statement.
    The purpose of this hearing is to make a case for a Counter 
Russia account in our appropriations bill. This subcommittee 
has jurisdiction and charge of all foreign assistance, the 
State Department. Now it is time has come for the Congress to 
set up a Counter Russia account to help front line states and 
organizations who are fighting back against Putin's regime, try 
to create some opportunities to help them financially. It is in 
American taxpayers' interest that we push back against Putin's 
efforts to dismantle democracy throughout the world.
    I would just say that what happened the last couple of days 
is encouraging to me, that people are taking to the streets in 
Russia to push back. It was 17,000 today, but it will be 50,000 
and eventually more and more and more.
    How does this movie end? It always ends the same way, but 
it takes people like Mr. Kara-Murza and others willing to risk 
their lives. It takes voices from the International Republican 
Institute (IRI) and National Democratic Institute (NDI) to tell 
the Congress and the world what is actually going inside of a 
dictatorship. Putin himself declares to be worth $101,000. Some 
estimates range from $40 to $70 billion, and there is a 
gentleman who thinks he is worth $200 billion.
    All I can say is whatever he has over the salary of being 
President of Russia comes at the expense of the Russian people. 
He and the Prime Minister have stolen the country blind and it 
is only a matter of time before people in Russia get tired of 
living this way where a few have almost everything and most 
struggle.
    So hopefully this Counter Russia account will empower 
people to push back more effectively. Hopefully this hearing 
today will shed some light on what is actually going on with 
Putin's regime and this subcommittee will put together a 
Counter Russia account and hopefully the Senate as a whole will 
pass new sanctions against Russia for interfering in our 
election, and they did, and for their effort to undermine 
democracy.
    The Putin regime knows no boundaries. They will kill. They 
will steal. They will do whatever is necessary to stay in 
power. It is my hope that we, the democratic world, the 
American people, will stand by those like Mr. Kara-Murza who 
are willing to die for what we sometimes take for granted, 
freedom.
    So, with that, Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. And I agree with 
you. When I read articles about Mr. Kara-Murza I am amazed at 
your courage and tenacity, but thankful that you are alive and 
can speak out.
    And our friend, John McCain, who just spoke, we are 
different parties. We have been absolutely united on condemning 
what Russia is doing and I am glad he and Senator Graham have 
spoken out.
    Mr. Chairman, I want to make one observation. For the past 
month or two our staffs have been working daily with their 
House counterparts to finalize our fiscal year 2017 bill. They 
had just about everything worked out when on Friday we learned 
the White House may be proposing a $2.8 billion cut to the 2017 
allocation.
    Those cuts would be arbitrary and indefensible. The people 
who are suggesting them have no idea what these programs do or 
what the cuts would mean for our ability to remain engaged as 
the world's super power. As the Secretary of Defense said, if 
you start cutting these programs you'd better buy him more 
bullets because he is going to need them.
    Now, 3 weeks ago we heard testimony from officials of five 
former Soviet republics that have been subjected to an 
intensifying pattern of threats, extortion, and in the cases of 
Ukraine and Georgia, military invasion and occupation by the 
Russian Government.
    At the hearing, I said that while we have long condemned 
Russia's attempts to intimidate its neighbors, we have come to 
appreciate the challenges those countries face even more since 
we have learned of Russia's actions in our own Presidential 
election.
    Vladimir Putin has used his power not only to extend 
Russia's sphere of influence in violation of international law, 
but as the chairman pointed out, he has created a kleptocracy. 
Another way to describe it is a kleptocracy that has enabled 
him and his closest friends to amass enormous personal wealth. 
Just look at what they did during the Winter Olympics and the 
billions that were stolen there.
    He can get away with it because he has simultaneously and 
systematically silenced his critics. Human rights activists and 
independent journalists have been arrested. They have been 
physically abused. They have been sentenced to years in prison 
on fabricated charges, and some have been murdered. The same 
with civil society organizations, harassed, offices vandalized, 
leaders imprisoned and tortured or assassinated.
    Even those who were once close to Putin's inner circle have 
been tracked down and killed when they spoke of corruption and 
thus became a liability. The recent assassination of Denis 
Voronenkov in Ukraine is widely suspected of being the work of 
the Russian Government.
    We have supported programs to assist civil society 
organizations in Russia. We have in many countries. And we 
should, but it is amazing to me that knowing the Russian 
Government can imprison or kill anyone it wants to, you, sir, 
have the courage to continue to speak out.
    It is easy for us to criticize as we sit here in total 
safety, but if you in Russia or Belarus or Uzbekistan or Turkey 
or Egypt or Cambodia, and so many other countries, speaking out 
can mean a death sentence. So we have to set the example. And I 
want to hear from the witnesses.
    Mr. Chairman, I would ask consent that my whole statement 
be part of the record.
    Senator Graham. Without objection.
    Senator Leahy. And I thank you for giving up forum to those 
who want to speak out in favor of Democracy.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Mr. Chairman, I want to make one observation before we begin, which 
is that for the past month or two our staffs have been working daily 
with their House counterparts to finalize our fiscal year 2017 bill. 
They are on track to resolving all but the most contentious issues this 
week.
    Then late last Friday we learned that the White House may be 
proposing a $2.8 billion cut to our 2017 allocation, as part of an $18 
billion transfer of funding for non-defense operations and programs to 
the Pentagon.
    The proposed cuts are not only arbitrary and indefensible, they 
suggest that whoever came up with many of them has little idea of what 
these programs do or what these cuts would mean for our ability to 
remain engaged as the world's super power.
    Three weeks ago we heard testimony from officials of five former 
Soviet republics that have been subjected to an intensifying pattern of 
threats, extortion, and, in the cases of Ukraine and Georgia, military 
invasion and occupation by the Russian Government.
    At that hearing I remarked that while we have long condemned 
Russia's attempts to intimidate its neighbors, we have come to 
appreciate the challenges those countries face even more since we 
learned of Russia's actions to influence our own presidential election.
    Vladimir Putin, that ``strong leader'' who President Trump admires, 
has used his power not only to extend Russia's sphere of influence in 
violation of international law, but to create a kleptocracy that has 
enabled him and his closest friends to amass enormous personal wealth.
    That has been possible because he has simultaneously and 
systematically sought to silence his critics. Human rights activists 
and independent journalists have been arrested, physically abused, and 
sentenced to years in prison on fabricated charges.
    Civil society organizations have been harassed, their offices 
vandalized, their leaders imprisoned and tortured or assassinated.
    Even those who were once close to Putin's inner circle have been 
tracked down and killed, when they exposed corruption and became a 
liability. The recent assassination of Denis Voronenkov in Ukraine is 
widely suspected of being the work of the Russian Government.
    Over the years, we have supported programs to assist civil society 
organization in Russia, as we have in many countries. We have done so 
because we recognize the dangers they face, and we know from our own 
experience the indispensable role that civil society plays in holding 
governments accountable--the thing President Putin is most afraid of.
    Frankly, it is amazing to me that, knowing that the Russian 
Government can imprison or kill anyone it wants to with impunity, that 
people like Mr. Kara-Murza have the courage--not only to speak out 
about corruption--but to come here today after barely surviving an 
attempt on his life.
    It is easy for us to criticize from the safety of where we sit. It 
is an entirely different thing for people in Russia, Belarus, or 
Uzbekistan--or in Turkey, Egypt, Cambodia, and so many other countries, 
where critics of corruption and dictatorship pay with their lives.
    The fact that they are willing to risk--and in some cases give--
their lives in defense of freedom of speech and democratic, accountable 
government compels us to do what we can to support and defend them.
    Our ability to do so depends, in part, on the example we set.
    It does not help when our own President extols the virtues of 
someone like Vladimir Putin, who has murdered his political opponents 
and rules like an authoritarian dictator.
    It does not help when our own president, who has bragged about his 
business dealings in Russia--a place where doing business is often 
synonymous with bribery--refuses to release his tax returns.
    It does not help when every week brings new revelations of 
collusion between the Trump campaign and the Russian Government, at a 
time when Russia was, according to the FBI and our national 
intelligence agencies, actively seeking to influence our election in 
favor of candidate Trump.
    Nor does it help when many in Congress act as if Russia's 
interference in our elections is not important, or that falsely 
accusing President Obama of illegal wiretapping can be treated as a 
joke.
    So at the same time that we provide a forum--like this hearing--for 
human rights and democracy advocates in Russia and other corrupt, 
repressive societies, let's set an example for the way governments 
should act.
    By doing so we would not only provide civil society activists in 
countries like Russia a model to point to, we would strengthen our own 
democracy.
    Mr. Chairman, thank you for holding this hearing and I look forward 
to hearing from our witnesses, particularly the difference our support 
makes to them and their organizations and what more we can do.

    Senator Graham. Thank you.
    Mr. Kara-Murza, the floor is yours.
STATEMENT OF VLADIMIR KARA-MURZA, VICE CHAIRMAN OF OPEN 
            RUSSIA
    Mr. Kara-Murza. Thank you very much, Chairman Graham, 
Ranking Member Leahy, esteemed Members of the subcommittee. 
Thank you very much for holding this important hearing and for 
the opportunity to testify.
    This past Sunday, March 26th, marks 17 years since Vladimir 
Putin was elected President of Russia. It was not, by any 
means, a flawless election. There were credible reports of 
ballot-stuffing and serious doubts as to whether Mr. Putin had 
obtained the 50 percent necessary for victory in the first 
round. But it was nevertheless the last thing we had that was 
at least close to a democratic vote. Not a single election held 
in Russia since then has been assessed by the Organization for 
Security and Co-operation in Europe (OSCE) monitors as free and 
fair.
    Elections have not been the only target of Mr. Putin's 
regime. Independent media outlets--especially ones with 
significant reach--have been silenced through political or 
economic pressure, or by direct government action. Many of the 
leading NGOs have been designated as ``foreign agents''--which 
in the Russian language is synonymous with ``foreign spies''--
under a recent law that targets groups which receive 
international funding. And these have included the Levada 
Center polling agency, the vote-monitoring Golos Association, 
and in what appears to be a calculated insult, Memorial, a 
human rights group co-founded by Andrei Sakharov.
    The courts and law enforcement bodies have long become 
tools of political repression. According to Memorial, there are 
currently one hundred political prisoners in our country, a 
number that is already comparable with the late Soviet period. 
They include opposition activists and their family members, 
such as Sergei Udaltsov and Oleg Navalny; regular citizens 
jailed for participating in peaceful street demonstrations; 
Ukrainians arrested after the annexation of Crimea, including 
filmmaker, Oleg Sentsov; as well as Alexey Pichugin, the 
remaining hostage of the ``Yukos case'' that saw Russia's 
largest oil company dismantled and its CEO, Mikhail 
Khodorkovsky, imprisoned for more than a decade for having the 
tenacity to support opposition parties and civil society 
groups.
    Last Sunday, as you mentioned, Mr. Chairman, tens of 
thousands of people went out to the streets across Russia, 82 
citizen towns across nine time zones from Vladivostok to 
Leningrad. And I may add that the vast majority of those 
protesters were young people, people in their twenties and 
early thirties and their teens, many college students, many 
high school kids. More than 1,500 people were arrested this 
past weekend, and there are now indications that the 
authorities may be preparing criminal charges against some of 
the participants.
    But there are, of course, worse fates than imprisonment. In 
the last several years, investigative journalists, opposition 
figures, human rights activists, anticorruption campaigners, 
and whistleblowers have met untimely deaths. In what was the 
most brazen political assassination in Russia in decades, Boris 
Nemtsov, former deputy prime minister and the most prominent 
political opponent of Vladimir Putin, was gunned down just 200 
yards from the Kremlin. Two years on, none of the organizers or 
masterminds of this crime have been identified or apprehended. 
That's complete impunity.
    Sometimes are near misses, and one happens to be sitting 
before you, Mr. Chairman. Twice in the past 2 years--in May of 
2015 and just last month, both times in Moscow--I experienced a 
sudden onset of symptoms consistent with poisoning that led to 
a multiple organ failure and left me in a coma and on life 
support. Doctors estimated a chance to survive at about 5 
percent. And both times the reason for this poisoning was named 
as undefined toxin. So I am very fortunate and certainly very 
grateful to be sitting here today.
    But these crackdowns and these repressions are only one 
side of the story because even in this atmosphere and in spite 
of it, there are people and organizations in Russia that 
continue to work to promote and defend human rights, the rule 
of law, and political freedoms. Our own movement, Open Russia, 
which was founded by Mr. Khodorkovsky, has launched a number of 
initiatives aimed at supporting civil society. Our Human Rights 
Project, for example, provides legal aid to those who face 
politically motivated prosecution, and in several cases has 
been successful in keeping activists out of prison.
    And I may add that our lawyers have certainly been 
overwhelmed over this past weekend with the massive arrests of 
participants of the street demonstrations where they are 
actively involved in helping those people who have been 
detained, including activists of Alexei Navalny's Anti-
Corruption Foundation.
    Open Russia offers financial support to the families of 
political prisoners who in many cases are left without the main 
breadwinner. Our Open Media project provides a platform for 
media startups that cover topics avoided by state news outlets. 
The Open Russia University is a growing online educational 
platform that seeks to present an unbiased view of contemporary 
Russia and create a community of informed citizens. Open 
Russia's election project is directed at supporting and 
training a new generation of democratic activists by providing 
them with opportunities to gain experience in political 
campaigns and in civic engagement. In fact, most of our work is 
focused on the young generation, the young people of Russia, 
the people who will face and who will shape a future post-Putin 
Russia.
    Now, of course, to work towards that post-Putin Russia is 
our task, task for Russian citizens, needless to say. And 
contrary to the claims by the Kremlin's propaganda, we never 
ask the United States for any kind of political support. All we 
ask is that you are honest about what is happening in Russia.
    The statutes of the OSCE, of which both the United States 
and Russia are full members, stipulate that, and I quote, 
``Issues relating to human rights, fundamental freedoms, 
democracy, and the rule of law are matters of direct and 
legitimate concern to all participating States and do not 
belong exclusively to the internal affairs of the State 
concerned.'' We also ask that you stay true to your values and 
not enable corrupt or abusive behavior.
    Little more than 4 years ago this Congress passed a Sergei 
Magnitsky Rule of Law Accountability Act, groundbreaking 
legislation that imposed U.S. visa bans and asset freezes on 
Russian officials involved in human rights violations. Boris 
Nemtsov called this law, and I quote, ``The most pro-Russian 
law in the history of any foreign parliament.'' Forty-four 
individuals have now been sanctioned under this law, including 
one of Mr. Putin's top lieutenants, General Alexander 
Bastrykin. We hope that the Magnitsky Act continues to be 
implemented to its full extent without regard for rank or 
influence.
    While taking a principled stand towards Vladimir Putin's 
regime, it is vital for the United States to continue to engage 
with Russia's civil society, including: by maintaining public 
diplomacy programs; developing Russian language media; creating 
opportunities for direct dialogue and people-to-people 
exchanges facilitated by special visa regimes, if necessary; 
and supporting the important work of organizations such as the 
National Endowment for Democracy. This is not only about money. 
Much more importantly, it is about the message that the United 
States sends to Russia's civil society. Do you choose to engage 
or to turn away?
    It is also very important for the United States to 
appreciate the difference between Vladimir Putin's regime and 
Russia. Mr. Putin would certainly like you to equate the two. 
In fact, one of his closest aides has been on record declaring 
that, and I quote, ``there is no Russia if there is no Putin.''
    The Kremlin is trying to portray the sanctions against 
itself and its actions, for example, in Ukraine as ``sanctions 
on Russia.'' Please do not help them to do that. Words are 
important. The language is important, including the language in 
the recently introduced Russia Sanctions Review Act of which, 
Mr. Chairman, I believe you are the lead sponsor. And I think 
it is essential to make it clear, including in the language of 
that law, that the United States does not seek to punish the 
Russian people for the actions of a regime they can neither 
unseat in a free election or hold accountable through 
independent media or a legitimate legislature.
    Vladimir Putin will not be in power forever. Let us 
consider the long-term interests and prepare the groundwork for 
future cooperation between the United States and Russia by 
maintaining, even in these difficult times, an open, 
productive, and mutually beneficial dialogue between our 
peoples and our civil societies.
    Thank you very much for the opportunity to testify and I 
look forward to any questions you may have.

    [Clerk's Note: Mr. Kara-Murza requested that his whole 
statement and his essay ``Answering the Kremlin's Challenge'' 
be included in the hearing record.]

    [The statement and essay follow:]
               Prepared Statement of Vladimir Kara-Murza
    Chairman Graham, Ranking Member Leahy, members of the subcommittee, 
thank you for holding this important hearing, and for the opportunity 
to testify before you.
    This past Sunday, March 26, marked 17 years since Vladimir Putin 
was elected president of Russia. It was not a flawless election--there 
were credible reports of ballot-stuffing and serious doubts about 
whether Mr. Putin had obtained the 50 percent required for a first-
round victory--but it was the last thing we had that was at least close 
to a democratic vote.\1\ Not a single election held in Russia since 
then has been assessed by OSCE monitors as free and fair.\2\
---------------------------------------------------------------------------
    \1\ ``And the Winner Is?'' The Moscow Times, September 9, 2000 
http://old.themoscowtimes.com/sitemap/free/2000/9/article/and-the-
winner-is/258951.html.
    \2\ Elections in Russia, OSCE Office for Democratic Institutions 
and Human Rights http://www.osce.org/odihr/elections/russia.
---------------------------------------------------------------------------
    Elections have not been the only target of Mr. Putin's regime. 
Independent media outlets--especially ones with significant reach--have 
been silenced through political or economic pressure, or by direct 
government action. Many of the leading NGOs have been designated as 
``foreign agents''--which in Russian is synonymous with ``foreign 
spies''--under a law targeting groups that receive international 
funding. These include the Levada Center polling agency, the vote-
monitoring Golos Association, and--in what appears to be a calculated 
insult--Memorial, a human rights group co-founded by Andrei 
Sakharov.\3\
---------------------------------------------------------------------------
    \3\ Register of Foreign Agent NGOs, Ministry of Justice of the 
Russian Federation (in Russian) http://unro.minjust.ru/
NKOForeignAgent.aspx.
---------------------------------------------------------------------------
    The courts and law enforcement bodies have become tools of 
political repression. According to Memorial, there are currently one-
hundred political prisoners in our country, a number comparable with 
the late Soviet period.\4\ They include opposition activists and their 
family members, such as Sergei Udaltsov and Oleg Navalny; regular 
citizens jailed for participating in peaceful demonstrations; 
Ukrainians arrested after the annexation of Crimea, including filmmaker 
Oleg Sentsov; as well as Alexei Pichugin, the remaining hostage of the 
``Yukos case'' that saw Russia's largest oil company dismantled and its 
CEO, Mikhail Khodorkovsky, imprisoned for more than a decade for having 
the tenacity to support opposition parties and civil society groups.
---------------------------------------------------------------------------
    \4\ Current List of Russian Political Prisoners, Memorial Human 
Rights Center (in Russian) http://memohrc.org/pzk-list.
---------------------------------------------------------------------------
    Last Sunday, tens of thousands of Russians took to the streets 
across the country to protest against government corruption. More than 
1,500 people were arrested, and there are indications that the 
authorities may be preparing criminal charges against some of the 
participants.\5\
---------------------------------------------------------------------------
    \5\ ``Against Dimon and Corruption'', Radio Svoboda, March 26, 2017 
(in Russian) http://www.svoboda.org/a/28391550.html.
---------------------------------------------------------------------------
    But there are worse fates than imprisonment. In the last several 
years, investigative journalists, opposition figures, human rights 
activists, anticorruption campaigners, and whistleblowers have met 
untimely deaths. In the most brazen political assassination in decades, 
Boris Nemtsov--former deputy prime minister and the most prominent 
opponent of Vladimir Putin--was gunned down two-hundred yards from the 
Kremlin. The organizers and masterminds of this crime have not been 
identified or apprehended.
    Sometimes, there are near-misses--and one happens to be sitting 
before you. Twice in the past 2 years--in May 2015 and in February 
2017, both times in Moscow--I experienced a sudden onset of symptoms 
consistent with poisoning that led to multiple organ failure and left 
me in a coma and on life-support. The official diagnosis was ``toxic 
action by an undefined substance.'' Both times doctors assessed my 
chances of survival at about 5 percent, so I am very fortunate--and 
very grateful--to be here today.
    But these crackdowns and repressions are only one side of the 
story. Because even in this atmosphere--and in spite of it--there are 
people and organizations that continue to work to promote and defend 
human rights, political freedoms, and the rule of law in Russia. Our 
movement, Open Russia, founded by Mr. Khodorkovsky, has launched a 
number of initiatives aimed at supporting civil society. Our Human 
Rights Project provides legal aid to those who face politically 
motivated prosecution, and in several cases has been successful in 
keeping activists out of prison.\6\ Open Russia offers financial 
support to the families of political prisoners. Our Open Media project 
provides a platform for media startups that raise awareness of the 
issues avoided by state-run news outlets.\7\ The Open Russia University 
is a growing online educational platform that seeks to present an 
unbiased view of contemporary Russia and create a community of informed 
citizens.\8\ Open Russia's election project is directed at supporting 
and training a new generation of democratic activists by providing them 
with opportunities to gain experience in political campaigns and civic 
engagement.\9\
---------------------------------------------------------------------------
    \6\ Open Russia Human Rights Project. 2016 Report (in Russian) 
https://pravo.openrussia.org/otchet-2016/.
    \7\ Open Media (in Russian) https://openrussia.org/media/704056/.
    \8\ Open Russia University (in Russian) https://openuni.io.
    \9\ Open Elections (in Russian) https://ov.openrussia.org.
---------------------------------------------------------------------------
    In fact, most of our work is directed at the new generation, the 
young people--people who will shape the future post-Putin Russia.
    To work toward that post-Putin Russia is a task for Russian 
citizens. Contrary to claims by the Kremlin's propaganda, we never ask 
the United States for any political support. All we ask is that you are 
honest about what is happening in Russia. The statutes of the OSCE--of 
which both the U.S. and Russia are members--stipulate that ``issues 
relating to human rights, fundamental freedoms, democracy and the rule 
of law . . . are matters of direct and legitimate concern to all 
participating States and do not belong exclusively to the internal 
affairs of the State concerned.'' \10\ We also ask that you stay true 
to your values and not enable abusive or corrupt behavior. More than 4 
years ago, this Congress passed the Sergei Magnitsky Rule of Law 
Accountability Act--groundbreaking legislation that imposed U.S. visa 
bans and asset freezes on Russian officials involved in human rights 
violations. Boris Nemtsov called it ``the most pro-Russian law in the 
history of any foreign parliament.'' \11\ Forty-four individuals have 
been sanctioned under this law, including one of Mr. Putin's top 
lieutenants, General Alexander Bastrykin.\12\ We hope that the 
Magnitsky Act continues to be implemented to its full extent, without 
regard for rank or influence.
---------------------------------------------------------------------------
    \10\ CSCE/OSCE Moscow Document http://www.osce.org/odihr/elections/
14310?download=true.
    \11\ Testimony by the Hon. Boris Nemtsov, U.S. Senate Committee on 
Foreign Relations, June 13, 2013 https://www.foreign.senate.gov/imo/
media/doc/Nemtsov_Testimony.pdf.
    \12\ Specially Designated Nationals and Blocked Persons List, U.S. 
Treasury Office of Foreign Assets Control https://www.treasury.gov/
resource-center/sanctions/SDN-List/Pages/default.aspx.
---------------------------------------------------------------------------
    While taking a principled stand toward Vladimir Putin's regime, it 
is vital for the U.S. to continue to engage with Russia's civil 
society--including by maintaining public diplomacy programs; developing 
Russian-language media; creating opportunities for direct dialogue and 
people-to-people exchanges facilitated by special visa regimes, if 
necessary; and supporting the important work of organizations such as 
the National Endowment for Democracy. This is not only about money. 
Much more importantly, it is about the message that the U.S. sends to 
Russia's civil society. Do you choose to engage or turn away?
    It is also very important for the United States to appreciate the 
difference between Vladimir Putin's regime and Russia. Mr. Putin would 
certainly like you to equate the two. One of his close aides declared 
that ``there is no Russia . . . if there is no Putin.'' \13\ The 
Kremlin is trying to portray sanctions against itself and its actions, 
for example, in Ukraine as ``sanctions on Russia.'' Please don't help 
them. Words are important--including the words in the recently 
introduced Russia Sanctions Review Act. It is essential to make it 
clear that the United States does not seek to punish the Russian people 
for the actions of a regime they can neither unseat in a free election 
nor hold to account through independent media or a legitimate 
legislature.
---------------------------------------------------------------------------
    \13\ `` `No Putin, No Russia,' Says Kremlin Deputy Chief of 
Staff'', The Moscow Times, October 23, 2014 https://themoscowtimes.com/
articles/no-putin-no-russia-says-kremlin-deputy-chief-of-staff-40702.
---------------------------------------------------------------------------
    Vladimir Putin will not be in power forever. Let us consider the 
long-term interests and prepare the groundwork for future cooperation 
between the United States and Russia by maintaining--even in these 
difficult times--an open, productive, and mutually beneficial dialogue 
between our peoples and our civil societies.

                                 ESSAY

                  [From World Affairs Online Features]

                   ANSWERING THE KREMLIN'S CHALLENGE

                        (by Vladimir Kara-Murza)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    On December 20, 1991, NATO foreign ministers gathered at the 
alliance's headquarters in Brussels for talks with diplomats from the 
former Warsaw Pact countries were caught by surprise as the (still) 
Soviet ambassador, Nikolai Afanasievsky, began reading out a letter 
from Russian President Boris Yeltsin to NATO Secretary General Manfred 
Worner. ``We consider these relations [with NATO] to be very serious 
and wish to develop this dialogue in each and every direction, both on 
the political and military levels,'' wrote the Russian leader who, five 
days later, would take control of Moscow's nuclear arsenal and its 
permanent seat on the U.N. Security Council as the Union of Soviet 
Socialist Republics formally went out of existence. Yeltsin's letter 
continued: ``Today we are raising the question of Russia's membership 
in NATO.'' Unlike the sham Soviet application to join the alliance in 
1954, this one was clearly made in good faith, coming a few months 
after Russian citizens defiantly--and definitively--rejected the old 
regime, going out in the hundreds of thousands to the streets of Moscow 
to stand in the way of an attempted hardline coup d'etat.
    A quarter-century later, this reads almost like fiction. Russia's 
official national security strategy, signed by President Vladimir 
Putin, describes the ``bankruptcy of the regional system of security . 
. . built on the basis of NATO and the European Union'' and designates 
NATO actions, including its ``military activization, its continued 
expansion, the approach of its military infrastructure to Russian 
borders'' as ``a threat to [Russian] national security.'' Russia's 
dramatically stepped-up military exercise schedule has included 
simulated nuclear attacks on NATO member states and allies such as 
Sweden. In its updated military doctrine, the Kremlin has lowered the 
threshold for using nuclear weapons, while Mr. Putin has openly and 
off-handedly discussed his readiness to push the ``nuclear button,'' 
which his Soviet predecessors had never threatened in public even in 
the tensest moments of the Cold War.
    In 2014, Vladimir Putin undertook the first state-to-state 
territorial annexation in Europe since the Second World War, seizing 
Crimea from Ukraine, and launched an unannounced but very real war 
against his neighbor, sending weapons, money, and even regular Russian 
troops to back the ostensibly ``separatist'' uprising in Ukraine's two 
easternmost regions. Mr. Putin's more overtly hostile acts toward NATO 
countries have included withdrawing from the U.S.--Russia agreement on 
the disposal of surplus weapons-grade plutonium, and positioning 
nuclear-capable Iskander-M missiles in Russia's Kaliningrad enclave, 
putting them in range of Lithuania and Poland, and, potentially, parts 
of Germany, including Berlin. In Syria, he has so brazenly opposed 
Washington in the civil war that will decide the fate of his ally, 
Syrian dictator Bashar al-Assad, that experts discuss what to do in the 
event of a ``hot war'' incident between U.S. and Russian forces.
    Meanwhile, at home, Mr. Putin has portrayed his regime as the 
antithesis of the ``declining'' West and a bulwark of ``traditional 
values,'' while dramatizing its military and foreign policy adventurism 
as evidence of a Russia ``rising from its knees'' after the 
``humiliation'' of the 1990s. The state propaganda machine has, for 
years now, been tuned to attacking Russia's supposed enemies in the 
West, with Dmitri Kiselev, the most recognizable face on the Kremlin 
television networks and Mr. Putin's propaganda spin master, infamously 
boasting on-air about Russia's ability to ``turn the United States into 
radioactive ash.''
    How and why could such a geopolitical volte-face by a major world 
power--from seeking membership in NATO to confronting it--have 
occurred? To answer this question is important not only for finding 
ways to respond to Mr. Putin's challenges to the Euro-Atlantic 
community, but also for identifying the lessons that both future 
Russian leaders and the West should keep in mind when Russia makes its 
eventual post-Putin transition.
    In fact, this coming volte-face had been foreseen--and dramatically 
highlighted--very early on. On December 14, 1992, at a meeting of 
foreign ministers from the Conference on Security and Cooperation in 
Europe (CSCE) in Stockholm, Russian Foreign Minister Andrei Kozyrev, 
the face of Moscow's pro-European foreign policy under President 
Yeltsin, took the floor to denounce NATO and EU efforts to ``strengthen 
their military presence in the Baltic States and other regions of the 
former USSR.'' Mr. Kozyrev called former Soviet republics ``a post-
imperial space where Russia has to defend its interests by all 
available means, including military and economic ones,'' and where 
``CSCE norms cannot be fully implemented.'' As Western diplomats in the 
audience looked on in disbelief, and U.S. Secretary of State Lawrence 
Eagleburger rushed to request an urgent meeting with Mr. Kozyrev, the 
Russian foreign minister approached the podium once again--this time, 
to explain that his speech had been a stunt intended to focus attention 
on what could happen if President Yeltsin's political opponents among 
the nationalists and Communists centered around the Congress of 
People's Deputies were to prevail in the domestic power struggle.
    As it turned out, Boris Yeltsin won, but then, just a few short 
years later, handed the keys to his Kremlin office, along with the 
Russian nuclear codes, to an officer of the very same organization--the 
KGB--he had so dramatically defeated in August 1991. Mr. Yeltsin's 
preferred successor in the Kremlin--as the Russian president himself 
made clear on several occasions--was the young reformist governor of 
the Nizhny Novgorod region by the name of Boris Nemtsov, whom he 
brought to Moscow in the late 1990s as first deputy prime minister. 
History chose otherwise. And as so often happened in Russian history, a 
turn toward authoritarianism at home was followed by a matching shift 
in relations with the outside world, especially with the democracies of 
the West.
    The domestic political changes in the early years of Mr. Putin's 
presidency were remarkable. Having inherited a flawed and problem-
ridden but fundamentally democratic political system-- with a 
pluralistic parliament, competitive elections, and a multitude of media 
voices, including on national television--the onetime KGB operative 
quickly reshaped it in accordance with his professional and political 
upbringing, meeting little resistance at home and even less 
internationally. Starting with symbolic acts that should have warned 
those who were willing to notice--such as reinstating the Soviet-era 
national anthem first introduced by Stalin, and a memorial plaque to 
his mentor Yuri Andropov (Soviet KGB chairman best known for 
establishing a special directorate tasked with suppressing dissent and 
authorizing the practice of committing dissidents to psychiatric 
asylums) Mr. Putin proceeded with practical steps aimed at cementing 
his authority. One by one, he took over or shut down independent 
television networks; curtailed the rights of the regions and abolished 
direct elections for regional governors; turned the judiciary and law 
enforcement into tools for punishing his opponents--the best-known case 
being that of Mikhail Khodorkovsky, Russia's richest man who had the 
tenacity to support opposition parties and paid for it with a 10-year 
prison sentence--and fixed elections to cleanse the Russian parliament 
of all genuine opposition, turning it into a rubberstamp--``not a place 
for discussion,'' in the unforgettable words of its own former speaker. 
Russians who dared to oppose Mr. Putin's regime and its policies were 
denounced as ``national traitors'' who spend time ``scavenging at 
foreign embassies,'' as Mr. Putin himself put it. Russian 
nongovernmental organizations that did not toe the official line--
including the Levada Center, the country's leading independent 
pollster, and Memorial, a human rights group founded by Andrei 
Sakharov--were labeled ``foreign agents'' (which in Russian is 
synonymous with ``foreign spies'') under one of the multitude of new 
repressive laws introduced by the Kremlin.
    Such a political climate--and the accompanying vision of Russia as 
a ``besieged fortress'' surrounded by enemies--inevitably meant a 
reassessment of the country's place in the world and a reinterpretation 
of its own recent history. Defying not only geography, but also 
centuries of history, culture, and religious identity, the Russian 
government declared, in an official strategy adopted by the culture 
ministry, that ``Russia is not Europe.'' The peaceful dissolution of 
the USSR in 1991 was no longer considered an act of liberation for 
Russia and other former Soviet republics, but, in Mr. Putin's own 
words, as ``the greatest geopolitical catastrophe of the twentieth 
century'' (presumably greater than the Holocaust, Communist terror, and 
two of the most destructive wars in the history of mankind.)
    The 1990s were no longer seen as a difficult but necessary period 
of democratic transition, but as the decade when Russia was brought to 
its knees by the West and its political pawns inside the country. 
Western countries themselves--the United States chief among them--were 
no longer considered Russia's natural allies, but adversaries 
determined to contain, weaken, and dismember Russia; those who ``think 
that Russia . . . is still a threat, and this threat has to be 
eliminated'' and use terrorism as ``an instrument to achieve these 
goals,'' as Vladimir Putin astonishingly claimed after the 2004 
terrorist attack in Beslan.
    Under this ``zero-sum'' mindset, measures that serve to weaken or 
destabilize the assumed adversaries are not only acceptable, but 
necessary--even if they involve direct political interference, from the 
quite open multimillion-euro loan given to France's far-right Front 
national party--one of Mr. Putin's closest political allies in Western 
Europe--through the Moscow-based First Czech Russian Bank in 2014 to 
the hacking of Democratic National Committee emails during the 2016 
U.S. election campaign. Political behavior by neighboring governments 
that was considered hostile has been met with outright force--such as 
the military incursion into Georgia in 2008, or the annexation of 
Crimea in 2014 and the de facto war against Ukraine in the Donbass. 
Given the historical, linguistic, religious, and cultural proximity 
between Russia and Ukraine, a corrupt Ukrainian strongman forced out of 
power by mass protests on the streets of the capital was a scenario too 
close for comfort for Vladimir Putin-- especially after the scare of 
Russia's own ``winter of protest'' in 2011 and 2012. The success of the 
Maidan in Kiev had to be stopped to prevent a Maidan in Moscow--by 
whatever means necessary. The shock about the Kremlin's assault on 
Ukraine felt in many Western capitals was naive: why would a government 
that violates its own laws and tramples on the rights of its own 
citizens be expected to respect other countries or follow international 
norms?
    It would be inaccurate to blame the West for Russia's political 
turnaround in the last quarter-century. The lion's share of 
responsibility lies within Russia itself, above all with its post-
Soviet political elite that failed to match the genuine popular 
enthusiasm for democracy in the early 1990s with a political strategy 
that would have allowed Russia to fully come to terms with, and turn 
the page on, its totalitarian past. Unlike other countries in eastern 
Europe, Russia never underwent anything resembling a lustration process 
that would have made it impossible for an operative of the Soviet 
security services to ever achieve a position of power. Some of the old 
regime's archives were opened--but not fully, and not for long. The 
Communist party was declared by Russia's highest court to have been 
responsible for ``the policies of repression directed at millions''--
but no consequences followed. The Soviet system remained only half-
condemned, while the hardships that accompanied the often half-hearted 
and inconsistent market reforms, and the unhealthy influence that 
financial ``oligarchs'' exercised over elected officials helped 
discredit the very notion of democracy among the general population. 
Mr. Putin's revanchistpropaganda fell on fertile ground. Those who will 
shape Russia's next democratic transition would be wise to learn the 
lessons.
    But so would the leaders of Western democracies. Because they, too, 
share some of the responsibility for Russia's failed transition in the 
1990s--and its renewed authoritarianism at the start of the new 
century. For most countries that underwent a successful post-Communist 
transformation it was, as Vaclav Havel put it, ``a return to Europe''--
the prospect of becoming full members in the Euro-Atlantic community--
that served as the leading incentive for reform, allowing them to brave 
adversities and make difficult choices. Such a prospect was never 
seriously offered to Russia. ``The question of Russia's membership in 
NATO'' raised by President Yeltsin in December 1991 was met with 
silence. And, although Russia was admitted into the Council of Europe 
(which today gives Russian citizens their only recourse to real 
justice, through the European Court of Human Rights,) membership in the 
European Union--theoretically open to any European country that 
fulfills the ``Copenhagen criteria'' on rule of law, democracy, and a 
functioning market economy--was never offered to Mr. Yeltsin's Russia 
even as a distant possibility. Such an approach not only denied 
Russia's political elites a crucial motivation to implement reforms, 
but also lent credence to Mr. Putin's subsequent claim that the West 
was unwilling to accept Russia as a partner, even when its political 
system was in line with Western values.
    The West was, however, more than willing to accept Vladimir Putin. 
To the bewilderment of many in Russia who had noticed the early warning 
signs, leaders of the Group of Eight embraced Mr. Putin, it seemed, 
more eagerly than they ever did his democratic predecessor. As if 
trying to correct their initial mistake of not opening the door to 
Russia's democracy in the 1990s, they made a second one--this time, by 
appearing to give a nod of approval to its newly emerging 
authoritarianism. Mr. Putin's first steps in that direction were 
cautious and mindful of potential reaction, particularly from fellow 
member states in the Organization for Security and Cooperation in 
Europe, which includes Russia, the U.S., and all European Union 
countries, and whose statues clearly state that ``issues relating to 
human rights, fundamental freedoms, democracy and the rule of law . . . 
 are matters of direct and legitimate concern to all participating 
states and do not belong exclusively to the internal affairs of the 
state concerned.''
    No such ``legitimate concern'' was forthcoming from the West, 
however. On the contrary: just weeks after an early-dawn raid on the 
studios of NTV, the country's largest private broadcaster, transferred 
it to state control--and months after the reinstatement of Stalin's 
national anthem and the curtailing of the independence of the upper 
house of Parliament-- U.S. President George W. Bush, standing beside 
Mr. Putin, famously declared that he had ``looked the man in the eye... 
[and] was able to get a sense of his soul.'' That same year, in 2001, 
Mr. Bush praised Mr. Putin as ``a new style of leader, a reformer, a 
man who loves his country as much as I love mine . . .  a man who is 
going to make a huge difference in making the world more peaceful by 
working closely with the United States.'' The self-delusion was not 
confined to the White House. In June 2003, days after the Kremlin 
pulled the plug on Russia's last independent national television 
channel, the British government treated Mr. Putin to a lavish royal 
reception at the London Guildhall--not too far from the spot where, 3 
years later, agents likely acting on Kremlin orders would poison FSB 
defector Alexander Litvinenko with radioactive polonium.
    Mr. Putin can be forgiven for getting the wrong message. And, while 
one would be hard-pressed to find many areas of agreement between the 
administration of George W. Bush and that of his successor Barack 
Obama, their attitude toward Mr. Putin demonstrated remarkable 
bipartisan continuity. Mr. Obama began his presidency with a ``reset'' 
in relations with the Kremlin, once again prioritizing tactical deals 
over principles. Perhaps the most grotesque illustration of that policy 
came in March 2012. As tens of thousands of people gathered in downtown 
Moscow to protest Mr. Putin's declared victory in an election 
characterized by what OSCE observers called a lack of ``real 
competition'' and ``abuse of government resources,'' the State 
Department announced that ``the United States congratulates the Russian 
people on the completion of the presidential elections, and looks 
forward to working with the president-elect.''
    Recognizing the short-sightedness of its past willingness to 
sacrifice values for the sake of realpolitik would be a good starting 
point for the Euro-Atlantic community to reassess its attitude toward 
Vladimir Putin. To some extent, this began in 2014. A forcible change 
of borders in Europe achieved what repressions against the opposition, 
the muzzling of the media, and the successive rigging of elections 
could not. Mr. Putin has been disinvited from Group of Eight meetings; 
extensive sanctions, both individual and sectoral, have been imposed by 
U.S. and EU governments; and Western leaders have stopped pretending 
that the Kremlin strongman is a fellow democrat--although, from time to 
time, we still hear influential voices calling for a return to 
``business as usual.'' There is a growing appreciation in capitals 
around the globe that the Kremlin's domestic behavior and its 
international conduct are inextricably linked--and that nothing will 
change until Mr. Putin's regime is replaced by a democratic government.
    That task, of course, must be undertaken by Russian citizens alone. 
Yet, while outsiders should not attempt to shape political events 
inside Russia, neither should they enable Mr. Putin and his kleptocrats 
by providing safe harbor for their illicit gains. For the many striking 
parallels between the Soviet system and the current regime in Russia--
from political prisoners to media censorship--there is also a crucial 
difference: while they were persecuting dissenters and engaging in 
anti-Western propaganda, members of the Soviet Politburo did not store 
their money in Western banks, send their children to Western schools, 
or invest in luxurious real estate in Western countries. Those who rule 
Russia today treat their citizens in ways expected of third-world 
dictatorships, but choose the freedoms and protections of the West when 
it comes to their own families and their ill-gotten money. This 
hypocrisy must stop. Those who trample on the free world's most basic 
norms should not be allowed to enjoy its economic and political 
privileges. Western democracies should not serve as havens for Mr. 
Putin's crooks and human rights abusers. Telling such people that they 
and their money are not welcome would be a strong message of solidarity 
to those in Russia who continue, at great personal risk, to work for a 
democratic future in our country.
    In 2012, the U.S. Congress sent such a message by passing a 
groundbreaking law that, for the first time, introduced personal 
accountability for human rights violations. The Sergei Magnitsky Rule 
of Law Accountability Act--named after a Russian lawyer who was 
arrested and tortured to death in prison after uncovering a tax fraud 
scheme involving government officials--banned Russian human rights 
abusers from receiving U.S. visas and owning U.S. assets. Boris 
Nemtsov, the late leader of the Russian opposition, described the 
Magnitsky Act as ``the most pro-Russian law ever passed by a foreign 
parliament'' because it was directed against those who abuse the rights 
of Russian citizens and plunder money from Russian taxpayers. For 
years, however, the potential consequences of the Act were limited by 
timid implementation, with only low-level abusers targeted by its 
provisions. The unspoken ``glass ceiling'' was broken in January 2017 
by the outgoing Obama administration when it decided to blacklist 
General Alexander Bastrykin, one of Mr. Putin's closest confidants who, 
as head of Russia's Investigative Committee, was in charge of a slate 
of politically motivated criminal prosecutions, including those against 
the Bolotnaya Square protesters, and who once personally threatened to 
murder a leading independent journalist.
    It also took years for Europe to follow. In December 2016, Estonia, 
a tiny former Soviet republic on Russia's northwestern border, had the 
tenacity to become the first European Union member state to introduce 
its own Magnitsky law. Two months later, the United Kingdom--long a 
favored destination for Kremlin kleptocrats and thus the most important 
country in this regard-- took a decisive step as its House of Commons 
approved a bill allowing courts to freeze the assets of people who have 
profited from corruption and human rights abuse. ``This measure would 
send a clear statement that the UK will not . . .  allow those who have 
committed gross abuse or violations around the world to launder their 
money here,'' Ben Wallace, Britain's security minister, affirmed before 
the vote. It is essential that other European countries move in the 
same direction if the West is to become serious about defending the 
principles it claims to espouse.
    To this end--it truly is better late than never--the international 
community should hold the Kremlin accountable not only for its unlawful 
actions abroad, but also for its continuing violations of the rule of 
law and human rights at home, which constitute clear breaches of 
Russia's commitments under its membership of the OSCE and the Council 
of Europe in such areas as freedom of the media, election standards, or 
due process. The latter has been clearly problematic in the official 
investigation into the assassination of Mr. Nemtsov, who was gunned 
down in February 2015 two-hundred yards from the Kremlin wall. Although 
the alleged perpetrators have been arrested and put on trial, the 
Russian Investigative Committee is unable or unwilling to pursue those 
who had ordered and organized the killing--for example, not even once 
questioning Ramzan Kadyrov, the Kremlin-appointed head of Chechnya with 
evident links to the accused gunmen. The Russian authorities must not 
be allowed to sweep this investigation under the carpet. The necessary 
questions must be asked, including publicly, through all available 
bilateral and multilateral mechanisms.
    The Kremlin's aggressive ``propaganda war'' must be countered, 
among other ways by the development of quality independent media in the 
Russian language that would provide objective information to Russians 
both inside and outside the country. In 2015, while holding the 
rotating EU presidency, the government of Latvia put forward a proposal 
to establish a Europe-wide Russian-language television channel, but the 
idea did not win backing from other EU states.
    Meanwhile, the Kremlin continues to pump substantial resources into 
RT, its English-language broadcasting outlet that is widely available 
(if not widely watched) in Europe and North America.
    Standards should be maintained when it comes to parliamentary 
diplomacy. Members of the current Russian legislature, who owe their 
seats to an election in 2016 that--like all national elections in 
Russia since 2003--fell far short of acceptable democratic standards, 
should not be welcomed as bona fide members in the Parliamentary 
Assembly of the Council of Europe. Not because they represent Russia--
but because they do not represent it.
    This distinction is crucial for the success or failure of Russia's 
future transition--and Western leaders should make it explicitly and 
clearly. Too often, they rhetorically equate Mr. Putin with Russia, 
condemning ``actions by Russia'' or ``the position of Russia'' when 
they mean actions and positions of an unelected authoritarian regime in 
the Kremlin. This may seem like a trivial point--but when the U.S. 
President or the German chancellor refer to restrictions imposed on 
individuals or entities connected with the aggression against Ukraine 
as ``sanctions on Russia,'' they unwittingly do the bidding of Mr. 
Putin's propaganda. The Euro-Atlantic community should be careful to 
avoid the appearance of blaming the people of Russia for the actions of 
a regime they can neither unseat in a democratic election nor hold 
accountable through independent media or a legitimate legislature. On 
the contrary: while standing firm on principles in dealing with 
Vladimir Putin, Western governments should make it clear that a future 
democratic Russia will be welcomed as an equal partner both in the 
world and in Europe, and will reclaim its rightful seat at the table by 
returning to the Group of Eight and--should its people and its elected 
leaders choose--by joining the Euro-Atlantic institutions. In short, 
Russia should be treated for what it is--a European county, 
fundamentally no different from its neighbors that, until recently, 
also lived under non-democratic regimes but were able to ``return to 
Europe.''
    In the spring of 1989, shortly before a succession of ``velvet 
revolutions'' would sweep through the countries of central and eastern 
Europe, liberating them from Soviet-style regimes and culminating in 
Russia's own democratic revolution in August 1991, U.S. President 
George H. W. Bush took the podium at the Rheingoldhalle in Mainz, West 
Germany, to lay out his vision for a coming era. ``For forty years, the 
world has waited for the cold war to end. And decade after decade, time 
after time, the flowering human spirit withered from the chill of 
conflict and oppression; and again, the world waited,'' Mr. Bush 
declared. ``But the passion for freedom cannot be denied forever. The 
world has waited long enough. The time is right. Let Europe be whole 
and free.''
    In the ensuing quarter-century, the progress toward this goal must 
surely have surpassed the boldest dreams of the cold-war generation of 
Western leaders. Despite the many remaining difficulties, democracy and 
cooperation have succeeded where there were once dictatorships fenced 
off by an ``iron curtain.'' But the job is not yet done. A Europe 
``whole and free'' will only become a reality once Europe's two largest 
nations--Russia and Ukraine--take their places within it. That day will 
come. Such is the logic of history. But those who are entrusted with 
political responsibility in the current generation should do all they 
can to bring that day a little closer.

    The author is vice chairman of Open Russia, a Russian pro-democracy 
movement.

    This essay will appear in an upcoming World Affairs book collection 
on transatlantic challenges.

    Senator Graham. Would you like to introduce your wife? I 
know she has suffered through a lot.
    Mr. Kara-Murza. You have Evgenia Kara-Murza. This is my 
wife and please stand up while I am introducing you. And it is 
really--it really has been much more difficult for her than it 
has been for--I do not remember much when I was in a coma. In 
fact, I remember nothing, but she had to bear the brunt of it, 
so I am very grateful to have her in my life and to have her 
here.
    Senator Graham. We are honored to have you both.
STATEMENT OF LAURA JEWETT, REGIONAL DIRECTOR FOR 
            EURASIA PROGRAMS, NATIONAL DEMOCRATIC 
            INSTITUTE
    Laura Jewett. Thank you. Chairman Graham, Ranking Member 
Leahy, Members of the subcommittee, it is an honor to testify 
before this subcommittee and to sit on a panel with Jan 
Surotchak and Vladimir Kara-Murza. Vladimir personifies 
courage. He is also a hard act to follow.
    I will share with you some on the ground perspectives on 
the homegrown repression as well as the cross-border 
authoritarian aggression we are seeing in Eurasia. I will also 
share thoughts on how the international community can best 
respond.
    The fundamental point is that Russia's hybrid warfare in 
Eurasia poses an urgent threat, not just to the countries of 
Eurasia, but also to the security of Europe and the United 
States. This kind of warfare is potentially more powerful than 
warships and missiles because if successful, the aggressor can 
deprive another country of its sovereignty without seizing 
territory. We ignore this threat at our peril.
    It is particularly fitting that this subcommittee is 
holding this hearing on Russia's role in the region, since one 
of the longstanding messages emanating from Moscow is the 
distortion and discrediting of international democracy 
assistance in Eurasia. So when we hear calls over here to cut 
this assistance, using arguments that are similar to Moscow's, 
the sources and the motives should be questioned.
    We also have to be alert to false equivalencies. One of the 
tropes of Russian propaganda is to equate its own hybrid 
warfare with democracy assistance, as though there is moral 
equivalence between two doctors, one prescribing medicine, the 
other administering poison. The purpose of democracy assistance 
around elections, for example, is to promote citizens' 
fundamental right to express their political will freely. It is 
not about who wins, but who gets to decide.
    This is the sovereign right of the country's citizens as 
affirmed in the U.N. Declaration of Human Rights and the 
founding documents of the OSCE, among other international 
agreements.
    Russian electoral interference, on the other hand, is a 
violation of citizens' rights to choose their own 
representatives. By design, it pollutes political discourse, 
undermines confidence in the process, and tips the scales 
through subterfuge. It's a violation of sovereignty whether or 
not it impacts the final vote count. To give credence to these 
distortions is to abet authoritarian aggression.
    Let me share with you some very brief examples of how this 
authoritarian aggression plays out on the ground in Eurasia. 
And I urge you to read the testimony submitted by Evgenia 
Chirikova from Russia, Anar Mammadli from Azerbaijan, Eka 
Gigauri, Ana Natsvlishvili, and Giorgi Oniani from Georgia, and 
Mustafa Nayyem and Svitlana Zalishchuk from Ukraine. These 
unflinching democracy activists paint a clear picture of the 
costs that Russia's authoritarian aggression is imposing on 
their countries. They also give a preview of what to expect 
further in the West.

    [Clerk's Note: The testimonies submitted by Evgenia 
Chirikova, Anar Mammadli, Eka Gigauri, Ana Natsvlishvili, 
Giorgi Oniani, Mustafa Nayyem, and Svitlana Zalishchuk appear 
after Laura Jewett's prepared statement.)

    Evgenia Chirikova organized peaceful demonstrations in 
Russia to defend a forest from construction of a highway. She 
was arrested multiple times and child protection authorities 
threatened to take her children away from her, forcing her to 
leave Russia. Yet she continues her activism from abroad. She 
will tell you that hundreds of grassroots organizations also 
continue their activism inside the country and we saw evidence 
of this during the demonstrations this past weekend.
    Note that international organizations working in Russia 
have been vilified and shut down as part of the longstanding 
assault on democracy assistance, which only serves to isolate 
Russian activists from their peers around the world.
    Anar Mammadli heads a nonpartisan citizen election 
monitoring group in Azerbaijan. Anar will tell you that 
Azerbaijan's repressive techniques are not necessarily imposed 
from Russia, but they're borrowed quite willingly. When his 
group reported on fraud in 2013 elections, he was arrested and 
served two and a half years in prison. More than a hundred 
other political prisoners remain behind bars, yet Anar and many 
other activists continue to defend democracy and human rights 
in the face of these risks.
    Georgia's foreign policy is Western oriented and most 
Georgians aspire to a democratic and European future, which 
explains why Russia invaded Georgia and continues to occupy 20 
percent of its territory, to frustrate these goals. Yet the 
influence of Russian propaganda in Georgia is palpable. One 
narrative holds that embracing Europe will force Georgians to 
violate their traditional values. Another is that if Georgia 
does stray too far toward the West, it will face further 
military consequences from Moscow.
    These messages have taken root and they distort politics. 
To Georgia's credit though, it is home to vibrant civil society 
groups that are pushing back against this interference.
    Ukraine has served as a laboratory for every weapon of 
hybrid warfare, precisely because an independent and democratic 
Ukraine would impact the rest of the region profoundly. The 
prevailing false narrative in Ukraine is that Ukraine is deeply 
divided between those who support fascism and those desperate 
to be rescued by Russia. But NDI's public opinion research 
paints actually the opposite picture. Ukrainians are united on 
the big issues facing their country. Eighty percent say it is 
important that Ukraine become a fully functioning democracy. 
Only 4 percent consider Russia's influence on their country 
positive. Eighty percent say they would not accept peace in 
exchange for losing the right to determine their own future.
    Ukraine's reforms are being driven from the bottom up and 
Ukrainians are committed to these reforms and optimistic about 
the future. In other words, hybrid warfare is meeting real 
resistance in Ukraine and international assistance is falling 
on fertile soil.
    The international community should think in terms of four 
baskets of responses to hybrid warfare. We need to reaffirm our 
transatlantic alliances and our commitment to democratic 
principles. We need to strengthen democratic institutions in 
the affected countries. Third, governments and political 
leaders need to develop proactive and whole-of-government 
counterstrategies. And, fourth, citizens, civic groups, 
political parties, and journalists need information, tools, and 
strategies so they can protect themselves and each other.
    The Ukrainian experience shows that it is possible to 
defend against a military invasion and hybrid warfare while 
still building democracy, but the Ukrainians and other 
democracy champions around the region cannot do it alone, nor 
should they. The tools of hybrid warfare being tested in 
Eurasia today will be deployed on our own shores tomorrow. We 
are already experiencing this. Democracy assistance as a 
defense against authoritarian aggression in Eurasia is an 
essential investment in sovereignty, stability, and global 
security.
    [The statements follow:]
                   Prepared Statement of Laura Jewett
    Chairman Graham, Ranking Member Leahy and members of the 
subcommittee, I appreciate the opportunity to share with you some 
reflections on the impact that authoritarian aggression is having on 
civil society in Eurasia, as well as on the responses that activists in 
the region are undertaking and the kinds of support they would welcome.
    It is an honor to testify before this subcommittee and to represent 
a panel that includes Jan Surotchak from our sister organization, IRI, 
and Vladimir Kara-Murza. Vladimir personifies courage. His integrity 
and determination in fighting for democracy, at great personal cost, 
are an inspiration to so many around the world, myself included.
    It is particularly fitting that this subcommittee is holding this 
hearing on Russia's role in the region, in that one of the messages 
emanating from Moscow for many years has been the distortion and 
discrediting of international democracy assistance in Eurasia. So when 
there are calls to cut democracy assistance--using language and 
arguments that echo narratives coming from Moscow--the motives should 
be questioned. Are there genuine concerns about the proper use of 
funds? Or is it a tactic that wittingly or unwittingly plays into a 
larger scheme to undermine challenges to authoritarian rule throughout 
the region?
    It is critical that we distinguish clearly between our own 
democratic values and another country's hostile efforts to have us 
abandon those principles. To give credence to Russian Government 
narratives about democracy assistance, in particular, would be to abet 
authoritarian aggression.
                             hybrid warfare
    The U.S. intelligence community and many other analysts have 
described in detail how the Russian regime is pursuing the suppression 
of fundamental freedoms at home matched by ``hybrid warfare'' abroad. 
This hybrid warfare encompasses propaganda and misinformation; 
espionage; cyberattacks; corruption as a tool for buying influence; 
financing of political parties, think tanks, nongovernmental 
organizations, and academic institutions; coercive economic measures; 
and covert and overt military actions. These efforts fan the flames of 
broader anti-democratic trends, such as extreme polarization, 
xenophobia, and isolationism, while simultaneously exploiting the 
fundamental characteristics of open societies, such as political 
rivalry and competition, free press and speech, and unrestricted social 
media. They aim to tear down democratic institutions.
    The tactics of hybrid warfare picked up momentum in 2014 with the 
occupation of Crimea and have spread more recently to Western Europe 
and the U.S. But they have been standard operating procedure throughout 
Eurasia for more than 15 years.
                     democracy and global security
    This authoritarian aggression poses urgent threats--not just to the 
sovereignty and stability of the countries being targeted, but also to 
global democracy and security. We ignore it at our peril.
    In this interconnected and interdependent world, what happens for 
good or for bad within the borders of states has regional and, 
sometimes, global impact. At a basic level, we have a direct interest 
in how people live and how they are treated by their governments.
    We are not alone in this enterprise. Over the past three decades, 
nongovernmental groups around the world, other governments and 
intergovernmental organizations have joined the effort to promote and 
sustain open, responsive and accountable governance, along with citizen 
engagement.
    Our ultimate foreign policy goal is a world that is secure, stable, 
humane and safe, where the risk of war is minimal. Yet the reality is 
that hotspots most likely to erupt into violence are found, for the 
most part, in areas of the world that are nondemocratic--places that 
have been defined by the Defense Department as the ``arc of 
instability.'' These are places that experience ethnic conflict and 
civil war, they generate refugee flows across borders, they are places 
where terrorists and traffickers are harbored. The international 
community has rightly worked to restore order by helping to establish a 
democratic framework for governance in a number of these countries. The 
response has not always been entirely successful, but on the whole, the 
introduction of democratic processes and citizen engagement has made 
these countries less dangerous than they had been. The cost for the 
United States in that effort has been small. Foreign assistance is only 
about 1 percent of the total U.S. budget, and democracy assistance 
represents just 4 percent of our foreign aid.
    As Tom Carothers of the Carnegie Endowment points out, ``In most of 
the dozens of countries where the United States is employing 
diplomatic, economic, and assistance measures to support potential or 
struggling democratic transitions--from Cambodia, Indonesia, and 
Mongolia to El Salvador, Kenya, Nigeria, and Venezuela--such efforts 
align closely with and serve a critical array of unquestionably hard 
interests. These include limiting the strategic reach of the United 
States' autocratic rivals, fighting terrorism, reducing international 
drug trafficking, and undercutting drivers of massive refugee flows.''
    The `hard interests' in Eurasia demand a commitment to democracy 
assistance as a minimal response to hybrid warfare and authoritarian 
aggression in the region.
                          false equivalencies
    False equivalencies are a common distraction technique in 
misinformation campaigns. Thus, one of the tropes of authoritarian 
propaganda is an equation between hostile external pressure on the one 
hand and good-faith international assistance on the other. In this 
warped view, meddling in other countries' sovereign political processes 
is fair game since it shares some superficial characteristics with 
democracy assistance. As though there is moral equivalence between two 
doctors--one of whom prescribes medicine and the other of whom 
administers poison--because they both attended to the patient. But make 
no mistake: democracy assistance has absolutely nothing in common with 
authoritarian aggression.
    Take elections as an example. Russian electoral interference has 
included, among other tactics, the hacking, theft and broadcasting of 
private data; deliberate distribution of false news and misinformation; 
malicious trolling; blackmail and discrediting of targets; and 
manipulation of voter registries or results tabulation. By design, it 
pollutes political discourse, undermines public confidence in the 
process, and tips the scales through subterfuge. It corrodes the 
electoral environment regardless of whether it impacts the ultimate 
vote count. It is a violation of citizens' sovereign right to freely 
choose their own representatives. These forms of electoral interference 
are a weapon that is potentially more powerful than warships or 
missiles. The aggressor can deprive the opposing side of its 
sovereignty without seizing territory.
    Democracy assistance around elections could not be more different. 
Consider the electoral environment in authoritarian countries. 
Opposition political parties are harassed, delegitimized, and 
frequently barred from the ballot. Those opposition parties that manage 
to register find they are unable to communicate with voters--their 
campaign activities are shut down and they are denied access to the 
state-controlled media. The media itself is muzzled. Citizens are 
intimidated or bribed into voting as the regime sees fit. Civil society 
groups seeking to monitor the process are shut down and persecuted, and 
in some cases their leaders are sent to prison. Election 
administrators, prosecutors and judges answer directly to the regime. 
Results are predetermined in favor of the incumbent, often with grossly 
inflated turnout figures and victory tallies above 90 percent. In 
short, voters are denied the right to express their free will. These 
are elections in name only. They violate the Universal Declaration of 
Human Rights, among other international conventions.
    When governments, intergovernmental organizations and 
nongovernmental groups offer democracy assistance to partners in 
authoritarian or reforming countries, the objective is to promote 
citizens' fundamental right to express their political will freely. 
That means responding to requests from governments, parliaments, 
political parties, civic groups, and election administrators to help 
promote integrity, transparency, participation and accountability in 
the elections--first and foremost so that basic human rights are 
defended, but also so that everyone involved can have confidence in the 
outcome. The purpose of these efforts is is not to influence outcomes 
or change regimes. Rather, it is to help give voice to people who might 
otherwise be excluded from the process due to a tilted playing field. 
The assistance is offered openly and in good faith and democratic 
leaders welcome it because they understand that credible elections are 
a pillar of a country's stability and sovereignty.
    To give credence to the false equivalence between hybrid warfare 
and and democracy assistance is to do a grave disservice to courageous 
democracy activists around the world who have made tremendous 
sacrifices, including risking their lives, because they simply seek 
free elections, free speech, and a voice in their country's future. The 
very least they deserve is solidarity from democratic societies around 
the world.
                    perspectives from civil society
    Let me share with you just a few examples to illustrate how 
authoritarian aggression plays out on the ground in Eurasia.
    Evgenia Chirikova is a leading Russian environmental activist. She 
started a movement in 2010 to defend the Khimki forest near St. 
Petersburg from construction of a highway. She mobilized thousands of 
protesters and collected tens of thousands of signatures on petitions, 
showing that activism ran much deeper than many assumed. As a 
consequence of her own activism, Evgenia was arrested several times. 
Some of her fellow activists and journalists were harassed and beaten. 
In 2011, state authorities threatened to take her children away on the 
grounds that they were being abused. To keep her family intact, Evgenia 
was forced to move to Estonia and, undaunted, she continues to support 
civic activism from there. She has submitted written testimony to this 
subcommittee in which she outlines the many examples of grassroots 
organizing that are underway in Russia, despite the risks and 
obstacles. The peaceful anti-corruption demonstrations that took place 
just this past weekend appear to reflect her viewpoint.
    Russia is a participating state in the Organization for Security 
and Cooperation in Europe (OSCE). Under the OSCE's Copenhagen Document, 
Russia is committed to facilitating international and domestic 
observation of elections. Yet Russia's nonpartisan citizen election 
monitors are routinely vilified for simply exercising their right to 
support electoral integrity. They face fines, arrests and closure of 
their organizations. When international observers, including those from 
the OSCE, reported that the 2011 parliamentary and 2012 presidential 
elections were fundamentally flawed, these criticisms were deemed 
tantamount to interference--in another example of false equivalence.
    One of the impacts of the repression in Russia has been the 
isolation of activists from their peers in the international community. 
Under the International Convention on Civil and Political Rights, 
Russian citizens have the basic rights to to freedom of association and 
expression, which includes the ability to see, receive and impart 
information, including across borders. Yet international organizations 
working in Russia have faced smear campaigns in the media, spurious 
investigations and legal challenges, threats of blackmail and violence, 
physical assaults, and laws designed explicitly to restrict contact 
with Russian citizens. The net effect is to intimidate civic and 
political activists, who have reason to fear that engaging with an 
international organization would cause them to be targeted themselves.
    Anar Mammadli is the head of a respected nonpartisan citizen 
election monitoring group in Azerbaijan called the Election Monitoring 
and Democracy Studies Center. EMDS, as it is called, issued a report 
that described substantial fraud in Azerbaijan's 2013 presidential 
election, echoing the findings of other credible observer groups such 
as the OSCE. As a consequence, Anar served 2.5 years in prison.
    Anar will tell you that Azerbaijan's repressive techniques are not 
necessarily imposed from Russia, but rather borrowed quite willingly. 
They include ``black PR'' or smear campaigns in the state-controlled 
media, travel bans, blackmail, harassment of family members, loss of 
employment, fabricated tax assessments and legal charges, conscription, 
and arrest and imprisonment. Earlier this month, Amnesty International 
reported on a sustained ``spear-phishing'' campaign in which the 
passwords, contacts and private communications of Azerbaijani activists 
were compromised, resulting in the arrest and imprisonment of some of 
those people. Currently there are more than 100 political prisoners in 
Azerbaijan. Meanwhile, most Azerbaijani citizens have access to news 
primarily from state-controlled Russian or Azerbaijani television, both 
of which promote an anti-democratic and anti-Western perspective. Yet 
Anar Mammadli, like Evgenia Chirikova, continues his work to promote 
democracy and human rights in the face of these risks.
    Belarus is quite dependent, economically and militarily, on its 
neighbor to the East. The regime of President Lukashenko chafes at 
these vulnerabilities and periodically turns to the West in an effort 
to increase its room for maneuver. In times of domestic dissent, 
however, the government reverts to the authoritarian example set by 
Russia and reinforced by the dominance of Russian media in the region.
    Events this month are a vivid example. Citizens across the country 
have taken to the streets to protest an ill-conceived tax on 
unemployment. At first it appeared that the government might try to 
defuse the situation, but it has since lashed out, reverting to a 
pattern familiar in Moscow but not seen in Belarus for several years. 
The government is labeling the protesters ``fifth columnists'' and 
``bandits'' under the control of the West. This is a clear echo of the 
overused and fabricated Kremlin claim that all dissent or opposition is 
organized from the West. More than 300 Belarusians have been arrested 
or detained in the last 3 weeks--some brutally. Nearly half of these 
have been sentenced to jail terms.
    The picture from Georgia is more promising, but equally 
complicated. Georgia's foreign policy is explicitly Western-oriented: 
it is pro-EU and, for the most part, pro-NATO. NDI's public opinion 
surveys show that most Georgians aspire to a democratic and European 
future. It is thus no coincidence that in 2008, 6 years before the 
occupation of Crimea, Russia invaded and occupied Georgian territory in 
South Ossetia and Abkhazia, effectively obstructing Georgia's NATO 
aspirations while granting Russia untold political, economic, and 
military leverage.
    In addition, the influence of external propaganda is strongly felt. 
Rural Georgians and ethnic minorities who feel neglected by politicians 
in Tbilisi are particularly likely to be exposed to, and sympathetic 
toward, Russian messages about alleged threats emanating from the West. 
One example is the elevation of anti-gay, anti-feminist, and xenophobic 
campaigns to the forefront of the political agenda. This narrative 
holds that embracing Europe will force Georgians to violate long-held 
conservative values. An emphasis on the overriding importance of 
culture and tradition has the effect of legitimizing violence and 
exclusion. These campaigns did not originate in Georgia, but once 
introduced they took root and are now impacting the political 
landscape. Another prominent narrative is that EU and NATO aspirations 
are nothing more than naive fantasies. And, as in Belarus, a third 
narrative is that if Georgia does stray too far toward the West, it 
will face further military consequences from Moscow.
    The presence and tolerance of vocal civic watchdog groups is a sign 
of a country's democratic strength. The subcommittee has received 
testimony from representatives of two such groups in Georgia, 
Transparency International-Georgia and the Georgian Young Lawyers' 
Association. Ana Natsvlishvili, Eka Gigauri and Giorgi Oniani paint a 
vivid picture of the costs that hybrid warfare is imposing on Georgian 
democracy and sovereignty.
    I would like to focus particular attention on Ukraine. The outcome 
of Ukraine's struggle to defend its sovereignty and democratic 
aspirations will have far-reaching consequences for the broader region. 
Success in Ukraine would be a victory for Ukrainians, first and 
foremost, but also a major setback for authoritarian aggressors in the 
neighborhood. It is thus no coincidence that Ukraine has served as a 
laboratory for every weapon in the hybrid warfare arsenal, particularly 
since the occupation of Crimea 3 years ago.
    Ukraine of course continues to face grave challenges, including 
economic disruptions, political turmoil, the illegal occupation of 
Crimea and a war in the East. A favorable resolution of these crises is 
by no means guaranteed.
    Mustafa Nayyem, a journalist, was one of the first activists to 
call his fellow Ukrainians to Independence Square for the pro-democracy 
demonstrations now known as the Revolution of Dignity. Svitlana 
Zalishchuk, a journalist and a civic activist, was also a leader on the 
Maidan. Remember that more than a hundred people were killed in those 
demonstrations. Both Mustafa and Svitlana were elected to parliament in 
2014 as part of a wave of young democratic activists for whom the 
Revolution of Dignity was a call to public service. Mustafa and 
Svitlana have submitted written testimony to this subcommittee 
describing numerous examples of information warfare that have disrupted 
Ukraine's sovereign political processes.
    The prevailing misinformation would have us believe that Ukraine is 
deeply divided and that those Ukrainians who are not supporting fascism 
are desperate to be rescued by Russia. But recent NDI public opinion 
research paints an entirely different picture.
    First, Ukrainians are overwhelmingly united on the big issues 
facing their country. The vast majority--86 percent--says it is 
``important'' or ``very important'' that Ukraine become a fully-
functioning democracy. Large majorities support this point regardless 
of where they live in the country or which party they support. 
Ukrainians also have a clear and consistent view about how to define 
democracy: it means equal justice for all, free elections and 
fundamental freedoms. On the flip side of the coin, 74 percent assess 
Russia's influence on their country as negative. Only 4 percent 
consider it positive.
    Ukrainians are also clear and consistent about the path they want 
to follow. Asked whether they would accept peace in exchange for losing 
the right to determine their own future, 80 percent said ``no.'' Only 5 
percent said ``yes.'' Despite the many pressures they are under, 
Ukrainians are not willing to give up their territory: 77 percent want 
the occupied parts of Donbas to be returned to Ukrainian control.
    Ukraine's path to democracy is being driven from the bottom-up, 
rather than from the top-down. It is propelled by a popular 
determination, solidified on the Maidan during the Revolution of 
Dignity, to root out corruption and build a democratic system in which 
leaders serve the people, and not the other way around. The bottom-up 
nature of the process means that reforms may proceed relatively slowly, 
but the end result is likely to be more sustainable.
    Further, the polling demonstrates the optimism the Ukrainian people 
have in the slow but steady progress they are making. By a ratio of 
two-to-one, Ukrainians expect the next generation to be better off than 
their own. The ratio hits to five- or six-to-one in places like Kherson 
in the South and Khmelnitsky oblast and Lviv in the West. These numbers 
are significant because they mean that people are willing to make 
sacrifices now in order to deliver a better future for their children.
    Citizens without prior experience in any kind of activism are 
participating in local decisionmaking in ever-increasing numbers. One 
quarter has attended community meetings since 2014 and a further 29 
percent are willing to do so. These would be respectable figures 
anywhere, but they are particularly impressive in a country that was 
known, until relatively recently, for its politically-disengaged 
population. In other words, the Ukrainian people themselves are 
committed to the reforms that can make Ukraine more democratic, stable 
and prosperous. They hold these convictions independently of their 
current government and despite external pressures to the contrary.
    These findings illustrate that hostile external pressure is meeting 
fierce resistance in Ukraine. At the same time, international 
assistance that is offered and accepted in good faith is falling on 
exceedingly fertile soil.
                            recommendations
    Russia, Azerbaijan, Belarus, Ukraine, Georgia and the other 
countries of Eurasia have been training grounds for hybrid warfare. It 
is thus in the U.S. national security interest to help the countries of 
Eurasia build resilience so that they can be responsible partners in 
the community of democracies rather than breeding grounds for global 
instability.
    Which brings us to the question of how the international community 
can help resist this threat. As we consider ways to address 
authoritarian aggression, we should bear in mind that the trends we are 
seeing in Eurasia and Europe are part of a broader pattern. Much of the 
world is experiencing a rising tide of ``illiberalism,'' by which I 
mean elected regimes that hollow out democratic structures, eliminate 
checks and balances on executive power, and deprive citizens of basic 
rights and freedoms. The backlash against democracy is driven by 
authoritarian aggression, to be sure, but also by home-grown extremism 
and anti-elitism; corruption; migration; economic inequality and 
insecurity; technological disruptions; and weakened political 
institutions. All of these elements are powerful in their own right, 
but they also feed upon and reinforce one another. We see these 
tendencies in Eurasia and Europe, to be sure, but also to varying 
degrees in Asia, Latin America, the Middle East and Africa.
    This broader global context reminds us that there is no one-stop 
solution to the problem of authoritarian aggression.

    I would propose that we think in terms of four large baskets of 
responses:

    First, we need to reaffirm our transatlantic alliances and our own 
commitment to democratic principles while supporting the efforts of a 
new generation of democracy champions. Unless democracy's defenders are 
putting forward a compelling and positive narrative of their own, no 
amount of technical fixes will make a difference.
    Second, we need to strengthen democratic institutions in the 
affected countries. This is the first line of defense. When governments 
are not responsive to citizens and not delivering improvements to their 
lives, populist and extremist appeals gain traction. This basket has 
several corollaries.

          We need to help citizens engage in politics, by taking civic 
        action, joining parties or running for office. This is 
        particularly true for traditionally marginalized and 
        underrepresented groups. The impact of information warfare is 
        to drive people away from politics, which provides a vacuum for 
        extremists to fill. Ordinary people need incentives to get back 
        into politics to fill the political center.

          Political parties need to rise above their partisan interests 
        and take the position, as Senator Graham said at an earlier 
        hearing, that an attack on one is an attack on all.

          We need to fight corruption, which is simultaneously a cause, 
        a tool, and an effect of hybrid warfare.

    Third, governments in affected countries need to treat hybrid 
warfare like the urgent national security threat that it is. Anything 
less is to do the aggressor's work for him. Political leaders need to 
develop proactive and whole-of-government counter-strategies. They need 
to communicate about these strategies in a straightforward way with the 
public and enlist public-private collaboration.
    And fourth, Citizens, civil society organizations, political 
parties, journalists and editors need information, tools and strategies 
so they can protect themselves and each other from these threats.

          For example, NDI will be conducting pilot public opinion 
        research to determine who is most vulnerable to propaganda in 
        target countries and to learn the best ways of building their 
        resilience.

          More broadly, there is a need in the vulnerable countries for 
        coalitions to form around the goal of ``taking back our 
        elections.'' These networks would include civil society groups, 
        political parties, governments, academics, journalists, 
        technology experts, and traditional and social media companies.

          Depending on local circumstances, specific programs should 
        focus on civic education and media literacy campaigns; training 
        for political parties, civic watchdog groups, journalists and 
        editors; support for investigative journalism; strengthening 
        and expansion of credible Russian-language news sources; 
        assistance for election authorities; development of norms and 
        standards for the integrity of online political discourse; and 
        corporate responsibility campaigns for traditional and social 
        media companies.

    Hybrid warfare in Eurasia is an urgent threat--not just to Eurasia, 
but to Europe and the United States. There are courageous and tireless 
champions throughout the region who are committed to defending 
democratic values--Vladimir, Evgenia, Anar, Ana, Giorgi, Eka, Mustafa 
and Svitlana are just a few examples. And the story of resolve and 
resilience from Ukraine tells us that it is possible to defend against 
a military invasion and every other weapon in the hybrid warfare 
arsenal while still building democracy, slowly and steadily, from 
below.
    But they cannot do it alone. Nor should they. We know from recent 
experience in our own elections that the tools and techniques of hybrid 
warfare being tested in Eurasia today will be deployed on our own 
shores tomorrow.
    From our founding days, Americans have held the conviction that to 
secure the blessings of liberty for ourselves and our country, we must 
establish government that derives legitimacy and power from the consent 
of the people. We received the help of others in our founding, and from 
that point onward have embraced the ethic of assisting those around the 
world who step forward--sometimes at great risk--to promote, establish 
and sustain democracy. We have benefited from the peace that global 
democratic development produces and from the economic opportunities 
that it creates.
    Democracy assistance as a defense against authoritarian aggression 
in Eurasia remains an essential investment in sovereignty, stability 
and global security.
                                 ______
                                 
                Prepared Statement of Evgenia Chirikova
                         Russian Civic Activist
    Recently the image of Russia in the world has been very depressing. 
Russian Federation is perceived globally as aggressive and not very 
intelligent. And, actually, it's not very intelligent to conduct two 
wars at the same time under the conditions of growing economic crisis. 
As a result of almost 20 years under Putin, Russia is rapidly becoming 
an outcast.
    It may seem like there is no civil resistance in Russia. That 
opposition activists have either been killed, arrested, or forced to 
emigrate. It may seem like the people are intimidated by propaganda or 
afraid of being arrested. Putin has taken on the image of an 
unpredictable bandit in Russia and in the world. Unfortunately, this 
image is effective. After the annexation of Crimea and intervention in 
Ukraine, it has become clear that Putin's Russia is able to take any 
vile or unpredictable step. Within Russia, Putin's entire political 
machine behaves like an unpredictable bandit, too. For example, dozens 
of Russians have been imprisoned for simply liking an online post of 
which the authorities disapproved.
    But apart from these disturbing trends, there are also some very 
encouraging ones. Since 2010 Russian grassroots movements have become 
more common. Ten years ago, finding examples of grassroots movements in 
Russia was almost impossible. For example, the movement ``Save Khimki 
Forest'' generated great interest in the community and in the media 
because it was a rare example of a grassroots movement in post-Soviet 
Russia. It was quite unusual: ordinary citizens decided voluntarily to 
protect their environmental rights without any direction from 
government authorities.
    Why is this grassroots activity so unusual in Russia while in the 
West it is a standard phenomenon? The answer can be found in Soviet 
history, where any activism that was not approved by the state was 
severely punished.
    One hundred years ago, in 1917, political power in Russia was 
essentially seized by terrorists. Many Communists had a criminal past, 
including Stalin who was once involved in a bank robbery. Imagine that 
in a large country like Russia, a terror group came to power and held 
that power for 70 years. This was the monstrous experiment that 
citizens endured in my country. The results were terrible--mass 
repressions, murders of those born into wealthy families and arrests of 
people whose families were disliked by those in power. But the most 
important consequence was that the mentality of the people changed. 
People became passive; they understood that to survive they had to sit 
quietly, not criticize the government, and not attract attention. 
Russians and Russian society are the victims of terror under the Soviet 
Union and now, again, the leader of Russia is a person from another 
important terror organization--the KGB.
    In the Soviet Union, it was impossible to create even a Marxist-
Leninist club if it was at the initiative of ordinary citizens. Active 
people capable of self-organization were dangerous to the Soviet regime 
because they were able to think independently. Many active citizens 
were arrested, tortured, and killed in prison. Under Soviet rule, 
people stopped being independent and active. That is why for so long 
after the fall of the Soviet Union there were not many grassroots 
groups in Russia. And that is why I am so glad that now the number of 
grassroots groups is increasing. If you look at the map of social and 
environmental activism on the website activatica.org you will see a lot 
of points across different parts of Russia. Each of these points 
represents some kind of social or environmental problem that is being 
solved by ordinary citizens.
    This situation with grass roots activity started to change in 2010. 
It was a year of horrible environmental catastrophe, when a forest fire 
near Moscow caused the city to fill with smog. It was impossible to 
breathe and many people became sick from inhaling the smoke.
    Very soon people realized that the authorities would not solve the 
forest fire problem. As a result, people were forced to organize to put 
out the forest fires themselves. That same year, thanks to the 
increased visibility of this forest fire problem, the movement ``Save 
Khimki Forest'' was able to organize the first big demonstration in 
recent years, gathering a crowd of more than 5,000 people. As a result, 
the president of Russia, Dmitry Medvedev, publicly admitted that that 
the highway project through Khimki forest was unpopular and called for 
a moratorium. It was a major victory for civil society. After that, 
even though the highway was eventually built, many people understood 
that they too can stand up and say ``no'' to unfair government 
decisions.
    This began a new era of grassroots activism in Russia, culminating 
in mass protests around the Russian elections.
    Putin's regime answered this activism with repressive laws against 
civil society. The Russian parliament adopted laws to limit protest 
demonstrations and a law labeling NGOs that receive foreign funding as 
``foreign agents''. As a result of this law, many NGOs have closed. An 
organized campaign against NGOs is underway, including open criminal 
cases against NGOs and TV shows attacking NGO leaders for their Western 
and liberal values.
    Because of these criminal cases, some NGO leaders have fled to 
Western countries. For example Nadia Kutepova from the environmental 
NGO ``Planet of Hope'' sought political asylum and now lives in France:

        http://activatica.org/blogs/view/id/3019/title/priznaniya-
        inostrannogo-agenta:http://activatica.org/blogs/view/id/3019/
        title/priznaniya-inostrannogo-agenta.

    Other members of NGOs have gone to prison, such as Yuriy Dmitriev 
from Memorial in Karelia.
    Dozens of activists have been arrested and imprisoned:

        http://activatica.org/blogs/view/id/3043/title/proshjol-mesyac-
        so-dnya-aresta-glavy-karelskogo-memoriala-yuriya-dmitrieva-
        chto-izvestno-na-segodnyashniy-den.

    Some activists were even imprisoned for attending an anti-election 
demonstration in Bolotnaya Square on May 6, 2012. Despite the 
repression, however, the authorities have failed to strangle Russian 
civil society and the number of grassroots movements continues to grow.
    Why are people beginning to organize grassroots movements? After 
oil prices collapsed, many Russian authorities began to have money 
trouble. In order to enrich themselves, these officials began to allow 
construction of commercial buildings in parks and green zones. As a 
result, ordinary people are losing their public green spaces and are 
now organizing to defend their territory.
    In addition to seizing green spaces, the authorities have also 
introduced unfair taxes. For example, Moscow highways adopted a new 
toll system, Platon, which forced long-haul truck drivers to pay for 
their use. The beneficiary of this system is the son of the oligarch 
Arkady Rotenberg, who is a close friend of Putin. Truckers responded 
and organized an all-Russian movement against the Platon tax system. In 
a way, these unfair public policies are encouraging grassroots 
activism.
    Today, there are several grassroots movements around Moscow, 
including many environmental movements for the protection of green 
spaces. As I mentioned before, this is a response to the greedy 
policies of Moscow authorities to allow the construction of commercial 
buildings in parks, violating laws that should protect and preserve the 
green space. People use a variety of methods, sometimes desperate, to 
protect their rights. For example, defenders of Torfyanka Park and Park 
Druzhba organized protest camps with volunteers keeping watch for 
several months in the parks, not allowing construction crews to cut 
down any trees.
    In Park Druzhba, thugs from a private security company were hired 
to beat up the activists. As a result of this attack, one young park 
activist was hospitalized. A journalist at activatica.org conducted an 
investigation and found that the head of the private security 
organization was involved in the genocide in Bosnia and recruited 
volunteers to fight in the war against Ukraine:

        http://activatica.org/blogs/view/id/1160/title/izbieniyami-v-
        parke-druzhby-rukovodil-glavar-boevikov.

    The spread of this news story helped to cause a scandal that 
stopped future attempts at such attacks.
    Defenders of Torfyanka Park have protested for several years 
against the construction of an Orthodox church in what should be 
protected park land. They also organized a protest camp in the park and 
stayed there day and night to protect the trees. Again, hired thugs 
came to attack the protestors in the camp. They even attacked a 70-
year-old woman who was hospitalized with eye damage. The police 
arrested 12 of the park defenders including their children and elderly 
disabled parents:

        http://activatica.org/blogs/view/id/2560/title/nochnoy-naezd-
        policii-na-zashchitnikov-torfyanki-s-chey-podachi.

    Despite other offers of places to build the church, the Orthodox 
Church continues to insist upon building the church in the park and so 
the confrontation continues.
    Grassroots movements in Russia happen not only in the big cities, 
but also in far-off regions. Right now, in a small village in Karelia, 
where it is snowy and cold, elderly pensioners are staying day and 
night in a protest camp. These people, the ``Suna Partisans,'' are 
protecting their local forest from a company that wants to cut down the 
trees for a quarry mining project. There are no big population centers 
near this forest, only a small village inhabited by elderly pensioners. 
Even elderly villagers are organizing to protect their rights in 
today's Russia:

        http://activatica.org/blogs/view/id/3050/title/zashchitniki-
        sunskogo-bora-v-karelii-pobedili.

    Another example of grassroots activism in remote parts of Russia is 
a movement against the construction of the Tominsky mining and 
metallurgical plant in Chelyabinsk. Chelyabinsk is a large industrial 
city in the Ural Mountains with a history of devastating environmental 
problems. Although state propaganda portrays the citizens of 
Chelyabinsk as loyal to Putin, people in Chelyabinsk are organizing to 
take action against this environmentally hazardous project. More than 
5,000 people gathered in the central square of Chelyabinsk to protest 
the plant. For a remote Russian town with a long history of 
environmental and human rights abuses, this level of mobilization is 
incredible:

        http://activatica.org/blogs/view/id/3212/title/razgon-kruglogo-
        stola-po-probleme-tominskogo-goka.

    Russia's indigenous populations have also taken part in grassroots 
activism. The views of indigenous people are often ignored as Russian 
companies exploit oil, gas, and other minerals from native territory. 
But lately indigenous protests against oil and gas companies are 
increasing. For example, the Komi-Izhemtsy nation has engaged in a 
protest campaign against pollution caused by Lukoil. In another region, 
the indigenous Khanty-Mansi people are protesting to protect a sacred 
lake from destruction by a planned oil and gas extraction project:

        http://activatica.org/blogs/view/id/3206/title/v-respublike-
        komi-prodolzhitsya-borba-za-provedenie-jekologicheskogo-
        referenduma.

    All across Russia's regions, people are gathering into grassroots 
movements to protect their rights. It is important because 
participation in grassroots movements changes people's mentality as 
they start to have a demand for democracy. They begin to understand why 
they need elections, normal media, courts and police. Activists from 
grassroots movements themselves are beginning to participate in local 
elections. There are four people from our movement ``Save Khimki 
Forest'' who have been elected members of the local council in Khimki. 
I think that grassroots movements are the true hope for democratic 
change in Russia, because this network will be able to support civil 
society despite political stagnation. Our task is to help grassroots 
movements in Russia and don't close the door on Russia.
                                 ______
                                 
                  Prepared Statement of Anar Mammadli
     Election Monitoring and Democracy Studies Center of Azerbaijan

  the prevention of russia's negative effects on the democratization 
                 processes in the post-soviet countries
    Following the collapse of the former Soviet Union, Russia's 
influence on the political processes in the post-Soviet countries has 
been in different forms. Until the mid 1990s, these impacts were in the 
form of igniting national and ethnic conflicts (Abkhazia, Pridnestriya, 
Nagorno-Karabakh, South Ossetia) and indirectly, through the 
participation in the military operations. With the acquisition of the 
ceasefire on military operations, a relatively new phase of Russian 
influence has started. By establishing a new union (the CIS) after the 
USSR, Russian political circles attempted to maintain political and 
geopolitical control over the post-Soviet countries, with the exception 
of the Baltic states. However, unlike the Council of Europe and the 
OSCE, this union did not consider the rule of law, protection of human 
rights and freedoms or the socio-economic development goals. On the 
contrary, the CIS gradually became the union deprived of democratic 
institutions, free market economy, social welfare and independent 
judicial systems.
    In the early 2000s, the harsh authoritarian governance was formed 
with the help of Russia's high oil revenues, as in many post-Soviet 
countries, and contributed to strengthening the authoritarian regimes 
in Azerbaijan and Armenia. Since 2003, the establishment of a 
democratic political environment in Georgia and European-oriented 
political forces' rise to power has caused tensions in bilateral 
relations between Russia and Georgia. The political regimes in the 
other South Caucasus countries saw the Georgian experience as an 
undesirable example. In the face of criticism by the Western countries, 
the Council of Europe, OSCE and the European Union of these regimes' 
violations of human rights and freedoms, Russia's patronage, support 
and authoritarian governance system became more desirable.
    At present, Russia's historical and cultural ties with the post-
Soviet countries will keep those countries in the Russian information 
space. However, the most important problem in these countries, as well 
as in Russia, is restricting the access to alternative sources of 
information through the suppression of freedom of expression and 
constant pressure, and/or the shutdown of the independent television 
channels and radio stations. For instance, according to the survey 
conducted in 2015 by BBG and Gallup companies, in response to the 
question, ``Which media source is reliable about Ukraine and Crimea?'', 
the responses pointed out the Russian media as follows: Belarus 67 
percent, Azerbaijan 64 percent, Uzbekistan 79 percent, Tajikistan 85 
percent. The problem is that the non-democratic governments present in 
post-Soviet countries did not allow forming free media structures in 
those countries for many years, making those populations heavily 
dependent on the information space of Russia.
    In recent years, the tensions Russia is experiencing with the 
Western Institutions, in particular with the Council of Europe and the 
OSCE in the field of human rights and democracy is also observed in the 
countries such as Azerbaijan and Belarus. By making its best efforts to 
cast shadows over the legitimacy and credibility of these institutions 
in the post-Soviet countries, the Russian government is setting bad 
examples for its other neighbors.
    In addition, the political pressures by the Russian authorities on 
the international human rights organizations, including not allowing 
such organizations to operate in the country, is used by some former 
Soviet countries' governments as ``best practices.'' As a result, 
following Russia and Belarus, the activities of the foreign NGOs and 
foundations were banned in Azerbaijan.
    Another negative impact by Russia associated with the 
democratization processes in many former Soviet countries is reflected 
in Russia's support for the CIS' ruling political forces through 
election monitoring by non-professional election observation missions 
that give legitimacy to the flawed and falsified elections.
    For instance, by giving only the biased political views in support 
for the position of the ruling political forces in Armenia, Azerbaijan, 
Kazakhstan and other Central Asian countries, the CIS Election 
Observation Missions undermines the position of OSCE/ODIHR, as well as 
that of the local independent election monitoring groups.
    The experience of recent years shows that a number of measures are 
to be taken by international institutions and democratic states to 
prevent the negative effects by Russia on the formation of human rights 
and democratic institutions in the post-Soviet countries:

  --Protection of freedom of expression, freedom of assembly and 
        freedom of association, support for strengthening independent 
        media institutions, defense for the members of political 
        parties and civil society organizations in the Post-Soviet 
        countries;
  --Protection of the international law principles through the 
        resolution of the military conflicts, protection of the 
        territorial integrity of post-Soviet countries and support for 
        the peace-building processes;
  --Sanctions against public officials involved in the implementation 
        of political repression, persecution and torture.
                                 ______
                                 
          Prepared Statement of Eka Gigauri and Giorgi Oniani
                  Transparency International--Georgia
    Honorable Ladies and Gentlemen,

    We are grateful and humbled by this opportunity to testify for the 
U.S. Senate, on the topic which is immensely critical for the last 
several hundred years of our country's history.
    Russia is the biggest scourge our country has experienced 
throughout its history. Georgia is a country which has probably 
suffered most from Russia over the last hundreds of years. Russia has 
numerously brought war, destruction, continuous devastation and 
demolition to the country, as well as to our people and to the hopes 
for the better future of many generations of Georgians.
    History of our relationship is history of fighting for independence 
from Russia,--starting from annexation of Georgia by Russian empire in 
1801, we were fully or partially occupied for several times--in 1921, 
when we were dragged into the Soviet Union and in 2008 when Russian 
troops invaded and occupied parts of our territory and declared them to 
be independent states of Abkhazia and South Ossetia.
    But most notably, we have been in fight for independence of our 
hearts and minds, which has been constantly ongoing and has intensified 
in the recent years. So called Russian propaganda and disinformation is 
vividly felt and seen in Georgia, and unfortunately it is also 
increasingly effective. Less than 10 years have passed after Russia's 
last invasion, and Russian troops are still standing in the middle of 
the country, but this had neither prevented pro-Russian rallies in the 
capital of Georgia, nor an election of openly pro-Russian political 
party to the Parliament. This is very unfortunate and disappointing, 
but also proves how effective and sophisticated Russian soft power is 
in Georgia.
    Moreover, Russia remains the main obstacle and hindrance to the 
process of Georgia's Euro-Atlantic integration. It helps nurture anti-
western sentiments in the hearts and minds of Georgians portraying the 
process as if it aims at destroying the traditions and values of 
Georgians.
    The channels of the propaganda machine are diverse and very 
sophisticated:

  --Russian media and primarily TV channels, (as television remains to 
        be the primary source of information);
  --Local, but Pro-Russian media; and
  --Local pro-Georgian media--which fosters pro-Georgian values and 
        sentiments as if they are under threat by `looming' 
        Europeanization of the country.

    They also distribute messages across the regions of Georgia, and 
also use diverse channels to transfer these messages (using opinion-
makers, the church--as the most trusted institution in Georgia and 
representatives of cultural sphere).
    Basically this is the format and toolkit widely used across our 
region against the countries and peoples who are trying to break with 
Russia and integrate to EU and NATO. They are very effective and 
sophisticated in the whole region and obviously, this needs to be stood 
against. But only peoples of Georgia, or Moldova or Ukraine cannot 
handle this. We need firm and continuous support of the international 
community, but primarily of the United States to be able to succeed in 
this.
    For Georgia, integration in Euro-Atlantic institutions is not a 
mere foreign policy choice--it is an existential path. Please, be 
assured, that if Georgia does not integrate with the West we will be 
swallowed by Russia once--we know this menace and we do not want it to 
happen again.
    Georgia's success on this path is important and symbolic for Russia 
and it should be the same for the West. Through opposing Georgia Russia 
tries to combat and defeat the successful democratic transformational 
way of development which Georgia projects to the region and beyond. 
Georgia, with its recent past and Western future encapsulates an 
alternative way of development in this part of the world. We have tried 
to prove through our own example that it is possible to be not corrupt, 
democratic and to develop at the same time--something that seems 
unrealistic in this part of the world, where Russia tries to dominate 
the discourse, claiming that it is only possible to develop and move 
forward together with Russia, and being like Russia. Thus, defeating 
Georgia's success case is also very symbolic to Russia, as we pose 
threat to Russia's current way of development--that is why they are so 
aggressive and determined when it comes about Georgia. And please, be 
assured that Georgia's successful integration with the West will have 
tremendous implications for the whole region. We are watched with hope 
not only by our neighbors in South Caucasus, to the east in Central 
Asia, where Russia is even more powerful and integration with the West 
is something remote and almost unrealistic, but also from Russia 
itself. If Georgia--a country with the same past but different present 
succeeds on this path, it will pave the way to similar transformations 
in the whole region--including Russia. That is why, in Georgia's case, 
there is more at stake rather than a success of just another post-
Soviet country.
    But unfortunately, we see that exactly this positive trend of 
transformation might be under threat in Georgia today, if U.S. support 
to Georgia is not sustained and strengthened. Not only Russia tries to 
meddle with the internal developments of Georgia and tries to win the 
hearts and minds of our people, but also unfortunately, the quality of 
democracy has deteriorated in Georgia recently, not infrequently, our 
Government, deliberately or not, plays at hand to Russia and through 
undermining democratic institutions makes their job easier in Georgia.
    On the one hand, over the last year there have been some positive 
tendencies, especially with regards to human rights, free and fair 
elections, independence of Judiciary and media pluralism, however, we 
have recently witnessed some problems with regards to the independence 
of the Judiciary and Media freedom. Informal governance of former 
governmental officials and party leaders is still a challenge for 
Georgian state, which creates obstacles for building independent 
institutions in Georgia and transparent political process that creates 
grounds for political corruption.This set of problems aggravate another 
and a very dangerous one which is lack of clarity and coherence in 
official position towards Russia: After 2008, diplomatic ties have been 
broken off and Russia has been legislatively granted a status of an 
occupant country. Nevertheless, it seems that current Government of 
Georgia is creeping towards changing the status-quo, without changing 
anything in the legislation or official policies. In addition to 
existed international multilateral formats the Government of Georgia 
has set up additional semi-formal relationship format with Russia 
through the special representative of the Prime Minister, (Mr. 
Abashidze) and more importantly avoiding any involvement of the main 
foreign policy implementation institution--Ministry of Foreign Affairs. 
The main problem with this format is again its non-transparent nature, 
which leads to the problems of accountability. It seems that without 
Western and primarily U.S. support the Government of Georgia is unable 
to effectively withstand the pressure from the Russian side, and it is 
critically important that U.S. remains Georgia's strong ally in this 
regard.
    The Government is increasingly coming to recognition of the fact 
that anti-Western propaganda is a serious challenge for our country and 
recently strategic communication strategy and action plan have been 
elaborated. However it is obviously not enough.
    Therefore, continuous interest and desire to promote the positive 
changes in Georgia, from the West and particularly from the side of the 
United States of America is critically important. Development of 
democratic institutions and adherence to Western democratic values is 
the backbone which can keep Georgia on track, that will also retain the 
positive example of Georgia for the wider region. It is critically 
important for Georgia not to fail--it is existential for us, but it is 
also an important hope for the wider region, including to the north of 
us. And this is truly impossible without very important, vocal and 
strategic involvement of United States. Without U.S. leadership, 
Europe, which is often preoccupied with redesigning and re-
acknowledging its new role and place in current world will hardly be in 
a position to cope with these problems alone. At least this has not 
been the case so far.
    That is why the focus of the U.S. influence in Georgia should be 
the emphasis on more democracy, institution-building and true adherence 
to Western democratic values from Georgia's ruling elite. And this is 
most easily done through supporting our Euro-Atlantic path. Helping 
Georgia integrate more with NATO and EU, the continuous reform 
conditionality set thereof, would greatly straightjacket any incumbent 
Georgian Government from possible deviations from democratic 
institution-building. And this is what United States can do and help 
current and future generation of Georgians with. Obviously, it is the 
primary responsibility of Georgian citizens and Georgian Government to 
maintain our achievements and to move the country forward, however U.S. 
leadership and assistance in this regard is critically important as it 
has always been--please, be assured that your moral and financial 
contribution to Georgia's development has played a crucial role in 
Georgia's progress and we truly hope that you will continue to stand 
besides us in this endeavor.
    We, the civil society representative of Georgia, call upon you, 
honorable ladies and gentlemen, to make sure the United States of 
America maintains its interest and involvement in this part of the 
world, through promoting values of democracy and human rights and 
helping our countries get closer with the West. Through this you would 
help the region stand against devastating and disrupting Russian 
influence. Georgia's success is key, exemplary and symbolic, which can 
positively impact the wider region, including inevitable positive 
changes in Russia itself.
                                 ______
                                 
                Prepared Statement of Ana Natsvlishvili
                  Georgian Young Lawyers' Association

                 achievements of georgian civil society
    Georgia has one of the most vibrant and diverse civil societies in 
the Eastern-Partnership region. Georgian Young Lawyers' Association 
(GYLA) is one of the oldest and largest non-for-profit, non-
governmental organizations focusing on the protection and promotion of 
human rights, democracy and rule of law in Georgia. We work on a wide 
range of issues by providing free of charge legal aid, doing strategic 
litigation at the national and international level, we engage into 
legislative and institutional reforms, monitor activities of various 
state bodies with the aim of promoting transparency and good 
governance, monitor elections, carrying out awareness raising 
activities, etc.
    As important change-makers and opinion leaders in Georgia, NGOs are 
often invited to the table and involved in the planning and 
implementation of important reform processes (legislative as well as 
institutional reforms), perform watchdog activities, etc. Most of the 
state bodies and the parliament maintain generally open environment for 
cooperating with NGOs, thought the degree of actually taking into 
consideration NGOs recommendations varies.
    The important role NGOs play in Georgian society is fostered by 
enabling legal framework for the work of non-for-profit organizations 
and relatively favorable working conditions (as compared to other 
countries in the region), as well as pluralistic and rather free media 
environment. Current media environment allows NGOs to raise voice and 
reach out to a wider public. However, more recently, concerns about 
sustainability of pluralistic media have increased, in the light of 
Rustavi 2 case before the court about the ownership of the shares of 
the TV company, with reasonable grounds to believe that state 
authorities were interested in and influencing the outcome of the case, 
highly controversial reforms in the Public Broadcaster and closure of 
certain political talk-shows at other private TV stations.
          challenges that democracy activists in georgia face
    No serious security or other challenges face human rights defenders 
in Georgia, although certain issues, which are controversial in 
Georgian society, (e.g., women's rights, LGBT issues) sometimes places 
NGOs or individual activists under unfavorable working environment. 
Parliamentary elections of 2016 witnessed certain security challenges 
and unfriendly working conditions for international as well as national 
election observers.
    NGOs are at times subjected to criticism as ``western agents'', 
``vehicles of foreign interests'', and ``the ones against national 
interests.'' To defame NGOs, Critics often stress that NGOs are 
foreign-funded, while neglecting the fact that state institutions are 
also getting funding for implementing different important projects from 
the same foreign aid sources. This kind of labeling is very much in 
line with Russian propaganda. Sometimes state officials also use this 
labels in their public statements, or portray them as working against 
state security, which strengthens stigma against NGOs.
    NGOs often struggle with highly polarized environment in Georgia. 
Polarization in Georgia, having political, rather than ideological 
nature, often contributes to build up two hostile camps, with little 
middle ground. In such environment, NGOs are often seen not as 
protectors of universal principles, the rule of law and human rights, 
no matter who is ``the victim'' and who--``the abuser'', but as taking 
a side of one or another political camp. On the other hand, political 
parties at times also do not shy away from instrumentalizing media and 
NGOs to foster their interests. One example of that is noticeable 
number of fake observer organizations which emerge right before 
elections to ``monitor'' it. In 2016 GYLA observed use of certain NGOs 
(about which very little information was known or available in public 
information sources,) who portrayed themselves as neutral, however in 
reality clearly overstepped the mandate of election observers, and 
tried to foster the interests of different political parties.
            the role of russia: russia as an occupying power
    Russia is an occupying power of Tskhinvali Region/South Ossetia, 
and the whole territory of Abkhazia, including the Upper Abkhazia/
Kodori Gorge region following the August War 2008.\1\ Continued 
occupation of the regions of Georgia was recognized by numerous states 
and international political and legal institutions, including the 
European Court of Human Rights.\2\
---------------------------------------------------------------------------
    \1\ See United Nations Report of the Secretary-General on the 
situation in Abkhazia, Georgia, 3 October 2008, S/2008/631; Statement 
of Mr. Alasania of Georgia to the United Nations Security Council, 
5953rd Meeting, 10 August 2008, S/PV.5953; Council of Europe 
Parliamentary Assembly, Monitoring Committee Report, `The 
implementation of Resolution 1633 (2008) on the consequences of the war 
between Georgia and Russia', 17 December 2008, AS/Mon(2008)33rev.
    \2\ Decision on the Admissibility of the Application, Georgia v. 
Russian Federation (II), Application no. 38263/08 of December 2011.
---------------------------------------------------------------------------
Violations During the August War 2008
    Georgian NGOs have lodged a number of applications before the 
European Court of Human Rights concerning human rights violations 
committed during the war, in particular:

  --Unlawful detention of up to two hundred ethnic Georgians by South 
        Ossetian military and paramilitary forces, at times together 
        with Russian military forces in August 2008;
  --Their ill-treatment at the moment of the arrest and/or whilst in 
        detention;
  --Forced labour of the able-bodied men;
  --Discriminatory treatment due to their Georgian ethnicity/identity 
        and/or citizenship; and
  --Violation of their right to respect for family life.

    Detainees were civilian inhabitants of the villages within or 
adjacent to South Ossetia and they were detained in different locations 
between 9 and 16 August 2008; most of them were taken to the detention 
facility of the Ministry of Interior of South Ossetia (hereinafter 
``MVD Isolator'') located in Tskhinvali, the capital of South Ossetia. 
Georgian Detainees were held in the MVD Isolator between 7 to 20 
days.\3\
---------------------------------------------------------------------------
    \3\ Out of 53 applications on war cases of the Georgian Young 
Lawyers' Association at the European Court of Human Rights, see e.g. 
Barbakadze and others v. Russia (application no. 9546/09); 
Shoshitashvili v. Russia (application no. 8799/09); Chalauri and Others 
v. Russia (9445/09); Khaduri v. Russia (application no. 8906/09).
---------------------------------------------------------------------------
    During the August War 2008, around 26,000 Georgian citizens in 
South Ossetia were forced to flee and leave their houses and belongings 
behind. The massive number of family houses, located in the area 
currently under Russian occupation, were deliberately looted and burnt 
down by Ossetian military and paramilitary forces.\4\ For generations 
the affected population had lived in these houses with their families. 
Since August War 2008 they have been continuously prevented from 
returning to their homes. Even where the property of the affected 
population is not completely destroyed, the owners are continuously 
denied access to their homes and other belongings by the Russian 
occupation forces. Consequently, these people have been deprived of 
their revenue, which they derived from their land.
---------------------------------------------------------------------------
    \4\ According to UNOSAT's experts in Tamarasheni a total of 177 
buildings (almost all the buildings in the town) were destroyed or 
severely damaged. In Kvemo Achabeti, there are 87 destroyed and 28 
severely damaged buildings (115 total); in Zemo Achabeti, 56 destroyed 
and 21 severely damaged buildings (77 total); in Kurta, 123 destroyed 
and 21 severely damaged buildings (144 total); in Kekhvi, 109 destroyed 
and 44 severely damaged buildings (153 total); in Kemerti, 58 destroyed 
and 20 severely damaged buildings (78 total); and in Dzartsemi, 29 
destroyed and 10 severely damaged buildings (39 total). Information 
available at: http://www.hrw.org/en/news/2008/08/27/georgia-satellite-
images-show-destruction-ethnic-attacks.
---------------------------------------------------------------------------
Violations Committed After the August War
    Since October 2008, the administrative boundary line (ABL) 
constructed by de facto authorities of South Ossetia under effective 
control of Russian armed forces separates the rest of Georgia from the 
Tskhinvali Region/South Ossetia. While people on both sides continue to 
cross the ABL for various reasons, such as to access medical care, to 
visit graveyards, or to see relatives or family members on the other 
side, most of this movement across the ABL is considered illegal by the 
de facto authorities. Due to these restrictions on freedom of movement, 
Russian and Ossetian border guards mostly with alleged charge of 
``illegal border crossing'' have arrested residents of Georgian 
controlled territories, including women, minors and elderly people. 
Civilian inhabitants of the villages located alongside the ABL have 
been arrested by the Russian guards while harvesting the capers or 
cutting wood in close proximity to the ABL.\5\
---------------------------------------------------------------------------
    \5\ Georgian Young Lawyers' Association represents the interest of 
18 Georgian citizens detained in the aftermath of 2008 war by the 
Russian border guards in the following applications: Biganishvili and 
others v. Russia, app. no. 59827/10; Kobaladze and Others v. Russia, 
app. no. 50135/09; Lomsadze and others v. Russia, app.no. 77190/11; 
Akhvlediani and Takadzeebi v. Russia, Karkishvili and others v. Russia.
---------------------------------------------------------------------------
    International independent bodies have expressed their concern over 
the absence of official crossing points and regulations concerning the 
crossing of the ABL. The location of the ABL in many places is unclear. 
In some places the ABL is demarcated but in many places it is not.
    Shortly after the 2008 war, in 2008-2009, Russian and South 
Ossetian military started construction of barbed wire entanglements, 
barriers, fences and trenches adjacent to the administrative boundary 
line with South Ossetia, within the territory under Georgian control.
    The newly erected barriers and barbed wire fences further resulted 
in the loss of access to and control over farmland, homes, property and 
facilities for the residents in many of the villages. Security 
concerns, Russian and South Ossetian border guards and physical 
barriers make it impossible for village residents to cultivate the land 
plots or collect the harvest. At present there are no prospect of 
demolishing the barbed wire fences, or permitting the village residents 
to go back to their family houses or cultivate their land plots in the 
foreseeable future.
    Despite the calls from the international community and numerous 
complaints submitted by the victims with the assistance of Georgian 
NGOs, the Russian Federation has not provided any effective and 
independent investigation into the human rights violations committed 
during and in the aftermath of the war, it has not provided effective 
remedy, including reparation, for an unjustified interference with 
their right to respect for their home and family life.\6\
---------------------------------------------------------------------------
    \6\ Out of 53 applications on war cases of the Georgian Young 
Lawyers' Association at the European Court of Human Rights, see e.g. 
Turashvili and Others v. Russia (application no. 52486/09); 
Arbolishvili v. Russia (application no. 8611/09); Kochishvili and 
Others v. Russia (application no. 8976/09); Nebieridze and Others v. 
Russia (application no. 9239/09); Askilashvili and Others v. Russia 
(application no. 8996/09); Zubashvili and Others v. Russia (application 
no. 8912/09); Razmadze and Others v. Russia (application no. 9221/09); 
Beruashvili and Others v. Russia (application no. 10341/09); 
Tsitsiloshvili v. Russia (application no. 10046/09); Kristesiashvili 
and Others v. Russia (application no. 10312/09); Gogidze and Others v. 
Russia (application no. 16993/09).
    Russia has committed breaches of international humanitarian and 
human rights law norms during the August War in 2008 and in the 
aftermath. In its 97th session the Human Rights Committee (the 
Committee) has issued a recommendation to the Russian Federation (i) to 
conduct independent investigation into human rights violations 
committed by Russian forces and other armed groups under their control 
in South Ossetia, Georgia, and (ii) to provide effective remedy to 
victims of serious violations of human rights and international 
humanitarian law. Furthermore, the Committee stressed that Russia bears 
responsibility for violations that take place in the territory that 
fall under its de facto control (see CCPR/C/RUS/CO/6 pp. 5-6).
---------------------------------------------------------------------------
    Similar to Tskhinvali Region/South Ossetia, Georgia, following 
human rights violation took and continue to take place in Abkhazia, 
Georgia:

  --Undue restrictions on the local population wishing to cross the ABL 
        administered by Abkhaz border guards and Russian armed forces 
        (freedom of movement).\7\
---------------------------------------------------------------------------
    \7\ PACE, Resolution 1683, op. cit., para. 7. International Crisis 
Group, Abkhazia: Deepening Dependence, Europe Report No. 202 (26 
February 2010), p. 4. PACE, Doc. No. 12039, para. 17, op. cit. GWS, 
Vol. III.
---------------------------------------------------------------------------
  --Continued violation of the right to property (property claims) and 
        access to effective remedy (discrimination on ethnic grounds of 
        Georgians, creation of Property Claims Commission only for 
        ethnically Abkhaz and Russian persons); \8\
---------------------------------------------------------------------------
    \8\ Georgia's Human Rights Report for 2011 and 2012 (available at 
http://www.state.gov/
documents/organization/160457.pdf http://www.state.gov/documents/
organization/204499.pdf).
---------------------------------------------------------------------------
  --Russian border guards along the administrative boundary line with 
        Abkhazia typically enforce the boundary-crossing rules imposed 
        by de facto authorities by fining and releasing detained 
        individuals (arbitrary deprivation of liberty and violation of 
        the procedural guarantees); \9\
---------------------------------------------------------------------------
    \9\ Georgia's Human Rights Report for 2013 (available http://
www.state.gov/documents/
organization/220492.pdf).
---------------------------------------------------------------------------
  --Security situation in Gali district (populated by ethnic Georgians) 
        including inter alia security arrests, kidnapping, methods of 
        conscription and treatment of ethnic Georgian conscripts, and 
        etc.\10\
---------------------------------------------------------------------------
    \10\ Georgia and Russia: the humanitarian situation in the conflict 
and war-affected areas, PACE Doc. 13083, 20 December 2012, (available 
at http://assembly.coe.int/nw/xml/XRef/X2H-Xref-
ViewPDF.asp?FileID=19238&lang=en).
---------------------------------------------------------------------------
  --Ill treatment and abuse during detention as well as poor detention 
        conditions.\11\
---------------------------------------------------------------------------
    \11\ Report on the visit to the region of Abkhazia, Georgia, 
carried out by the European Committee for the Prevention of Torture and 
Inhuman or Degrading Treatment or Punishment (CPT) from 27 April to 4 
May 2009 (available at http://www.cpt.coe.int/documents/geo/2009-38-
inf-eng.htm).

    As an occupying power maintaining effective control over the two 
break-away regions of Georgia, Russia bears responsibility for the 
human rights violations committed, which were described above. It has 
the obligation to investigate those abuses and provide victims with the 
right adequate reparations.
    Very little official information is available on the human rights 
and humanitarian situation in South Ossetia due to limited access, 
however allegations of abuse persist. With the exception of one 
international human rights assessment, access to Abkhazia also remains 
limited.\12\
---------------------------------------------------------------------------
    \12\ U.S. State Department Report on Georgia (2016) available at 
https://www.state.gov/
documents/organization/265634.pdf.
---------------------------------------------------------------------------
    Taking into consideration the above facts, GYLA strongly supports 
ongoing ICC investigation into the August 2008 War.
The Role for United States to play
  --Continue support for the non-partisan, non-for-profit civil society 
        organizations in Georgia, particularly in the field of human 
        rights, democracy and rule of law;
  --Pay particular attention to Russian propaganda and use of soft 
        power in Georgia and other Eastern Partnership countries;
  --Continue support for Georgia's sovereignty and territorial 
        integrity;
  --Use instruments and fora available to USA to raise the issue of 
        Russia's international legal responsibility for continues 
        occupation and human rights violations in Abkhazia and South 
        Ossetia.
                                 ______
                                 
      Prepared Statement of Mustafa Nayyem and Svitlana Zalishchuk
                  Members of the Parliament of Ukraine
    Honorable members of the United States Senate,

    On behalf of Svitlana Zalishchuk and Mustafa Nayyem, members of the 
Parliament of Ukraine, we would like to provide you with evidence of 
Russia actively financing artificial `civil society' initiatives and 
spreading fake stories not only in Ukraine but also in other democratic 
countries in order to create a negative image of Ukraine and interfere 
with the political process. We present a few examples which show how 
Russia is using bogus `civic' organisations, news agencies and 
mainstream Russian media, trolls and misinformation as part of its 
hybrid war against Ukraine:

    1. Alexander Usovsky, a Belarusian living in Poland, received more 
than 100,000 U.S. dollars from Russia in order to finance anti-
Ukrainian nationalist groups in Poland and to set Poles against 
Ukrainians. Usovsky's correspondence with the Russian MP and director 
of the Institute of CIS countries, Konstantin Zatulin, who provided 
this funding, was revealed by the Ukrainian groups CyberHunta and Cyber 
Alliance. Usovsky coordinated his anti-Ukrainian actions with Mateusz 
Piskorsky, who founded the openly pro-Russian party ``Change'' in 2015 
and a year later was detained by the Polish authorities, accused of 
espionage in favor of Russia against Poland.

    ``For Money From Russia Against Poland in Ukraine'': http://
wyborcza.pl/7,75399,21472245,za-kase-kremla-w-polsce-przeciw-
ukrainie.html?disableRedirects=
true.

    ``Pro-Russian Activism of Mateusz Piskorski, Detained in Poland'': 
http://www.interpretermag.com/pro-russian-activism-of-mateusz-
piskorski-detained-in-
poland/.

    2. Harry van Bommel, a left-wing member of the Dutch Parliament, 
used a ``Ukrainian team'' that actually included Russians in an effort 
to influence the Dutch referendum in 2016 on ratification of the EU-
Ukraine Association Agreement. Presenting themselves as Ukrainians, the 
members of the ``Ukrainian team'' attended public meetings, appeared on 
television and used social media to denounce Ukraine's pro-Western 
government as a bloodthirsty kleptocracy, unworthy of Dutch support, 
and also to promote implausible alternative theories for the downing of 
the Boeing jet carrying Malaysia Airlines Flight 17.

    ``Fake News, Fake Ukrainians: How a Group of Russians Tilted a 
Dutch Vote'': https://www.nytimes.com/2017/02/16/world/europe/russia-
ukraine-fake-news-dutch-vote.html.

    3. Russian state TV Channel One showed a scene where a small boy 
was crucified ``just like Jesus'' by the Ukrainian army in eastern 
Ukraine in Sloviansk while his mother was tied to a tank, and dragged 
three times around the city's central square. Some days later Russian 
opposition leaders Alexei Navalny and Boris Nemtsov in Sloviansk said 
that there was no evidence that such a public execution had taken place 
and called for the management of Channel One, Russia's most popular 
channel, to be put on trial for broadcasting it.

    ``There's No Evidence the Ukrainian Army Crucified a Child in 
Slovyansk'': http://www.thedailybeast.com/articles/2014/07/15/there-s-
no-evidence-the-ukrainian-army-crucified-a-child-in-slovyansk.html.

    4. Russian newspaper Moskovskyi Komsomolets falsely accused Ukraine 
of presenting a staged video game as evidence at a hearing before the 
UN International Court of Justice in The Hague. ``As proof, Ukraine 
demonstrated a video game seemingly showing Russia transporting heavy 
artillery for the militia'' in eastern Ukraine, the newspaper writes. 
This spurious claim is not supported by any evidence, link or 
explanation. Other media who disseminated similar stories claiming that 
Ukraine presented a video game as evidence include Rambler News, 
Nesam.net.ua, Zagolovki, Live News and others. The full session of the 
ICJ hearing is available on the court's website where the documentary 
visualization is also available. (1:48:00-1:54:00).

    ``Ukraine Has Brought the Video Game on the Court Against Russia in 
Hague'': http://www.mk.ru/politics/2017/03/06/ukraina-predyavila-
igrovoe-video-na-sude-protiv-rossii-v-gaage.html.

    The ICJ hearing: http://www.icj-cij.org/presscom/
view_vod.php?event=20170306
_ur&filename=5349310122001.

    5. The pro-Russian Novorossia news agency published a story 
accusing Ukrainian armed forces of robbing and looting local Ukrainians 
in the conflict zone and illustrated this fake story with a photograph 
of a soldier carrying two geese. This photograph actually shows a 
Russian soldier and was taken in Chechnya in 1995. This photograph was 
posted on the Russian social media site LiveJournal by a user named 
Frallik in 2013. Frallik writes that the photo was taken in 1995 in 
Meskenduk, during the second Chechen war.

    ``Fake: Russian Soldier Looting in Chechnya Presented as 
Ukrainian'': http://www.stopfake.org/en/fake-russian-soldier-looting-
in-chechnya-presented-as-
ukrainian/.

    6. Fake reports alleged that the Ukrainian air force had targeted 
Russian President Vladimir Putin's plane, which flew over the same 
region as MH17 one hour earlier. Just three hours before MH17 was 
downed, The Associated Press reported the passage of a Buk M-1 missile 
system--a machine the size of a tank bearing four ground-to-air 
missiles--through the rebel-held town of Snizhne near the crash site. A 
highly placed rebel officer told the AP in an interview after the 
disaster that the plane was shot down by a mixed team of rebels and 
Russian military personnel who believed they were targeting a Ukrainian 
military plane.

    ``Russian Pictures of MH17 Being Shot by Ukrainian Jet `Fake' '': 
http://www.telegraph.co.uk/news/worldnews/europe/ukraine/11233420/
Russian-pictures-of-MH17-being-shot-by-Ukrainian-jet-fake.html.

    ``Russia's Fictions on Malaysia Flight 17'': https://
www.nytimes.com/2015/10/15/opinion/russias-fictions-on-malaysia-flight-
17.html?rref=collection%2Ftimestopic%2F
Malaysia%20Airlines%20Flight%2017.

    7. At the end of February 2017 several Russian publications claimed 
that European countries were accusing Ukraine of releasing a 
radioactive isotope into the continent's atmosphere. An increase in 
iodine-131 was first noticed in Norway in mid-January, eventually 
traces were also picked up in Poland, the Czech Republic, Germany, 
France and Spain. No European publication has reported that the leak 
originated in Ukraine. Only Russian media, such as RIA Novosti Ukraina, 
Komsomolskaya Pravda, Anna News, Forum.msk.ru, Operativnaya Linia, 
Otkrytaya elektronnaya gazeta claimed that the source of the leak was 
Ukraine, but did not provide any evidence to support the claim. Citing 
the Independent and the Barents Observer as its sources, the RIA story 
points the finger of blame directly at Ukraine, however, Ukraine does 
not figure in their stories at all. According to the Independent, the 
unusual activity could be coming from a secret Russian nuclear missile 
launch, or from a hidden pharmaceutical business, but nobody is 
entirely sure.

    ``In Europe--A Mysterious Flash of Radiation'': http://rian.com.ua/
analytics/20170224/1021704749.html.

    ``The Increase of Radioactivity Europe Blames Ukraine'': http://
kp.ua/incidents/567761-v-povyshenyy-radyoaktyvnoho-fona-evropa-
obvyniaet-ukraynu.

    ``Mysterious Radiation Spreading Across Europe After Authorities 
Keep it Secret'': http://www.independent.co.uk/life-style/gadgets-and-
tech/news/radiation-europe-
russian-missile-strike-radioactive-material-france-norway-iodine-131-
irsn-a7591886.html.

    ``Radioactive Iodine Over Europe First Measured in Finnmark'': 
https://thebarentsobserver.com/en/ecology/2017/02/radioactive-iodine-
over-europe-first-
measured-finnmark.

    8. Russian media site Polit Online recently published a story 
claiming that the United Nations (responding to a request by former 
Ukrainian President Viktor Yanukovych from 2014 calling for Russian 
troops to enter Ukraine) gave Russia permission to invade Ukraine. The 
source for this story is a Facebook post by Ukraine's Attorney General, 
Yuriy Lutsenko, in which he states that the UN's office in Ukraine has 
received official copies of Viktor Yanukovych's 2014 letter asking for 
Russian troops to enter Ukraine and related official documents from the 
Russian Federation presented to the UN in support of Yanukovych's 
request. Lutsenko's post includes copies of the documents in question. 
According to UN protocol, each UN member has the right to distribute 
documents to the General Assembly and the UN Security Council. The UN 
Secretariat distributes such documents after they've been assigned 
registration numbers for archiving and records. The dissemination of 
such documents is the normal order of business within the UN, in no way 
is it a United Nations stamp of approval or permission for one country 
to seize or capture another, as Polit Online claims.

    Yuriy Lutsenko's post: https://www.facebook.com/photo.php?fbid=
625853430947169&set=a.139021569630360.1073741834.100005675529100&
type=3&theater.

    9. Russian state news agency TASS declared that the U.S. Secretary 
of State, Rex Tillerson, had named the terms under which Crimea would 
be recognized as part of Russia and Lenta.ru quickly followed suit 
claiming that he ``clarified'' those conditions. Both agencies ignored 
the fact that Mr. Tillerson clearly stated that Russia's annexation of 
Crimea was illegal and violated Ukraine's sovereignty. Tillerson did 
not outline any conditions for such recognition. On the contrary, he 
said that Russia had no right to take Crimea and the weak response for 
this action from the U.S. emboldened Moscow. Responding to Senator Rob 
Portman's question that United States would never recognize the 
annexation of Crimea similar to the way it had never recognized the 
Soviet occupation of the Baltic States, Mr. Tillerson responded: ``The 
only way that could ever happen is if there were some broader agreement 
that would be satisfactory to the Ukrainian people, so absent that, we 
would never recognize the annexation''. RIA Novosti, Russian Defense 
Ministry television channel Zvezda, the newspaper Vzglyad, TASS, 
Vedomosti, Lenta.ru, Interfax and many other Russian media 
organizations also disseminated this fake story.

    ``Tillerson: U.S. Will Recognize the Crimea Reunification With 
Russia if Ukraine Will Remove Its Objections'': http://tass.ru/
mezhdunarodnaya-panorama/3933750.

    ``Candidate for U.S. Secretaries of State to Specify the Conditions 
of Recognition of the Crimea Russia'': https://lenta.ru/news/2017/01/
11/tillerson--/.

    10. Director of the organization ``Fair Help'', Elizaveta Glinka, 
better known as Dr. Lisa, brought children from Donbas to Russia 
without the consent of the Ukrainian authorities. In numerous 
interviews, she has asserted that there are no Russian troops in 
Ukraine, claiming that people are dying from shelling by the Ukrainian 
army. Her work in recent years had a propagandistic purpose as she 
directly helped to give the Putin regime a ``human face'', and for that 
she was presented with an award by the Russian president.

    ``Dr. Lisa. A Cover for the Regime or an Angel, Who Served Evil'': 
http://ru.espreso.tv/article/2016/12/26/
doktor_lyza_shyrma_dlya_rezhyma_yly_
angel_kotoryy_sluzhyl_zlu.

    11. A fake video showing the Dutch flag being burned and terror 
threats made against the Netherlands was manipulatively presented as an 
official statement of the Ukrainian battalion ``Azov''. As the 
investigation of the analytical group Bellingcat shows, this video was 
initially spread and likely created by the same network of accounts and 
news sites that are operated by Russia's infamous ``St. Petersburg 
Troll Factories'' which form part of their Internet Research Agency and 
its sister organization, the Federal News Agency.

    ``Behind the Dutch Terror Threat Video: The St. Petersburg ``Troll 
Factory'' Connection'': https://www.bellingcat.com/news/uk-and-europe/
2016/04/03/azov-video/.

    Senator Graham. Mr. Surotchak.
JAN ERIK SUROTCHAK, REGIONAL DIRECTOR FOR EUROPE FROM 
            THE INTERNATIONAL REPUBLICAN INSTITUTE
    Mr. Surotchak. Chairman Graham, Ranking Member Leahy, 
subcommittee Members, thank you for holding this timely and 
important series of hearings.
    Following such a brave and committed patriot as Vladimir 
Kara-Murza on this panel, I am not sure what I could add that 
compares to what he has given and done. Vladimir, I remember 
very clearly the evening in September of 2015 when Senator 
McCain presented you with IRI's Freedom Award on behalf of the 
great Boris Nemtsov and thinking at the time how fortunate the 
Russian people are to have you playing an important and 
courageous--the important and courageous role you do in 
promoting democracy and human rights in Russia.
    Still, with all humility, I will try to offer some insights 
into what we see as the Russian Federation's systematic 
campaign to undermine democratic institutions across Europe, 
both Central and Western.
    It seems to me it is always good to start with a clear 
strategic goal. And in Europe, the goal of the United States 
was crystallized by George H.W. Bush in May of 1989 to build 
and maintain a ``Europe whole and free.'' At that time, the 
field for democracy advocates, both European and American, was 
wide open. The people of the newly freed former Warsaw Pact 
countries were hungry for assistance. Those of us in the field 
at the time felt the full support of the United States 
Government, and Russian interference was declining dramatically 
following the collapse of the Soviet Union.
    Two decades later, the strategic situation has changed 
radically. Today it is Moscow's goal that is quite clear, to 
destroy the institutions of democracy and security that the 
United States and Europe constructed together after the Second 
World War. Most importantly, the European Union and NATO. This 
does not just affect Europe. It also damages American security 
and prosperity by undermining our largest trading partner and 
our most important international alliance.
    Let me be perfectly clear. Vladimir Putin's Russia has made 
this a zero-sum game. Where democracies prosper in its 
neighborhood, it loses.
    As an organization that works with political parties around 
the globe, including in Europe and Eurasia, IRI has seen 
firsthand the destructive influence of this campaign to weaken 
democratic institutions. With support from the National 
Endowment for Democracy, we are now working to counter Russian 
meddling in European affairs by strengthening transatlantic 
alliances to counter Russian disinformation and interference. 
This program, called the Beacon Project, because it is designed 
to shine a light on Russian meddling, has identified five 
pillars of engagement by the Kremlin to achieve its strategic 
goals.
    Mr. Chairman, I will briefly touch on each of these and go 
into more depth on a couple.
    The first of these five pillars is direct financial or 
political support of parties that take the Russian Federation 
position in the national and/or European Union level debate. 
The most extensively documented example of this practice, of 
course, is the combined 11 million euros that has been funneled 
to Marine Le Pen's Fronte Nationale in France, but there are 
many more examples.
    In Germany, the increasingly deep ties between the right 
wing anti-establishment Alternative fur Deutschland and Putin's 
United Russia party have raised red flags--yes, pun fully 
intended. With the AfD youth organization last year agreeing to 
a formal partnership with the youth wing of United Russia. In 
December of 2016, the Freedom Party of Austria also announced a 
5-year plan agreement with Putin's party.
    In Hungary, the extreme right wing Jobbik party is under 
investigation for allegedly receiving funds from the Russian 
Government. Jobbik's lavish campaign spending in 2009, 2010, 
and 2014 prompted suspicions, as have the activities of Members 
of the European Parliament Bela Kovacs, widely known as KG 
Bela, who has long been a person of interest to Hungarian 
intelligence. In 2014, the Hungarian Government asked the 
European Parliament to strip Bela of his parliamentary immunity 
in order to continue its investigation.
    And this is not only a problem of the far right. Italy's 
regionalist Northern League and the far-right New Force and 
Greece's left-wing Syriza and right-win Golden Dawn have also 
come under scrutiny as a result of their support for Moscow.
    The second pillar of Moscow's effort to undermine Europe is 
in its execution of sophisticated disinformation campaigns 
against governments, parties, and individuals who do not tow 
the Kremlin's line. And here I would like to spend just a bit 
more time.
    As you know, there are three major elections in Europe this 
year: in the Netherlands, earlier this month; in France, later 
this spring; and most importantly, in Germany in September. 
Knowing that pretty much any other possible coalition that 
might succeed her will not maintain the European consensus on 
the sanctions regime imposed on Moscow for its aggression in 
the Ukraine, we see Moscow directing the full force of its 
disinformation fury on Chancellor Merkel and her Christian 
Democratic Union.
    Taking the long view, this is nothing new. After the 
Russian Revolution, Adolph Joffe, the first Bolshevik 
ambassador to Germany, was caught carrying anti-German 
propaganda in his diplomatic bags. But, of course, today the 
viral nature of the Internet has made the transmission of 
propaganda far more immediate and far more dangerous.
    Evidence collected by IRI's Beacon Project suggests that 
the campaign against the Merkel government rests on three core 
narratives, some of which have also been adapted in other 
European countries. First, that Merkel's immigration and 
refugee policies have left the country at the mercy of Muslim 
criminals. The infamous ``Lisa Case'' of early 2016 and the 
recent follow up ``Lisa 2.0 Case,'' in which migrants were 
falsely accused of raping a young ethnically Russian girl in 
Germany, are the clearest example of this narrative.
    Second, that Merkel's Germany alternatively is the source 
of violence. This was the main thread in last month's fake news 
regarding an alleged rape by German soldiers deployed by NATO 
in Lithuania. And, third, that Merkel's policies risk weakening 
the economy by driving hardworking Germans out of the country.
    These narratives illustrate the way in which the Kremlin 
exploits legitimate policy debates surrounding German's open 
door migrant policy and exacerbates tension through fake news. 
With the German Bundestag already having been hacked, the 
country's leaders are very aware of the threat posed to their 
democratic process. We can surely expect much more Russian 
engagement in that country in the run-up to the elections on 
September 24.
    The third pillar of Russia's effort is to seize upon areas 
of domestic tension, to sow divisions that play to its 
advantage. Perhaps the clearest example of this tactic could be 
seen in the campaign leading up to the April 6, 2016 referendum 
in The Netherlands organized by an anti-EU NGO, asking whether 
or not the public would support the Association Agreement 
between the EU and Ukraine.
    Here, anti-Ukrainian Russian narratives were picked up 
almost verbatim by the far-right and the far-left in their 
respective ``No'' campaigns. Flyers contending that Ukraine 
suffers from armed fascist militias roaming the streets were 
taken directly from Russian propaganda outlets. On the left, 
the Socialist Party made the Association Agreement responsible 
for Russian led violence in the Ukraine. As such, Dutch voters 
were asked to believe that having Ukraine in the EU would 
antagonize Russia and risk war on Europe's doorstep. Faced with 
this sophisticated campaign of scaremongering, 61 percent of 
the Dutch electorate voted ``No.'' The only real winner that 
day, of course, was Moscow.
    The fourth pillar of the Russian effort is the use of fake 
democracy support organizations. Just as Russia has become one 
of the world's leading sources of fake news, the Russian 
Federation has established so-called democracy support 
organizations that actually exist to discredit elections that 
do not deliver Moscow friendly governments and legitimize 
elections that do deliver the desired results.
    As recently as last month, the contested Nagorno-Karabakh 
region held a so-called constitutional referendum that was 
observed by fake election monitors from far-right parties 
allied with Putin's United Russia party, including 
representatives of the German AfD and the Austrian FPO.
    The fifth pillar of the Russian effort is funding for think 
tanks and other NGOs inside the European Union. A number of 
large, Russian Government organized non-governmental 
organizations, or GONGOs, support think tanks across Europe in 
an effort to influence foreign policy and break the sanctions 
regime imposed on Moscow by the EU.
    Mr. Chairman, IRI's Beacon Project collects and analyzes 
data that enable us to understand the campaign I just outlined 
for you and your fellow subcommittee members. We do this for 
one purpose: to share with policymakers in Europe at the 
national and EU level, and help develop a stronger 
transatlantic response to Russian influence. In Europe, this 
means working with parties and NGOs to restrict foreign funding 
for political parties. It also means working closely with 
members of the European Parliament to press for full funding of 
the European External Action Service's StratCom East counter-
disinformation effort.
    Mr. Chairman, the United States is uniquely positioned to 
take the lead on what may be one of the defining geopolitical 
challenges of our time. It is in our national security and 
economic interest to do so. Twenty-eight years after George 
H.W. Bush's speech in Mainz in 1989, we are undoubtedly further 
along in building a Europe whole and free and at peace. But 
threats we thought that had been vanquished have returned in 
full force and partnership with our European allies is as 
important as ever. We at IRI look forward to continuing this 
important work and I thank you for the opportunity to share our 
perspective with you today.
    [The statement follows:]
                Prepared Statement of Jan Erik Surotchak
    Chairman Graham, Ranking Member Leahy, subcommittee members, thank 
you for holding this timely and important series of hearings. As you 
may know, the International Republican Institute (IRI) is a nonprofit, 
nonpartisan organization dedicated to advancing representative 
government and democratic values around the world. We trace our roots 
back to President Reagan's unshakeable belief that, ``Freedom is not 
the sole prerogative of a lucky few, but the inalienable and universal 
right of all human beings.'' As such, we are deeply concerned about the 
systematic campaign by the Russian Federation to undermine democratic 
institutions across Europe.
   moscow's strategic interest in undermining democratic institutions
    Mr. Chairman, IRI has been working to support the full 
implementation of President George H.W. Bush's vision of a ``Europe 
whole and free'' since the early 1990s. At the time, the field for 
democracy advocates--both European and American--was wide open. The 
people of the former Eastern bloc were hungry for assistance, we had 
the full support of the United States Government, and Russian 
interference declined dramatically following the collapse of the Soviet 
Union.
    Two decades later, the strategic situation has changed radically, 
and in some ways has reversed. As the United States has scaled back its 
global engagement, Vladimir Putin has been emboldened, cracking down on 
dissent at home and pursuing policies of aggression and provocation 
abroad. One of the central pillars of Putin's approach to foreign 
policy has been to destroy the post-Cold-War transatlantic consensus, 
and the inroads he has made are deeply disturbing.
    The Kremlin has deployed a multi-faceted campaign to achieve its 
objectives. Moscow effectively uses its control of energy supplies to 
effectively blackmail its neighbors; regularly practices military 
gamesmanship in areas such as the Baltic Sea; and has been the power 
behind covert operations to bring down democratic governments, which we 
most recently saw in Montenegro. Russian support for divisive parties 
and political movements in Europe has been increasing for at least the 
last decade, and now poses a major challenge to the political well-
being of the Continent.
    As an organization that works with political parties around the 
globe--including Europe and Eurasia, IRI has seen firsthand the 
destructive influence of this campaign to weaken democratic 
institutions. As a result, with support from the National Endowment for 
Democracy, we are now working to countering Russian meddling in 
European affairs by strengthening transatlantic alliances and 
identifying sources of Russian disinformation and interference. This 
program, called the Beacon Project, has identified five general 
categories of engagement employed by the Kremlin to achieve its 
strategic goals.
       direct financial or political support for selected parties
    The first of these five areas is direct financial and/or political 
support of political parties that support Russian Federation positions 
on the national and/or at the European Union level. The most 
extensively-documented example of this practice is the 9 million Euros 
given to Marine Le Pen's Fronte Nationale in France in 2014--the 
largest documentable Russian financial investment in a foreign far-
right party to date. In the same year, party founder Jean-Marie Le 
Pen's political fund Cotelec received another 2 million Euro loan from 
a Russian-backed fund based in Cyprus. There are also increasing 
concerns that Russia has made at least indirect inroads with mainstream 
French parties including the center-right Les Republicains, as recent 
revelations about their presidential candidate's private business 
activities suggest close personal business links between the candidate 
and Russian officials.
    In Germany, while there has been no financial trail, the 
increasingly deep ties between the right-wing, anti-establishment 
Alternative fur Deutschland (AfD) party and Putin's United Russia party 
in Moscow have raised red flags. In 2016, the AfD youth organization 
(Junge Alternative or JA) entered into a formal relationship with the 
youth wing of United Russia. These relationships give the AfD 
international credibility and connected it with valuable international 
campaign and organizational expertise. Similarly, in December 2016 the 
Freedom Party of Austria (FPO) announced a ``Five Year Plan'' agreement 
with Putin's United Russia Party.
    In Hungary, the extreme right-wing Jobbik party is reportedly under 
investigation for allegedly receiving funding from the Russian 
Government. Jobbik's lavish campaign spending in 2009, 2010 and 2014 
prompted suspicions, as did the activities of MEP Bela Kovacs, widely 
known as KGBela, who has a long record of close ties to Moscow. The 
Hungarian government has asked the European Parliament to strip Bela of 
parliamentary immunity in order to continue its investigation.
    This is not merely a problem with the far-right. Italy's 
regionalist Northern League and the far-right New Force from Italy and 
Greece's left-wing Syriza and right-wing Golden Dawn have also come 
under scrutiny as a result of their support for Moscow. And while 
evidence of an actual transfer of funds has not yet emerged, leaders of 
all three parties regularly participate in conferences, seminars and 
other events organized by Russian Government-backed think-tanks in 
Moscow.
                   organized disinformation campaigns
    The second pillar of Moscow's effort to undermine Europe is its 
execution of sophisticated disinformation campaigns against 
governments, parties and individuals who do not toe the Kremlin's line. 
In some countries, the objective is to simply muddy the public debate, 
but in other countries, Russian reach higher. The launch of a French 
language version of its Russia Today in advance of the French elections 
is no coincidence, as Russian-funded outlets have coalesced around pro-
Moscow candidates and have vilified pro-transatlantic candidate 
Emmanuel Macron.
    In Germany, the ultimate goal is to remove Angela Merkel's 
Christian Democratic Union party from power in this year's elections. 
In addition to the many examples of disinformation narratives designed 
to undermine Merkel's government, Germany's leading intelligence 
officials have warned that the country will almost certainly face 
cyberattacks and other attempts at election meddling.
    Taking the long view, this is nothing new. After the Russian 
Revolution, the first Bolshevik ambassador to Germany was caught 
carrying anti-German propaganda. Of course today, the Internet has made 
the transmission of propaganda far more sophisticated and dangerous.
    Evidence collected by the Beacon Project suggests that the campaign 
against the Merkel government has rested on three core narratives, some 
of which have also been adapted to other European countries.

  --First, that Merkel's immigration and refugee policies have left the 
        country at the mercy of Muslim criminals. The infamous ``Lisa 
        Case'' of early 2016 and the ``Lisa 2.0 Case,'' in which 
        migrants were falsely accused of raping women in Germany, are 
        the clearest examples of this narrative.
  --Second, that Merkel's government is incapable of protecting women 
        and children from violence, or alternatively that Germany is 
        the source of violence. This was the main thread in last 
        month's fake news regarding an alleged rape by German soldiers 
        deployed by NATO in Lithuania.
  --And third, that Merkel's policies have weakened the economy by 
        driving ethnic Germans out of the country.

    These narratives illustrate the way in which the Kremlin exploits 
legitimate policy debates surrounding Germany's open-door migrant 
policy and exacerbates tensions through fake news. With the German 
Bundestag already having been hacked, the country's leaders are very 
aware of the threat posed to their democratic process. We can surely 
expect much more Russian engagement in that country in the run-up to 
elections on September 24.
            taking advantage of unforeseen domestic debates
    It has often been said that all politics is local. Moscow has 
clearly absorbed this lesson, as they've seized upon areas of domestic 
tension to sow divisions that play to their advantage. The tactics 
deployed in Germany referenced above are just one of many examples. But 
perhaps the clearest example of this tactic could be seen in the 
campaign leading up to the April 6, 2016, referendum in The Netherlands 
organized by an anti-EU NGO, asking whether or not the public would 
support the Association Agreement between the EU and Ukraine.
    After Russian puppet Viktor Yanukovych was ousted in the Maidan 
Revolution of 2014 and Russia responded by annexing Crimea and invading 
Donetsk and Luhansk, Moscow justified its illegal actions by arguing 
that Ukraine had been taken over by fascist bandits. This same 
narrative found its way into the syllabus of the ``No'' campaign in the 
Dutch referendum in the form of flyers contending that Ukraine suffers, 
among other things, from ``armed fascist militias'' roaming the 
streets. This material was taken directly from Russian propaganda 
outlets.
    Again, this wasn't just a right-wing problem. The Socialist Party, 
as part of its ``3 X No'' campaign against the referendum, condemned 
the Association Agreement as ``partially responsible'' for ``a bloody 
civil war with nearly 10,000 deaths and more than a million people in 
flight'' from or within Ukraine. Of course, this ignores the fact that 
it was Yanukovych's refusal to sign the Agreement that brought about 
his downfall and that Russia invaded with the aim of undermining the 
legitimate Ukrainian Government. Dutch voters were asked to believe 
that voting to remain in the EU would antagonize Russia and risk war on 
Europe's doorstep. Faced with this sophisticated campaign of 
scaremongering, 61 percent of the Dutch electorate voted ``No.''
       use of fake ``democracy support'' organizations in europe
    Just as Russia has become one of the world's leading sources of 
``fake news,'' the Russian Federation has established so-called 
``democracy support'' organizations that actually exist to discredit 
elections that do not deliver Moscow-friendly governments, and 
legitimize elections that deliver the desired results.
    As recently as last month, the contested Nagorno-Karabakh region 
held a so-called ``constitutional referendum'' that was ``observed'' by 
fake election monitors from far-right parties allied with Putin's 
United Russia party, including representatives of the German AfD and 
Austrian FPO. For the Russian Federation, the goal is to maintain 
conflict in the region between Armenia and Azerbaijan and angle to 
support both in order to enhance their regional leverage. Russia has 
played a similar game in Georgia, Ukraine, Moldova and the Baltic 
States--not mention countries outside of Europe where they are seeking 
to increase their influence.
    A few of the fake ``democracy support'' organizations worth noting 
include the Eurasian Observatory for Democracy and Elections (EODE), 
which claims to have a presence in Moscow, Paris, Brussels, Sochi, and 
Chisinau. The EODE notoriously fielded observation missions for the 
March 2014 Crimean Referendum and the November 2014 ``parliamentary 
elections'' in Donetsk and Luhansk. The organization describes itself 
as ``committed to a multipolar world'' and to ``the unity of Eurasia, 
designed as geopolitical entity,'' a vision it says say is ``shared by 
many governmental and political spheres, including the current Russian 
leadership and V.V. Putin.''
    The European Centre for Geopolitical Analysis (ECGA) is a Kremlin 
surrogate based in Poland, run by Polish far-right political figure 
Mateusz Piskorski. In May 2016, Piskorski was detained by Polish 
authorities on suspicion of espionage for Russia and possibly China. 
The ECGA's promotional materials boast that ``Our monitoring services 
have been already twice highly estimated by the Central Electoral 
Commission of Russian Federation which granted us, as the only NGO, 
exclusive access and accreditation to observe parliamentary and 
presidential elections.''
    One of the most frequent participants in EODE and ECGA missions is 
a former Austrian MP and MEP Ewald Stadler. Stadler has proposed the 
creation of an Agency for Security and Cooperation in Europe (ASCE), in 
a clear attempt to undermine the Organization for Security and 
Cooperation in Europe or OSCE.
                    support for european think tanks
    Russian funding for think tanks and other NGOs inside the European 
Union is another component of the Kremlin's soft-power strategy. A 
number of large, Russian ``government-organized non-governmental 
organizations'' or GONGOs support think tanks across Europe in an 
attempt to influence foreign policy. This effort is most clearly 
motivated by a desire to break the sanctions regime imposed by the EU 
as a result of its illegal annexation of Crimea and the invasion of 
Eastern Ukraine.
                               conclusion
    Mr. Chairman, IRI's Beacon Project collects and analyzes the data 
that enables us to understand the campaign I just outlined for you and 
your fellow subcommittee members. We do this for one purpose: to share 
with policy makers in Europe at the national and European Union level, 
and help develop a stronger transatlantic response to Russian 
influence. In Europe, this means working with parties and NGOs to 
restrict foreign funding for political parties. It also means working 
closely with members of the European Parliament to press for full 
funding of the European External Action Service's East StratCom 
counter-disinformation effort. The Beacon Project is in the process of 
fielding a multinational poll that will provide valuable public opinion 
research to aid these efforts.
    Although the picture I've painted is worrying, there are 
encouraging signs on a number of fronts. Last month, the United Kingdom 
announced a 700 million pound ``Empowerment Fund'' to support allied 
governments in their battle against Russian soft-power aggression. In 
January, the Czech government launched the Center Against Terrorism and 
Hybrid Threats to manage their push-back against Russian 
disinformation. And governments across Europe are scrambling to fortify 
the Russian intelligence capacities that had withered in the wake of 
the Cold War. These initiatives make an important contribution to our 
common transatlantic effort to shore up democratic institutions and 
undercut Russian interference and should continue to be supported.
    The United States is uniquely positioned to take the lead on what 
may be one of the defining geopolitical challenges of our time. It is 
in our national security and economic interest. Twenty-eight years 
after George H.W. Bush's speech in Mainz in 1989, we are undoubtedly 
further along in building a Europe whole and free and at peace. But 
threats we thought had been vanquished have return in full force, and 
partnership with our European allies is as important as ever. We at IRI 
look forward to continuing this important work and thank you for the 
opportunity to share our perspective with you.

    Senator Graham. Thank you all very much.

                            U.S. ASSISTANCE

    Mr. Surotchak, what signal would it be sending if the 
United States decided to cut the money we have available to 
combat Russia's influence or to cut funding in terms of 
democracy development? How do you see that playing out for the 
United States?
    Mr. Surotchak. It would be precisely the wrong signal. In 
many conversations with our political friends and allies across 
the region, whether in Central Europe in the former Communist 
states or in Western Europe in the older democracies, there is, 
as you know, great fear of continued American retrenchment. 
Such a step would simply be seen as a further step down that 
road.
    We need at this time more than ever to provide signals of 
support for our friends and allies and commitment that the 
United States remains engaged in the region. Only the United 
States can offer the balance that the countries that we are 
talking about here today need.
    Senator Graham. Who would be the biggest winner of such a 
retreat?
    Mr. Surotchak. The Russian Federation and extremist 
political parties in the countries we are talking about.
    Senator Graham. Dr. Jewett, from your point of view, does 
the money that we are spending make a difference and why is it 
a good investment for the American taxpayer to continue this 
funding?
    Laura Jewett. It does make a difference. It is essential 
for the United States to be engaged in this region because the 
United States has played a leadership role and that role is 
needed. If the United States were to back away from that role, 
then this hybrid warfare would go unanswered and the 
vulnerabilities to the United States and Europe would be that 
much greater. The whole point of hybrid warfare is that the 
intention is to influence political outcomes in another 
country, but in a way that does not rise to the level of 
precipitating a military response. So to----
    Senator Graham. So is it fair to say that a budget cut in 
terms of prodemocracy funding would basically be withdrawing 
from the hybrid battlefield?
    Laura Jewett. That is fair to say, yes.

                U.S. RESPONSE TO RUSSIAN HYBRID WARFARE

    Senator Graham. Mr. Kara-Murza, what signal would it send, 
in your view, if America decided to forgive and forget what 
Russia and the Putin regime tried to do in our election, if we 
just moved on and did nothing, if we all believe, as I do, that 
Russia tried to interfere in our election, that they hacked in 
to the Democratic National Committee. John Podesta's emails 
were hacked by Russia and WikiLeaks was supplied information by 
Russia. While I do not think it changed the outcome, I think 
they certainly tried to interfere in our election.
    If we just ignore this and move on, what kind of signal are 
we sending and how do you think that would play out?
    Mr. Kara-Murza. Thank you for the question, Mr. Chairman. 
Well, I think for too many years, for too long, the leaders of 
Western democracies have been just ignoring and moving on from 
what Mr. Putin has been doing, certainly in the very early 
years of Mr. Putin's rule. He has been careful when he began to 
dismantle, for example, democratic institutions in Russia or 
interfering in Russian elections, which of course they had been 
doing a long time before they started interfering in foreign 
ones.
    And he was careful. He was watching for the reaction and 
there was none. And as you well know, U.S. administrations of 
different parties have tried a friendly approach with Mr. 
Putin. President Bush was looking into his eyes and getting a 
sense of his soul. President Obama was engaging in a reset of 
relations with the Putin regime. And so I think the message 
they got was it is basically okay to carry on.
    And we have been saying for years that it is only a 
question of time before this domestic repression will turn into 
external aggression and external interference because why 
should a government that disrespects and violates the rights of 
its own people and its own laws then suddenly start respecting 
international norms or the interests of other countries? There 
is no reason. And, of course, with time they began also doing 
things abroad, interfering in elections included. For example, 
in Ukraine in 2004, as everybody well knows. And, you know, why 
not go for the gold and why not try to interfere in the U.S. 
elections?
    So I think for too many years Western democracies have been 
ignoring and have not taken, in my personal view, a stand that 
was not principled and not firm enough. And for Mr. Putin, you 
know his background. He is from the KGB. And for those people, 
accommodation and compromise is not an invitation to 
reciprocate, but it is a sign of weakness and it is a sign to 
be more aggressive. And that is what he has been----
    Senator Graham. Is it fair to say to forgive and forget 
would scream weakness to Putin?
    Mr. Kara-Murza. I'm sorry.
    Senator Graham. If we tried to--if we decided to forgive 
and forget, that would be screaming weakness to Putin?
    Mr. Kara-Murza. Weakness, lack of any kind of will, I would 
think, and an invitation to carry on.
    Senator Graham. Would it invite further aggression?
    Mr. Kara-Murza. It certainly has done in the past. If you 
look at the track record of the last 17 years, everything he 
has done when his regime has not met principled reaction from 
Russian society and also from the international community. And 
again, I want to stress this. When Vladimir Putin and Sergei 
Lavrov say do not interfere in our internal affairs, they are--
you know, how can I say this most diplomatically? They are 
misspeaking because we are both members of the OSCE, both 
Russia and the United States. And the documents of the OSCE, 
the founding documents, clearly state, including the document 
passed, of all places, in Moscow in 1991. It is actually called 
the OSCE Moscow document. It is the one I quoted from in my 
opening statement. The question of human rights and political 
freedoms are not internal affairs.
    Senator Graham. Well, well said. So, is it fair to say on a 
positive note that based on what you see with young people in 
Russia it is just a matter of time before the Putin regime 
succumbs to its own excesses inside of Russia?
    Mr. Kara-Murza. I think there is no question about this. 
And frankly, I was--the day after these protests happened, I 
was asked by a journalist whether I was surprised by these 
protests. And I have to admit I was surprised by the scale--82 
cities across the whole of the country. I think this is the 
biggest scale protest we have seen since the early 1990s. Even 
the big winter of protests 5 years ago after the rigged 
parliamentary elections.
    Senator Graham. Are people looking to us for support?
    Mr. Kara-Murza. I think people are not necessarily looking 
for support, but they are definitely looking for honesty and 
they are looking for Western democracies to abide by the 
principles that you preach, that you declare. For example, by 
not creating impunity for crooks and for human rights abusers, 
by not serving, you know, by not turning Western countries and 
Western financial systems into havens for those Kremlin 
officials who abuse the rights of the Russia people and who 
plunder their resources.
    Senator Graham. Thank you very much.
    Senator Leahy.

                        SANCTIONS AGAINST RUSSIA

    Senator Leahy. Thank you, Mr. Chairman. And I want to 
follow up on what you just said. You mentioned earlier in your 
testimony the Magnitsky Act, the Rule of Law Accountability 
Act. Tell me a little bit more. How is that seen in Russia? 
What is the effect of it? Is it seen as effective or not 
effective?
    Mr. Kara-Murza. All right. Thank you for the question. It 
is a very important one. And when the Magnitsky Law was being 
debated and discussed in this Congress, and by the way, the 
first--one of the first decrees that Mr. Putin signed on his 
inauguration day, on May 7, 2012, was the request of the 
Foreign Ministry to stop the Magnitsky Act. That is how high on 
the priority list it is for the Kremlin.
    And they have tried very hard to present the Magnitsky Act 
as sanctions in Russia, as sanctions on the Russian people, and 
they failed. And there was actually an opinion poll taken by 
the Levada Center at the end of 2012 soon after President Obama 
signed the Magnitsky Act into law which showed a strong 
plurality of Russians agreeing with the principles that those 
human rights abusers and those corrupt officials should not be 
able to travel to Western countries and keep their money there.
    I mean, frankly it is very plain and a very simple 
principle, that those people who violate the most basic norms 
of the free world should not enjoy the privileges that the free 
world has to offer because that is a big difference between 
what we have now and what we had in the Soviet times.
    There are many similarities that we discussed some of them 
earlier today: the political prisoners; the media censorship; 
the lack of free and fair elections. But there's one big 
difference, and that difference is that Soviet Politburo 
members did not send their kids to study in British schools. 
They did not buy real estates and yachts and properties in 
North America and Western Europe.
    They did not keep their money in Western banks. People who 
are in charge of the Russian regime today do that and this 
hypocrisy and double standards has to stop. And the Magnitsky 
Act was a milestone towards stopping it. And this is why Boris 
Nemtsov, the late leader of the Russian opposition, called it 
the most pro-Russian law ever passed by any foreign parliament. 
And as that poll showed at the end of 2012, the strong 
plurality of the Russian people agree with him.
    The Magnitsky law is not seen as sanctions against Russia. 
They are seen as individual sanctions on those people who abuse 
the rights of Russian citizens. It was very heartening earlier 
this year to see General Bastrykin added to the Magnitsky list 
here in the United States.

                          CORRUPTION IN RUSSIA

    Senator Leahy. What about your judicial system? For 
example, do prosecutors ever bring charges of corruption 
against senior officials? And if they do, do the courts ever 
convict them?
    Mr. Kara-Murza. There are some showcases that are done to 
imitate the fight against corruption. Some of the cases there, 
of course, widely publicized in the state media. They are so 
small and they are so rare that we cannot speak of any kind of 
genuine fight against corruption and frankly, it is ridiculous 
to talk about fight against corruption within the present 
regime.
    We have had corruption in Russia probably throughout our 
modern history. That is not--I am not saying any secrets here, 
but it has never been of the scale, magnitude, and of the level 
it has reached under Vladimir Putin. And, in fact, we have 
talked a lot today about these protests that took place over 
the weekend in Russia.
    And, of course, as you know the reason, the immediate 
trigger for those protests was an independent investigation 
done by Alexei Navalny's Anti-Corruption Foundation that showed 
that the current Prime Minister, Dmitry Medvedev, possesses 
luxury palaces, estates, vineyards, yachts, all of this worth 
more than a billion U.S. dollars. This is just only the stuff 
that was in the open. And there was no reaction and no response 
from this. Forget the courts and prosecutors. They did not even 
comment on it. And this is why the people came out in the 
streets because there is no other way to get their attention.
    Senator Leahy. It is interesting because I saw the pictures 
that they posted on social media and Russia just going click, 
click, click, showing all the properties he has.
    But have they done anything similar to show some of the 
holdings that Mr. Putin has? Because he is a multibillionaire.
    Mr. Kara-Murza. Well, actually 5 years ago, a little more 
now, just before the last big wave of protests in 2011, one of 
the people who was formerly associated actually with the Putin 
circle, his name was Sergey Kalashnikov. He is now living in 
exile. He published information about a billion U.S. dollar 
palace that was being built for Vladimir Putin on the shores of 
the Black Sea near a little town called Praskoveevka in the 
Krasnodar region of Russia.
    He had Italian architects working for it, you know, lavish 
palace, lavish furniture, and he had photos of it, pictures. It 
certainly also was very impressive, Senator Leahy, if I could 
borrow your word.
    This is just the tip of the iceberg and there have been 
suggestions, many suggestions, that Mr. Putin is in fact a 
multibillionaire, that he is probably the richest man in the 
world, and all these people that are officially on the Forbes 
list, you know, they are nothing compared to him. And one of 
the reports that Boris Nemtsov published was actually to do 
with Putin's wealth and the luxuries that accompany his life.
    And this is also a direct result of the nature of the 
regime that we have in our country, a regime that does not 
depend on free elections, so he does not depend on the people. 
It has no checks and balances, no democratic institutions, no 
accountability, and it has proceeded with total impunity, 
including with regard to corruption, for almost two decades 
now. And this is why the people are getting fed up and this is 
why the young generation is getting fed up.

                        CIVIL SOCIETY IN RUSSIA

    Senator Leahy. Dr. Jewett and Mr. Surotchak, the Russian 
Parliament passed a law requiring civil society organizations 
to register as foreign agents, and it authorized the Justice 
Ministry to register them as foreign agents even without their 
consent. Aside from the concerns that might cause your 
organizations, how do the Russian people feel about it? Do they 
think you should be silenced that way?
    Laura Jewett. I cannot speak to polling data on this issue, 
but I would say that the impact of this Foreign Agents Law that 
you are discussing, the impact that it has is to isolate 
Russians from the international community. Under the 
International Convention on Civil and Political Rights, all of 
us have a right to freedom of expression and freedom of 
assembly, including sharing information across borders. 
Russians share that right. They should be able to interact as 
they wish with representatives of the international community.
    The Foreign Agents Law says that if you receive funding 
from an American organization you are a foreign agent, which 
equates to being a foreign spy. And it makes it very, very 
difficult for non-governmental organizations in Russia to do 
their work and to have contact with the international 
community.
    Senator Leahy. Do you feel the same way, sir?
    Senator Graham. Okay. Thanks.
    Senator Rubio. Thank you. Thank all three of you for being 
here, but in particular, Mr. Kara-Murza, thank you for coming. 
And, you know, we in American politics, oftentimes I will hear 
a quote about something so politically courageous, somebody 
took a politically courageous vote on this or that or the 
other. In America, the worst things that happens to you if you 
do something that does not work out well, you lose an election, 
you get a bad editorial, you lose your position because you 
lose an election and you get to go work at a network as a paid 
analyst. That is the worst thing that happens to people here. 
In your case and in the case of many like you that are standing 
up to that reality in Russia, people die.
    We had reports this week of an attorney, obviously very 
involved in human rights causes who, according to some Russian 
authorities fell, but according to most people who know about 
it, was pushed. Multiple stories and is, I believe, in very 
critical condition. And obviously it seems like every week now 
somebody related to Russia, sometimes diplomats and sometimes 
often opponents of the Putin government wind up dead, dead, not 
exiled even, dead, and oftentimes abroad. We recently saw a 
report of that in Ukraine.
    So we have seen an incredible amount of reporting about 
public polling to the extent that it is accurate within Russia. 
And it shows that Vladimir Putin enjoys 80 percent approval 
ratings. My comment on that has always been if I controlled the 
media in this country, I would have 80 percent approval ratings 
too.
    But what was interesting to me about this weekend is that 
the age and the geographic diversity of the people that took to 
the streets--a very young population, younger Russians. And it 
has been theorized that the rationale for that is that many of 
young Russians, like young Americans, do not get their news and 
information from official organisms of the government.
    And I think this is a good question for the whole panel, 
but rather are getting their news from mobile devices, online, 
and from non-traditional sources. In essence, they are not--
because they are not getting their news from the Russian 
organisms, they are getting a broader perspective of the world.
    I ask that in the context of I have always argued to my 
colleagues that one of the ways we have to understand Vladimir 
Putin's actions in the world is his domestic policies. His 
fundamental argument to the Russian people is, ``I am restoring 
Russia's greatness, but that is impossible without me. But look 
at us, we are now at the table once again on Syria, on all 
these other parts now increasingly, Libya apparently, and in 
other places.'' But that, for whatever reason, has not been 
enough for younger Russians.
    So I would love to hear from all three of you about why it 
is that this weekend's protests were so unlike some of the 
protests we have seen in the past among much younger people. We 
also saw that video of students being confronted by a school 
principal, arguing with them about not joining these protests. 
What is happening with young Russians and what can we do 
without undermining them? Because it appears that our 
engagement is often used against them. They are accused of 
being tools of a foreign agent. On the other hand, we cannot 
stand silently by and silence our voices when we see oppression 
and peoples' dignity being violated.
    So, what would you advise, and in particular, with regards 
to younger Russians who apparently at a minimum do not want to 
be isolated from the world and are certainly concerned about 
corruption, but also the fact that there is a Russian presence 
in East Ukraine and an increased presence in Syria which also 
has cost the lives of Russian servicemen.

                 STRENGTHENING CIVIL SOCIETY IN RUSSIA

    So, the question to all three of you: what can we do to 
strengthen civil society in Russia without undermining it 
through our engagement; and what is happening with younger 
Russians that explains what we saw this weekend?
    Mr. Kara-Murza. Could I begin?
    Thank you, Senator Rubio. Thank you for the question. And 
if I could on a personal note, thank you very much for your 
message that you recorded when I was in a coma. I missed it 
because I was in a coma, but when I woke up----
    Senator Rubio. Did you see it after?
    Mr. Kara-Murza. I did.
    Senator Rubio. Good.
    Mr. Kara-Murza. My wife showed it to me because I was still 
in hospital in Moscow and thank you very much. I am very 
grateful. It is very important actually to know that people 
know and pay attention, and thank you.
    Senator Rubio. Thank you.
    Mr. Kara-Murza. And your question is very, very important 
because, as I mentioned earlier, I was surprised by the scale 
of the protest and just the geography of it, but I was not 
really surprised about the demographics because over the past 3 
years since we have been--since we have relaunched Open Russia 
and we have held many, many events around the country, public 
events, discussions, debates, roundtables, film screenings, and 
such. And every time the authorities try to prevent and 
sabotage and there is a fake bomb threat and the police arrives 
and whatnot.
    But every time people still come and they still attend and 
they refuse to leave. And they are interested and they want to 
participate. And their self-awareness as citizens is stronger, 
is becoming stronger than the fear. And this is a very hopeful 
sign. And it is mostly by the young people.
    And you are right. There are all these confrontations now 
in universities and schools and teachers and principals trying 
to say, ``Why did you go out to these demonstrations? How much 
did the State Department pay you to go,'' and all this 
nonsense. And they answer back. They explain why. And it is 
very, very heartening to see and to hear that because, again, 
this is the Putin generation, in quotation marks, of course. So 
this is generation born and raised under him and he is losing 
them.
    This is the generation that trusts Twitter and YouTube much 
more than they trust Rossiya 1 or any other State controlled TV 
channels. They do not get their information, in fact, from 
Rossiya 1. They see that this regime is depriving them of the 
prospects. They see that Russia, thanks to the Putin regime, is 
becoming an international pariah and they are not happy about 
it. They want the same things as their counterparts in other 
Eastern European countries, for example.
    And Mr. Putin likes to say he made Russia great again and 
restored it to the table. I am not sure what table he is 
talking about. For instance, it was because of his actions that 
Russia was suspended from the G8. I am not sure that that is 
very good. You know, Boris Yeltsin, who was supposedly this--
this was a period of ``humiliation'' if you believe the Kremlin 
propaganda. He got us into the G8 and Putin got us suspended, 
so which one is better? And, you know, the fact that we are 
becoming a pariah for the whole world, I think that goes 
directly against Russian national interests.
    And as to your question of what can the world do, first of 
all, to pay attention and not to fall for Mr. Putin's line that 
Russia is only about him and about his regime and that there is 
nothing else. And this goes both for the positives and the 
negatives.
    So, in terms of positives, to maintain lines of 
communications with other voices inside Russian society. Russia 
is so much bigger and so much more diverse than the Putin 
regime. And I would be very interested, for instance, to see if 
the upcoming visit by the new Secretary of State will include 
meetings with, for instance, civil society representatives 
alongside meetings with Kremlin officials.
    But also, and I think this is the most important thing, 
practice the principles that you preach. And this is why the 
Magnitsky law is so important, because for years many Russians, 
including those who oppose the Putin regime, have seen the West 
pay lip service, Western leaders pay lip service to human 
rights and other such issues, but happily welcome, for 
instance, the corrupt money the Putin honor guards were hiding 
in Britain and the United States and other countries. And 
thankfully, this process is being reversed now with the 
Magnitsky law and with other similar measures. It is very 
important to continue this.
    And the most important thing is just to stay faithful to 
the values and to the principles on which your systems are 
based. I think that is the most fundamental thing.
    Laura Jewett. Of course I agree with everything Vladimir 
said. I would just add that I think people have a visceral 
reaction to corruption. It gets at two things. It gets at 
issues of dignity and it gets at the pocketbook. And it tends 
to bring people out on the streets as this did.
    In terms of what we can do, I stand by what Vladimir said. 
I would just add that young people in Russia, in NDIs 
experience, like young people everywhere, are thirsty to learn 
and thirsty for interaction with their peers around the world. 
So anything that we can do to facilitate that, that kind of 
interaction, those kinds of exchanges is helpful.
    Mr. Surotchak. Just very briefly, Senator. I think the 
irony is we look at the question of how young people respond to 
the political debate in our part of Europe, so in the 
neighboring states. One of the most disturbing trends is that 
it is precisely among young people that radical leftist and 
radical rightist non-democratic parties are doing best. And I 
think that is a very disturbing trend that we will keep an eye 
on.
    We have just gotten some interesting polling data back in 
our Beacon Project, just for example, that suggests that 58 
percent of the population in Hungary today would prefer to 
neutrality to their commitments under NATO or some sort of 
another relationship with Russia. And those numbers are even 
higher among young people. So it is an interesting sort of 
ironic division that we see evolving in the neighboring states.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham, Ranking Member 
Leahy. I am so grateful that you have again convened an 
important hearing on this pressing issue and I am particularly 
grateful for our panel today. To Dr. Jewett, Mr. Surotchak, and 
first among our witnesses, Mr. Vladimir Kara-Murza, thank you 
for your courage and for your persistence. I thank you and your 
wife for coming forward again and again and for giving witness 
to this long pattern of violent repression of dissent in 
Russia, of the violation of basic commitments of democracy and 
law, and sadly, the practice of targeting political dissidents 
with tragic consequences.
    As you remarked, Vladimir Putin won his first presidential 
election March 26, 2000, and just this week coinciding with the 
17th anniversary of that, thousands of Russians, tens of 
thousands of Russians took to the streets, including Alexei 
Navalny, an activist who defied bans on peaceful protests. 
These were some of the fiercest anti-Kremlin and anti-
corruption protests in 5 years.
    All of us in elected leadership in the United States and in 
other Western democracies should be clear in our response in 
condemning the detention of peaceful protesters and advocating 
for the core value of free speech and insisting that the 
Russian people deserve a government free of corruption and 
accountable under the rule of law.
    In recent weeks, as others have remarked, we have seen 
Nikolai Gorokhov, the lawyer who represented Magnitsky, thrown 
from the fourth floor of his Moscow apartment. And just 
yesterday morning, two reporters for Radio Free Europe Radio 
Liberty, were beaten and robbed by masked assailants in 
Southern Russia in an incident that appears to have been 
orchestrated by local police and is a reminder that members of 
civil society and journalists face a constant pressure across 
Russia.
    Your pointed question to us was, ``Do you choose to engage 
or to turn away?'' And we have had conversations about the 
consequences of the proposed budget if it were enacted and the 
reasons why it should not be. I am grateful for a chance to 
join with Senator Rubio in a resolution naming the street in 
front of the Russian Embassy after Boris Nemtsov and I am 
particularly grateful for the strong leadership of our 
chairman, Senator Graham, in the Russian Sanctions Review Act 
and the countering Russian Hostilities Act, which are broadly 
bipartisan and deserve to be taken up and enacted.

                         RUSSIAN HYBRID WARFARE

    Let me ask the entire panel if you would just speak for a 
moment to what Putin's most effective tools are for meddling in 
the politics of the United States and other countries, and how 
can we best mitigate the impact of this Russian interference? 
How can we, to meet your question, best engage and actually 
fight back, to be more effective in partnering with the Russian 
people, in partnering with European allies, in partnering with 
a commitment by the United States to engage and push back?
    Mr. Kara-Murza. Thank you very much, Senator Coons, and I 
want to use this opportunity to thank you for cosponsoring this 
bill that would name the spot of land in front of the Russian 
Embassy here in Washington DC, Boris Nemtsov Plaza. It is very 
important for us because back home the authorities reject any 
suggestions for commemoration of his name. They rejected 
petitions and initiatives to put even a small sign or something 
like this. And, in fact, every night now, almost every night, 
the Moscow authorities and the Moscow, with the help of the 
police, remove, basically steal the flowers and the candles and 
the portraits of Boris Nemtsov that people leave at that bridge 
where he was killed 2 years ago.
    They destroy this unofficial memorial almost every night. 
Of course, the following morning there are new flowers and new 
pictures and new icons and candles. People do not forget, so 
the popular memory lives on. But for now, we have no way of 
commemorating Boris Nemtsov in our own country, so we are very 
grateful for this initiative that you cosponsored along with 
Senator Rubio and I hope this succeeds and this will happen.
    Of course, it was also the U.S. Congress that set this 
precedent with Andrei Sakharov Plaza back in the eighties. So I 
very much hope that this succeeds and we are very grateful for 
it.
    On your question, I think one of the ways, one of the most 
effective ways that the Putin regime is trying to exert its 
influence is, frankly, through the export of corruption because 
unlike in the Soviet times, again, when everything was done by 
State actors. I mean, there was nothing private in the Soviet. 
Everything was connected to the State, so in a way, it was 
easier to see it. Now it is much more difficult.
    And some of the things are not done by State actors 
directly, through affiliated entities, by supposedly ``private 
businessmen,'' but, of course, who does the Kremlin's bidding. 
And they have done this for years and years. I mean, we do have 
some cases, as Mr. Surotchak mentioned, there was this 
multimillion euro loan from Moscow connected bank to the French 
Fronte Nationale, a far-right party. But these are rarer cases 
where we actually have open evidence. In most cases, it is 
clandestine. It is hidden. It is done through supposedly 
business schemes or offshores and things like this.
    So I think the most effective way would be to put a stop to 
this export of corruption and to say that this is dirty money 
and this is money that, in fact, was plundered from Russian 
taxpayers. Because as Chairman Graham noted, Mr. Putin's 
official salary has very little relation to all this massive 
wealth. So there is little doubt that this money is not 
legitimate and I think it is important that Western countries 
and Western financial systems not serve as havens for those 
monies that are also used in many cases to exert influence 
outside.
    Senator Coons. Thank you. Doctor.
    Laura Jewett. I would add that an effective response, I 
think, needs to start with an acknowledgement from the top of 
government and down to the grass roots that there is an urgent 
national security threat that is being faced. It has to be 
publicly acknowledged. There has to be a commitment to a public 
private collaboration to addressing it and a commitment to 
straightforward communication with the public about what is 
happening so that people can defend themselves and protect 
themselves from the assault.
    We are seeing this kind of response in Estonia and 
Lithuania and Latvia. We are starting to see it in the Czech 
Republic. And I think those will be some of the most effective 
kinds of responses when there is that very public 
acknowledgement and agreement to collaborate.
    Mr. Surotchak. Thank you, Senator, for the question.
    I would agree with both what Vladimir and Laura have added, 
but I would maybe make a couple of more points. It is extremely 
important to recognize it for what it is and to call it what it 
is and to work with political parties and leaders to give them 
the skills to get in front of the news cycle, get in front of 
the fake news stories.
    The Lithuanian Government, I think very recently, in this 
story about alleged rape by German soldiers under a NATO flag 
is a great example of how government and the allies together 
can work to get ahead of a story and kill it before it becomes 
viral. Excuse me.
    I would say also providing funding to NGOs who are finding 
a way to network political leaders together and enable them to 
share their own experiences. Political party--it is remarkable 
to me in Europe today how few political party leaders have 
direct experience in understanding what the Russian Federation 
has undertaken in other countries. And if we can find a way to 
share those experiences among them that enables them to develop 
legislation to push back, for example, by limiting foreign 
funding of political party campaigns.
    And I would say also to provide assistance where we can to 
foreign governments in their efforts to stand up to 
institutions to push back against Russian interference. For 
example, in the case of the Czech Republic, what has just been 
created in the Interior Ministry there on January 1 of this 
year is an interesting model. It may not be a perfect model, 
but it is a good model that could be replicated in governments 
across the region and we should encourage that.
    Senator Coons. Well, Mr. Surotchak, Dr. Jewett, Mr. Kara-
Murza, I just want to thank all of you.
    Mr. Kara-Murza, you said in your introduction that you were 
poisoned by an undefined toxin. I appreciate your clarifying 
for us. You are defining the toxin with which Western democracy 
is currently being poisoned, which is a combination of 
corruption, of disinformation, of sustained hybrid warfare. 
Thank you for both your service and sacrifice and for helping 
make all of us stronger in the face of this toxin.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
very much for being here. I apologize for having had to miss 
some of the statements because I had other hearings going on.

                           RUSSIAN FAKE NEWS

    But I want to pick up a little bit on some of the questions 
that Senator Coons was asking because the whole fake news 
disinformation campaign is what I find the most troubling 
because it is so hard to combat and so hard to recognize. And I 
think in the United States where we have not seen this before 
in quite the same way.
    And we had former General Breedlove before the Armed 
Services Committee a couple of weeks ago. And one of the things 
he pointed out was that after the downed airliner over Ukraine, 
that Russia issued--was responsible for issuing four stories 
and two news cycles and it took the West 2 years to debunk 
those stories about who was responsible for that downed 
airliner.
    And I think we have got to get much better at that. And so 
I wonder--I do not know. I do not necessarily think this is a 
government responsibility totally, but I think the leadership 
probably needs to come from government. And so I wonder if you 
all could share with us what you see being most effective to 
respond to some of this fake news. You talked a little bit 
about that, but can you elaborate further and talk about how 
you think a response could be structured in a way that could be 
effective--whoever.
    Laura Jewett. So one of the things that we need to do is we 
need to understand exactly who is most impacted by this fake 
news. We know that it is not uniform across countries, that 
some people are more vulnerable to it than others are. So, in 
order to have a strategic and effective response, we need to 
really understand what the impact is and very little research 
has been done on that so far. There is starting to be some, but 
there needs to be more. It needs to be comparative and 
rigorous.
    And then there needs to be a whole array of responses 
designed to help protect people so ultimately the outcome will 
be that people can discern between real news and fake news and 
reject the latter.
    So civil society groups, parties, journalists, editors, 
they need information, they need tools, and they need 
strategies so that they can do civic education campaigns, 
media, literacy campaigns, so that there can be more 
investigative journalism, so that students in schools are 
taught how to discern between reliable and unreliable 
information. There need to be norms and standards for the 
integrity of online discourse. There need to be corporate 
social responsibility campaigns.
    There is a whole array of things that need to happen and 
there need to be a lot of public private collaboration in order 
for that to happen.
    Senator Shaheen. So where would you start? What is the 
number one thing you think we ought to be thinking about doing? 
I like the Counter Russia Fund is an opportunity to provide 
some resources for those kinds of efforts.
    Mr. Surotchak. Oh, thank you. Thanks, Laura.
    First of all, you know, we have made process in the fact 
that NATO is already addressing this as warfare. That is a big 
step forward. I do not think that that is necessarily 
recognized as broadly and deeply in the ministries of all of 
the NATO member countries. And we need--I think we have a role 
to play in making sure that that is understood more broadly and 
deeply and that response is made to it in the specific 
ministries.
    I talked about Lithuania and the case there. If all the new 
member states had the kind of media response operation that the 
Lithuanian Defense Ministry had in that particular case and 
then along with it, the German Defense Ministry, we would be a 
great deal more insulated from these kinds of activities. So I 
think that is one thing that has to be invested in.
    Another thing is in developing the assets in Ministries of 
Defense or Ministries of Interior around Europe, in Russian 
language skills. You know, after the Cold War, all the folks 
who used to do Sovietology went off to do other things. Those 
people are needed again and many governments, specifically the 
German Government, is going out and hiring those people again. 
That needs to be funded, supported, and encouraged.
    And I think us also, and we are trying to help in this 
process through our Beacon Project, the European External 
Action Service needs to have its East StratCom effort fully 
funded by the European Commission. And I think that would 
actually go a long way to broadening the Europe wide response.
    Senator Shaheen. Thank you.
    Mr. Kara-Murza. Senator Shaheen, if I may.
    Senator Shaheen. Yes, please.
    Mr. Kara-Murza. It is a very important one. I think the 
best way to respond to propaganda, to deceitful propaganda, is 
frankly by the truth. And, Yevgeny Kiselyov, who was the face 
of Russian television back in the nineties, he was the most 
prominent TV anchor. He is now lives and works in exile in 
Ukraine because for those Russian journalists who refused to 
become propaganda pawns, there is not much to do inside the 
country unfortunately.
    So he is in Ukraine now and he commented once recently that 
the difference between Soviet television propaganda and current 
propaganda under Putin is that the Soviet propaganda machine 
took the facts and twisted them to suit its own interests. 
Putin's propaganda just makes up the facts. They just invent 
them, like the story of the crucified child by the Ukrainian 
forces in Slovyansk. It was nothing to that. That did not 
exist, and yet, it was shown primetime on channel 1 of Russian 
television. There were many such stories.
    And I think the best way and the most effective way to 
answer that is with a counterstrategy in the media that would 
actually report about what is going on in the country, 
including the corruption, including the human rights abuses, 
including the election fraud, including just current affairs 
and news, but without the slant and without the lies and 
without the angle that the Kremlin is showing.
    And before this hearing, I just looked up at some of the 
figures, and I looked, for instance, at the fiscal year 2017 
congressional budget requests for the BBG, the Broadcasting 
Board of Governors. And if you combine their request for their 
RFE/RL Russian Service and Voice of America Russian Service--
those are the two biggest outlets in the Russian language for 
the BBG. The combined request--and I am rounding up--it is 
about $16 million for 2017. The budget for RT, or Russia Today, 
which is the Kremlin's propaganda outlet for foreign countries, 
is more than $300 million, also for the year 2017. That is a 
factor of 20.
    And I think it is important to pay attention to this 
because there are other ways of getting the information. And we 
have seen this, again, with these protests over the last 
weekend. If you watch Russian State TV, you would never hear 
Navalny's name. You, of course, would never hear about the 
corruption of the top officials. You would not hear about the 
palaces and vineyards of, be it of Medvedev or anybody else. 
But millions of people watched it on YouTube and tens of 
thousands came out across Russia to protest. So there are other 
ways.
    And I mentioned in my opening statement that our own 
project run by Open Russia, which is called Open Media, which 
is supporting the media startups that raise awareness and cover 
the topics that are ignored or lied about by state media. And I 
think it is very important to work in this direction. We will 
certainly continue to work in this direction. And I think it is 
important to our friends and partners in the international 
community to work in this direction, including primarily by 
developing sources of information, of honest, objective 
information in the Russian language, be it here in the United 
States or in the European Union.
    When the Government of Latvia held the presidency of the 
European Union a couple of years ago, it actually suggested 
creating a Europe wide television channel in the Russian 
language to counter Putin's propaganda, both for Russians 
inside and outside of Russia. Unfortunately, that never came to 
realization, but I think it is those kind of ideas that offer 
the best way forward. Counter propaganda with the truth.
    Senator Shaheen. Thank you very much.
    Senator Graham. Senator Lankford.
    Senator Lankford. Thank you, Mr. Chairman. Glad to be able 
to be here.

                   RUSSIAN INTERFERENCE IN ELECTIONS

    Thank you very much for what you are doing and how you are 
doing it. I have a million issues for you and questions, and so 
I am going to try to narrow some of these down for you. One of 
them is dealing with the money to other elections and what you 
have seen Russia do and how they funnel money, so the process 
of how they are actually getting dollars to places to try to 
influence it, whether they be journalists or whether they be 
elected officials or to be directly to campaigns. How have you 
seen and what has been their technique?
    Mr. Surotchak. Senator, thank you for the question.
    Vladimir mentioned earlier that, you know, unfortunately, 
one of the challenges we face here is that this is--that there 
are many channels and many different layers of cover that are 
applied to the various funding streams. The only one that we 
have a very good handle on is the case of the total of about 11 
million euros that has been given to the Fronte Nationale in 
France. And that, in one case, was delivered as a loan through 
the First Czech Russian Bank, which is in Prague, and second, 
through a holding company based in Cypress that is affiliated 
with Marine Le Pen Front----
    Senator Lankford. So is that just because they got sloppy 
at that time or how did we end up identifying that one or are 
we just getting at finding them?
    Mr. Surotchak. I think in that particular case the party 
and the candidate in France actually was willing to own it 
entirely because they viewed it as politically beneficial to 
them back in their own campaign in France. In the other cases, 
it is a great deal more difficult to uncover, and frankly, we 
do not have good evidence on other specific sources of funding, 
but there is lots of programming that is funded by Russian 
organizations that keeps extreme right and extreme left parties 
in Europe tied into Russian discussions and Russian processes.
    Senator Lankford. Okay. Well, one of the challenges that is 
faced for civil society groups is obviously there are multiple 
different nations that are very passionate about seeing civil 
societies. This has been an ongoing issue for the United States 
for decades, and I am glad that it is, and it needs to be 
maintained in that way. That is part of the conversation today 
is how do we continue to focus on creating civil societies 
where individuals have the opportunity to be able to choose for 
themselves the destiny of their nation rather than it being 
imposed to them by authoritarian rule.

                    COORDINATION OF DONOR ASSISTANCE

    The challenge to there though is when multiple nations all 
engage, and in our case, even multiple entities within the 
United States Government all start funding that, how do we 
fight against overlap? And in our case, as we have to look at 
in our own oversight, where multiple entities within the United 
States Government fund the same organization maybe for 
different reasons on that. How do we deconflict to be able to 
make sure that we are staying on track? As organizations, 
typically they are--I am not saying this in a negative way--
they are money hungry to say, ``We have got a mission. We want 
to accomplish it.'' We don't know where it comes from. We have 
to work on deconfliction as well.
    Laura Jewett. Thank you for the question. I would just say 
that I see this multiplicity of donor sources as an advantage 
and a strength, despite the complications that you raise for 
civil societies which have a whole array of needs, some of them 
very complicated, having a pluralism of sources of support they 
can go to is for them a huge advantage.
    And in practice, I think it is quite possible when there is 
a will for there to be communication and cooperation among all 
of these different sources.

                   RUSSIAN INTERFERENCE IN ELECTIONS

    Mr. Kara-Murza. Senator Lankford, thank you for the 
question. And it is much more complex and difficult today than 
it was in the Soviet times when, you know, you just had the 
Soviet Government, for instance financing Communist parties in 
Muslim countries or some terrorist organizations in the Middle 
East. It is much more difficult now.
    And we do have a few cases which Mr. Surotchak mentioned, 
like the case the Fronte Nationale, some others less evidence, 
but this one is the best one we have. But these are very few 
and rare and mostly it is done through nonofficial channels 
with ``private businesses'' or entities acting with 
understanding on behalf of the Kremlin, not directly connected.
    So I think as we discussed early during this hearing, it is 
very important to pay close attention generally to this dirty 
money, money connected with people involved in human rights 
abuse or involved with corruption in and around Putin's regime. 
And it is important to be careful about letting this money into 
your countries and in Western countries and Western financial 
systems.
    First of all, that is an honorable and principle thing to 
do anyway, but I think you would be also--it would be also 
effective and wise. And I would also just note that after the 
Soviet Union and the Soviet regime collapsed in 1991, in 1992 
there was a trial or a process at the Constitutional Court of 
Russia against the Communist Party. And during that process, 
many documents were declassified from the Soviet archives, 
especially the Central Committee of the Communist Party 
Archive. And many of those documents actually related to 
financing of organizations and entities in foreign countries by 
the Soviet Government.
    And, for instance, I remember there was a document shown 
that in 1989 the Soviet Government directed $1 million to the 
U.S. Communist Party. I am not sure how wise an investment that 
was in 1989, but they did it.
    So I think at some point in the future when some of the 
archives are opened relating to what is happening now under the 
Putin regime in Russia, I think we may still see a lot of 
interesting things. And I think some of it probably still is 
done in government.

                        OVERSIGHT OF U.S. FUNDS

    Senator Lankford. So history will tell. Now, let me ask an 
opposite question. Again, in our oversight role, we are very 
attentive to try to target towards entities and organizations 
that are promoting civil societies. The Russians want to create 
chaos wherever they can to be able to undermine democracy. 
There is always a concern with the number of organizations that 
are funded by the United States Government and the number of 
agencies that actually do that targeted funding, that some of 
that funding could also end up in the hands of an organization 
that is not fulfilling American's values that could be 
undermining democracy.
    Now, I am not saying they are doing the bidding of the 
Russians, but they are not helping us to be able to communicate 
that. How do we help establish metrics and good oversight to 
make sure that the funding that is targeted towards outside 
NGOs or civil society organizations is actually accomplishing 
the purposes of promoting democracy and opportunities for 
individuals to have the opportunity to be a part of their 
nation rather than undermining that freedom?
    Mr. Kara-Murza. Thank you for this question also. And I 
think, first of all, there are organizations whose reputation 
and track record have no questions at all.
    For example, the National Endowment for Democracy, which I 
already mentioned earlier in my opening statement. And I have 
to say, I mean, I am not connected to this organization in any 
way and I have never been involved with any projects with it, 
but I can tell you that it is an organization that does very 
important work, very valuable work in support of political 
rights and political freedoms in the rule of law and human 
rights in Russia.
    It continues to support, despite all the obstacles that 
have been put out by the Putin government in the last few 
years. I mean, it has been declared an undesirable 
organization. They passed a special law for this. It was the 
first one, I believe, to be declared undesirable. And if you 
are undesirable, it means that you cannot operate in Russia at 
all. That is what they did.
    But it continues the work. I mean, there are many 
opportunities and many projects that you can do for Russian 
citizens outside of Russia. For instance, like training 
seminars and other such things. And there are things it 
continues to do in Russia through partners, through longtime 
partnerships that they had with Russian NGOs.
    And I would just say those organizations that have proven 
their reputation for many, many years, such as the National 
Endowment for Democracy, such as both of the party institutes 
represented at this hearing, which have also been, both of 
them, declared undesirable organizations and are now on the 
Russian Justice Ministry list. Those organizations whose record 
is unbleached and unquestionable for many years, I think they 
deserve continued support.
    And if those organizations have the support reduced and 
undermined, I think that would, going back to your question, 
Mr. Chairman, send exactly the wrong message.
    Senator Lankford. Thank you.
    Senator Graham. Mr. Surotchak, could you come in on this?
    Mr. Surotchak. Very briefly. Two points. I think we need to 
be very focused on the fact that different organizations have 
different target audiences. And I think sometimes we make a 
mistake by confusing, for example, through all of support for 
political parties and political party development and the role 
of support for civil society. Unfortunately, when you conflate 
the two, neither the political parties in the countries that we 
work in, nor the civil society ends up fully understanding its 
role.
    So I think it is important to choose implementers that are 
focused on their priority partner organizations, and secondly, 
and more importantly, transparency. All right. We have to have 
full clarity about where the funding source, what the funding 
sources for our work are and where they go in the field. And 
organizations like IRI and NDI and, of course, the National 
Endowment for Democracy, of course, you know, deliver that kind 
of transparency.
    Senator Lankford. Thank you. Mr. Chairman, I appreciate 
that and I would look forward to in the days ahead providing 
some level of transparency like that for the American taxpayer 
dollars that are going out and the effectiveness and the 
metrics and how that works because I think we need to be 
engaged in places to be able to share that value, but I also 
want to make sure that we are watching those dollars to make 
sure those organizations are actually either accomplishing it 
and also accomplishing what we hope they would.
    Senator Graham. I could not agree with you more. We talked 
about the triangle countries, but this is a constant theme you 
bring up and I think you are right to bring it up. The more we 
can justify the money we spend and what we get for our money, 
the more money will be available to us. And so we will continue 
this discussion.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. And I want to 
start by thanking the chairman of this subcommittee for the 
measures that he has taken to respond to aggression from the 
Putin regime around the world as well as actions he has taken 
on a bipartisan basis to respond to the Putin's regime's 
interference in our elections. And I think you made a very good 
point that it is important that we always distinguish between 
actions of the Putin regime and the will of the Russian people 
because we have somebody who is not an elected leader. We 
cannot pretend that he represents the will and the views of the 
Russian people. I think that is a really important distinction 
to continue to make.
    Dr. Jewett, thank you and your work at NDI. Mr. Surotchak, 
thank you for the work you do at IRI. And, of course, Mr. Kara-
Murza, thank you for your courage, your leadership, and your 
wife. And I want to also reflect the views that my other 
colleagues have said with respect to the real risks you take. 
We are fortunate that you are here with us today.
    I do want to explore a little bit the effect, the comments 
of both Candidate Trump and now President Trump are having in 
Russia and the extent to which Vladimir Putin uses those 
comments to his own purposes. And I make those comments because 
not only do we know that Putin interfered in our election, but 
Putin, according to all of our intelligence agencies, weighed 
in in favor of the election of Donald Trump.
    And I want to make it clear. I am not arguing that that 
made the difference in the outcome, but it clearly shows the 
intent of where Vladimir Putin and his regime are. And here are 
some of the things that Candidate Trump said.
    On April 12, 2014, he said of Putin, and I quote, ``He 
could not have been nicer. He was so nice and so everything, 
but you have to give him credit for what he is doing for that 
country in terms of their world prestige is very strong.''
    On December 18, 2015, Donald Trump compared Putin to 
President Obama saying that Putin is the strong leader.
    On December 20, 2015, when asked whether he, Candidate 
Trump, condemned Putin's killings of journalists and political 
opponents, Donald Trump said, ``But in all fairness to Putin, 
you are saying he killed people. I have not seen that. I do not 
know that he has. Do you know the names of the reporters that 
he has killed?''
    On February 6--well, on September 7, 2016, Donald Trump 
said in a town hall, ``If he says great things about me, I am 
going to say great things about him. I have already said he is 
really very much of a leader.''
    And this defense of Putin continued after the election. On 
February 6, 2017, President Trump defended Putin when Bill 
O'Reilly called him a killer, saying, ``There are a lot of 
killers. Do you think our country is so innocent?'' That was 
the response of President Trump.
    I worry very much about this false equivalence that 
President Trump has created between the United States and 
Russia under Vladimir Putin. I would be happy to supply 
President Trump with the names of people who have been killed 
by this regime. We heard many today, Boris Nemtsov and many 
others.
    We have also seen Vladimir Putin using some of these 
comments and even picking up the phrase ``fake news'' to try 
discredit legitimate criticism aimed at the Putin regime.

      ROLE OF U.S. IN COUNTERING RUSSIAN INFLUENCE AND AGGRESSION

    So, Mr. Kara-Murza, could you talk a little bit about how 
comments made by American leaders have been used by Vladimir 
Putin to serve his own interests?
    Mr. Kara-Murza. Thank you very much, Senator Van Hollen, 
for this question.
    First of all, the Putin regime certainly is interested in 
international legitimacy and international legitimization. It 
has been the case for many years. It still even is the case 
today. Despite the--just the levels of the repression that they 
have gone to, they still would like to be accepted by the 
international community. And so I think it would not be very 
useful for Russia and I do not think it would be in Russia's 
national interests--meaning the country and not the regime--to 
legitimize Vladimir Putin's regime.
    It is important to be open and clear and honest about what 
this regime is, that this is not the product of democratic 
elections, that it is not a democratic government. It is not 
based on the checks and balances or the institutions that are, 
for instance, provided in the Russian Constitution, but are 
not--have not been active for many years.
    I would also say this, and I think this is a very important 
point. It is not the job of Mr. Trump or Ms. Merkel or Ms. May 
or anybody else among the Western leaders to effect political 
change in Russia and we never would ask them to. It is only our 
job and our task. It is the task for Russian citizens and the 
Russian opposition. And we certainly do not ask for regime 
change. We do not ask for any political support. These are the 
Kremlin propaganda points supposedly. Of course, that really is 
fake news.
    What we do ask for, the only thing, in fact, we ask for 
from our friends in the international community, including the 
leaders of the democratic countries, is that you are honest and 
open about what is happening in our country, that you recognize 
and call things for what they are, and that you stay true to 
the values and principles of which your systems are based. And 
if your systems are based on the rule of law and in respect to 
human rights, it probably is not very good to accept, for 
instance, the money that are the product of corruption and 
human rights abuse.
    For years and years and years now, the people, you know, 
the people close to Putin, the operatives and the leaders of 
the current regime, have used Western countries and Western 
financial systems as havens for their money, for their 
families, for their investments. Even in this anti-corruption 
investigation done by Navalny with regard to Medvedev which was 
followed by these mass protests over the weekend, not all of 
these properties are in Russia, for example. Some of them are 
in Italy. And it is not news that Western countries have been 
favored destinations for some of these crooks and human rights 
abusers. And this should stop, frankly, because this is 
hypocrisy and this is double standard.
    So we are not asking, God forbid, Western leaders to 
interfere in any way in our political process. We are not 
asking you to do a regime change or to effect change in our 
country. This is for us to do, and we will do this. All we ask 
you is to stay honest and open and call things for what they 
are.

                          FALSE EQUIVALENCIES

    Senator Van Hollen. All right. Thank you. And I am assuming 
you would agree that it is false equivalence to draw a 
comparison between the democratic system in the United States 
with all its imperfections, but nevertheless, a system devoted 
to democracy and personal freedom, that it is a false 
equivalence to compare that system with what we see in Putin's 
Russia today.
    Mr. Kara-Murza. Absolutely. And it has actually been a long 
held tool of the propaganda going back to Soviet times to try 
to pretend there is equivalence. And whenever they heard, you 
know, the Soviet leaders or people in Putin's regime today, 
when they hear criticism about the human rights situation, they 
always say, ``But, you know, you are the same or you are 
worse.''
    And there is this really Orwellian sounding new position of 
the Russian Foreign Ministry. There is a guy called Delgov. He 
is a representative for human rights, rule of law, democracy, 
something like this. And every year they produce a report 
detailing all these horrible human rights abuses in countries 
like Canada or the U.K. or Belgium, some of the worst human 
rights abuses you ever heard of. And, I mean, it is funny and 
ridiculous for us, but this is their line, that everything is 
the same, that these guys are just as bad as us.
    So when we say that it is important to practice the 
principles that you preach when we talk with our Western 
counterparts about this, it really is important because do not 
give them any excuses to do this, but also when they are saying 
these things, be ready to call them out for what it really is. 
Yes. So, absolutely. I do not think there is any equivalence 
between a system of government based on the rule of law and 
democratic elections and a corrupt autocracy that is Vladimir 
Putin's regime when, as I mentioned earlier, we have not had a 
more or less free and fair election in our country in 17 years.
    I still remember the time when we had elections in our 
country that meant something. A lot of these youngsters that 
came out to protest last Sunday do not. For them, it is 
something out of a history book, and we should really keep that 
in mind.
    Senator Van Hollen. Well, thank you for being here to tell 
the truth, even at great personal risk.
    Senator Graham. Thank you. I think, Senator Shaheen.
    Senator Shaheen. Thank you. And again, thank you all very 
much for being here.
    I just had another question that you may have responded to 
earlier, but what--as you look at the future--I think this is 
probably particularly for Mr. Kara-Murza--how do you see 
organizing in Russia for the future? I mean, I assume the space 
for political dissent is much narrower than it has been. You 
talked about the 17 years since there was a real election. So, 
and we have seen so many NGOs expelled from Russia and the kind 
of civil society building and support that has gone on there is 
no longer--no longer exists.

                     PROMOTING DEMOCRACY IN RUSSIA

    So how do you think things evolve in a way that begin to 
change for people in Russia to be freer and have more 
opportunities for expression and access to information and 
participation in a democratic process?
    Mr. Kara-Murza. Thank you very much, Senator Shaheen, for 
this question.
    I think, again, there are two sides to this. One is kind of 
the side that everybody sees, the official one. It is the 
restrictions and the blacklisting and the foreign agents law 
and the undesirable law and all these crackdowns and 
repressions on any kind of organized civic activity. It really 
is anything. I mean, they are afraid of--it is not just--this 
is also important to say, I think. It is they are not just 
concerned about the regime that is about independent political 
activity, but about any kind of independent civic activity.
    I mean, for instance, now there is--as we speak, there is 
protest action going across Russia of long haul truck drivers 
who are protesting against new tariffs that are being imposed 
on them. This is not explicitly political. They do not, for 
now, at least, have any political demands, but the authorities 
are certainly very unhappy about this. They are unhappy about 
anything that is beyond their control. And in the last few 
years they have passed every single kind of law and imposed 
every kind of restriction on this activity. This is one side.
    But the other side is really the one that gives us hope and 
that, you know, for the sake of which we continue our work. And 
it is the people, the people of Russia, and across the country. 
And as I mentioned, in my capacity as Vice Chairman of Open 
Russia, I have traveled across the whole country basically in 
the last 3 years. I have made it as far as Vladivostok. But 
certainly from Leningrad to Chaykovsky. You know, from the 
Baltic to the Bakal. And we have had events in many different 
cities and events, public events, debates or discussions or 
lectures or round tables or film screenings to try to maintain 
that space for political discussion that is being squeezed and 
shrunk.
    And back a few years ago, Boris Gryzlov, was then speaker 
of the Russian Parliament, he was one of the leaders of the 
United Russia Party led by Mr. Putin and Mr. Medvedev. He said 
his famous phrase infamous, ``Parliament is not a place for 
discussion.'' He is on the record of saying this.
    And it is not just a Parliament. It is there are fewer and 
fewer places for discussion in Russia generally and we try to 
account to that and we try to maintain and where we can expand 
this space for public discussion, be it through media projects 
or through actually holding those events on the ground in 
Russia.
    And every time, as I mentioned, the authorities try to 
sabotage and prevent us from going ahead. You know, they send 
the police to storm the buildings to evacuate everybody. There 
are fake bomb threats. The electricity would go off. And so, 
but people always come and they always attend and they are 
always interested. And we have never yet had anyone cancel 
because of this. We had to try to find a different place. We 
had to hold events on the street. We have held one at a 
swimming pool once in Novosibirsk. We do it anyway. That is 
okay. But the people come and they participate and they are 
interested. And it is that, I think that is much more important 
than all those artificial restrictions.
    And if you look again at the protests that happened last 
Sunday, most of those protests were ``unsanctioned'' which 
violates Article 31 of the Russian Constitution which 
guarantees freedom of assembly, not to mention international 
documents, but the local police and local authorities said, 
``No, these actions are not authorized. You are not allowed to 
come out.'' And people still came out in tens of thousands 
across the country. And they were met by riot police and the 
National Guard and so on, but they still came and I believe 
they will continue to come out.
    And this is really the biggest source of hope for the 
future, I think, for the future of Russia because this coming 
generation, this young generation, is realizing increasingly 
that this regime is a dead end for Russia, that it is depriving 
them of prospects and future and of opportunities. And there is 
really nothing much Mr. Putin can do about that, especially 
given that this is the face of tomorrow, the young generation. 
And I think that is the most important thing.
    Senator Shaheen. Well, thank you very much and I hope you 
will take back the message that there are those of us in 
Congress in a bipartisan way who continue to support your 
efforts and hope that you will be successful and are here to do 
everything we can to help you.
    Mr. Kara-Murza. Thank you very much.
    Senator Graham. Senator Van Hollen. Well, thank you. You 
have been excellent. Just my observations and we will wrap it 
up. We got here in a bipartisan way.
    I have talked to President Bush personally about this, and 
he thought it was a miscalculation in terms of looking into 
Putin's soul, that he regrets that. He openly talked about that 
not long ago. He miscalculated the man in front of him and all 
I can say about President Obama in the debate with Romney, that 
Romney was more right than Obama about Russia: the reset has 
not worked.
    Providing more flexibility after the election did not get 
us to where we wanted to go, so we are where we are from 
miscalculation to naive. And I worry about the Trump 
Administration empowering Russia, and I do not want that. When 
I hear Secretary Tillerson speaking out in support of the 
people in the streets that is encouraging. I know where 
Secretary Mattis is at in terms of Russia being a threat, 
General Dunford. I think I know where the Congress is, as well.
    We are together. We got here together in terms of allowing 
Russia to get powerful, Putin, at our expense collectively and 
I think we will only get out of this collectively pushing back. 
I will urge Secretary Tillerson when he goes to Russia to meet 
with opposition leaders and people who are NGOs who have been 
on the front lines of battle.
    So, let it be said that we have all made mistakes and we 
are not going to fix them until we address the problems we have 
created and let it start with sanctions against Russia. They 
did interfere in our elections. They did not change the 
outcome, but they definitely interfered. I can say this about 
Russia: it does not matter if you are right or left. If they 
think they have an advantage supporting you, they will. Trump 
could be next. If he pushes back, they will turn on him.
    The bottom line is I do believe German Chancellor Angela 
Merkel is in the crosshairs of this. The more we talk about it 
in America in terms of what they are trying to do to democracy 
in Europe, the better off we are. So I want to issue a 
challenge to the Senate. It is important we act before the 
French elections.
    It is absolutely important at a minimum we have a markup in 
the Senate Foreign Relations Committee regarding a bipartisan 
bill that would sanction Russia for interfering in our election 
and trying to upend democracy throughout the world. It is vital 
that we actually have a Senate debate and pass a sanctions bill 
to put on the President's desk punishing Russia for what they 
did in America to help our friends in Germany. By September I 
hope we can come together in the House and the Senate and put a 
bill on the President's desk that he will sign to let Russia 
know that we did not forgive and forget and to let our European 
allies know that we stand with them when it comes to the 
threats they face.
    This is a defining moment for democracy throughout the 
world. We will not cut this budget without one hell of a fight. 
If it is up to me, we are going to spend more because the more 
we spend now, the safer we will be later. And the more hearings 
we have like this, the easier it would be to justify the 
involvement by America because we see what happens when 
Republicans and Democrats misjudge Putin. I do not want to 
continue what I have seen for the last 12 years. I want to 
change it. I want to urge our President to keep an open mind 
about the guy he is dealing with.
    Putin is not a friend of democracy. He is not a friend of 
America. And above all else, he is not a friend of Russia. If 
you really cared about the people that you are governing, you 
would not steal them blind. If you really thought you were 
secure in your ideas, you would not have to kill people who 
challenge them. We are going to push back and we are going to 
push back hard. And your presence here today is part of that 
pushback.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you all. The subcommittee record will remain open 
until Friday for further questions.
    On April 25, we are going to take up the President's fiscal 
year 2018 budget request for the 150 account with outside 
witnesses and on May 9 we are going to have a hearing on 
democracy programs.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing.]
               Questions Submitted to Vladimir Kara-Murza
              Question Submitted by Senator Lindsey Graham
    Question. How can the U.S. be most helpful?
    Answer. Most importantly, by being honest about what is happening 
in Russia and by staying true to your principles. Do not treat Vladimir 
Putin as a desired international partner. Do not enable the export of 
corruption--political or financial--from Mr. Putin's regime to the 
West. Do not extend a welcome to those who abuse the rights of, and 
steal from the Russian people. It is particularly important in this 
regard to continue implementing the Sergei Magnitsky Rule of Law 
Accountability Act, which provides for targeted visa and financial 
sanctions against individuals responsible for gross human rights abuses 
in Russia. Those who violate the basic norms of the democratic world 
should not be allowed to enjoy its privileges. It is also very 
important that the U.S. does not equate Russia with Vladimir Putin's 
regime--rhetorically or in policy. For example, it is 
counterproductive--as well as a gift to the Kremlin's propaganda--to 
refer to restrictions imposed on Russian state actors in connection 
with their actions in Ukraine or with cyber-attacks as ``sanctions on 
Russia.'' It should be made clear that these measures target Vladimir 
Putin's unelected regime, not the Russian people. And, while 
maintaining a principled stand with regard to the Kremlin, it is 
important for the U.S. to continue an active engagement and dialogue 
with Russian civil society. This dialogue can serve as an important 
foundation for future cooperation between our countries.
                                 ______
                                 
           Question Submitted by Senator Christopher A. Coons
    Question. Since 2011, there has been an estimated drop of 45 
percent in the number of American students studying in Russia. What is 
the value of people-to-people exchanges in countering Russian influence 
and what is its relation to public diplomacy?
    Answer. People-to-people exchanges provide an opportunity to look 
beyond the current political situation (and the current political 
regime in Russia) and lay the foundations for a long-term relationship 
between American and Russian societies based on mutual understanding 
and trust. Human interaction and exposure to each other's culture and 
language go a long way in refuting the myths and stereotypes created by 
the Kremlin's propaganda. Political education is an area of particular 
importance in this regard. During the 2016 U.S. presidential election, 
Open Russia organized a trip by a group of Russian pro-democracy 
activists and campaign volunteers to the United States so that they may 
get first-hand knowledge of the American democratic process. A strategy 
based on people-to-people exchanges--with a special focus on young 
people--can build bridges between the next generations of political and 
economic leaders in the United States and Russia and prepare the 
groundwork for future cooperation. It is the best long-term investment 
in an improved relationship between America and Russia.
                                 ______
                                 
                  Questions Submitted to Laura Jewett
             Questions Submitted by Senator Lindsey Graham
    Question. What would a one-third reduction in the 150 foreign 
assistance budget mean for democracy assistance?
    Answer. A cut of that magnitude would gravely blunt one of the most 
cost-effective foreign policy tools we have. Hybrid warfare would go 
unanswered and the United States and Europe would become far more 
vulnerable to these threats.
    Unaccountable governments give rise to corruption and instability 
and often become havens for extremism and terrorism. It is in our 
interest to help build resilient democratic institutions that respond 
to the aspirations of their citizens and serve as foundations for 
reliable partnerships with the United States.
    Question. How can we ensure that democracy assistance programs 
align with U.S. foreign policy objectives and that taxpayer funds are 
being spent responsibly?
    Answer. To ensure that democracy assistance is strategic and 
effective, the U.S. Government--including the White House, State 
Department, Congress, and overseas embassies--can set the tone and 
provide needed resources. At the same time, much of the day-to-day 
democratic development work should be carried out, with proper 
oversight, by nongovernmental organizations, which operate in the realm 
of people-to-people relations. Such mission-driven groups often have 
pre-existing, global relationships and are not constrained by the 
stringent rules of formal diplomacy. They also often provide value-for-
money in comparison with for-profit organizations. Most important, in 
countries where a primary issue is the paucity of autonomous civic and 
political institutions, the very idea that government should not 
control all aspects of society can be undermined by a too visible and 
too direct donor government hand.
    Pluralism in democracy assistance has served the United States 
well, allowing for diverse yet complementary programming that, over the 
long term, could not be sustained by a highly static and centralized 
system. As a practical matter, people making a democratic transition 
require diverse experiences and expertise, along with broad peer 
support, so it is appropriate and beneficial for programming to be 
implemented by a range of credible organizations. In NDI's experience, 
proactive coordination among these groups and their respective donors 
maximizes effectiveness and prevents duplication. Transparency and 
accountability in the use of tax dollars are also paramount.
    Pluralism among donors is also advantageous. For example, funding 
by the National Endowment for Democracy (NED) has allowed the Endowment 
and its four core institutes to plan strategically, yet respond quickly 
and flexibly to emerging opportunities and sudden problems in rapidly 
shifting political environments. In addition, the NED has been able to 
operate effectively in closed societies where direct government 
engagement is more difficult. USAID has provided the basis for longer-
term commitments in helping to develop a country's democratic 
institutions. The State Department's Bureau for Democracy, Human Rights 
and Labor and other programs within the Department, such as the Middle 
East Partnership, have given the U.S. Government the capacity to 
support--without cumbersome regulations--cutting edge and highly 
focused democracy initiatives for individual countries, as well for 
regional and global initiatives.
    One of democracy's central tenets is the right of all citizens to 
have a voice in the decisions that affect their lives. This in turn 
depends on pluralism among civil society and political parties, 
credible elections, and genuinely representative governing 
institutions. These principles have informed U.S. democracy assistance 
objectives over the past three decades, if not longer, and should 
continue to shape policy going forward. Democracy assistance is not 
about who wins an election, but who gets to decide. This right belongs 
to the citizens of the country. For this reason, NDI has always worked 
with a broad spectrum of ``small d'' democratic parties and political 
movements, from left of center to right of center.
    Question. How can the United States be most helpful?
    Answer.
    --Acknowledge that hybrid warfare as the threat to global security 
            that it is.
    --Commit to supporting the democracy and sovereignty of Ukraine and 
            Georgia, because democratic success in these countries 
            would reverberate throughout the region. Failure would be a 
            victory for authoritarian aggression.
    --Focus on four baskets of responses:
      -- Reinforcing transatlantic alliances and reaffirming democratic 
            principles.
      -- Strengthening democratic institutions in the affected 
            countries. This is the first line of defense.
      -- Helping governments develop whole-of-government counter-
            strategies. This cannot be left to civil society. 
            Governments need to enlist public-private collaboration.
      -- Helping CSOs, parties and journalists access information, 
            tools and strategies to help themselves and each other.

    Question. What can we in Congress do to support you and the CSOs 
and local partners with whom you work?
    Answer. Congress has a critical role to play by remaining engaged; 
holding more hearings; visiting the affected countries; meeting with 
political and civic leaders visiting from those countries; raising 
these issues in public forums; and continuing to defend democracy, our 
alliances, and our foreign assistance.
    Question. Why is this the United States' responsibility?
    Answer. In this interconnected and interdependent world, what 
happens for good or bad within the borders of states has regional and, 
sometimes, global impact. We have a direct interest in how people live 
and how they are treated by their governments.
    Our ultimate foreign policy goal is a world that is secure, stable, 
human and safe, where the risk of war is minimal. Most of the violent 
crises around the world erupt in nondemocratic places.
    So supporting democracy aligns with our hard security interests. 
But we should not and need not do this work alone. Many other 
governments, intergovernmental organizations and NGOs around the world 
are engaged in democracy assistance and, increasingly, the response to 
hybrid warfare. This community includes the British, Swedes, 
Norwegians, Canadians, Slovaks, Estonians, and the Swiss, as well as 
the EU and the OSCE, to name just a few of the non-U.S. players on this 
field.
    The more we can work together on these issues, the better.

                          SUBCOMMITTEE RECESS

    The subcommittee stands in recess subject to call of the 
Chair.
    [Whereupon, at 4:21 p.m., Wednesday, March 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
